Financing the Fight
Table of Contents

Message from the Secretary of the Air Force . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .ii
Message from the Assistant Secretary of the Air Force, Financial Management and Comptroller . . . . . .iii
          Management Discussion and Analysis
                     Air Force in Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
                     Air Force Organizations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
                                    Major Command (MAJCOM) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
                     General Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
                                    Quality People/Force Shaping . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4
                                    Transforming Nonappropriated Fund (NAF) Business Operations . . . . . . . . . . . . . . . . . . . . . .5
                                    Personnel Service Delivery . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
                                    Operational Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
                                    Financial Management Transformation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
                     Air Force Working Capital Fund Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
                                    Supply Management Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
                                    Depot Maintenance Activity Group . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14
                     Financing the Fight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16
          Financial Statements
                     General Fund
                                    Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
                                    Footnotes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25
                                    Consolidating and Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .67
                                    Required Supplementary Stewardship Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .77
                                    Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .89
                                    Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .99
                     Working Capital Fund
                                    Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .107
                                    Footnotes to the Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .113
                                    Consolidating and Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .145
                                    Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .155
                                    Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .159




                                                                                                                                                                                   i
      United States Air Force


                                     SECRETARY OF THE AIR FORCE
                                                 WASHINGTON DC


                                                  November 2006


                                                Message from the
                                             Secretary of the Air Force



I am proud to report that in Fiscal Year 2006 the Airmen of the United States Air Force responded with
distinction to the many challenges our nation faced. Whether in the Global War on Terrorism, in defending our
homeland, in humanitarian and peacekeeping operations, or in ensuring the readiness of the world's greatest air,
space, and cyberspace power, our nation's Airmen performed magnificently.
Our financial management team remains a key enabler of these Air Force efforts. As proud stewards of the
country's resources, they are confidently entrusted with our Air Force finances. Those resources allow us to
accomplish our mission - to deliver sovereign options for the defense of the United States of America and its
global interests - to fly and fight in air, space and cyberspace.
Through Air Force Smart Operations for the Twenty-First Century, we have focused our efforts to more
efficiently accomplish our mission, support our people, and modernize our force.
Our expeditionary fighting forces, centered on the Air and Space Expeditionary Force, provide the foundation
for our operations. We continue to closely align the active duty Air Force, Air National Guard, and Air Force
Reserve with Total Force initiatives to enhance our overall capability, and as recent developments illustrate, we
are fully engaged as a Total Force in the Global War on Terrorism.
We have also remained focused on caring for and developing our Airmen - our most valuable resource.
They face tremendous challenges, and in FY2006 we continued seeking ways to maintain and improve their
training as well as personal and professional development.
Modernizing our aircraft inventory, which is the oldest in Air Force history, will allow our Service to maintain
its technological advantage and build a portfolio of military capabilities needed to deliver sovereign options to
the nation.
Our financial management team is also focused on transforming to deliver improved service, better information
reliability, integration and visibility in our financial management processes. These financial statements illustrate
the success of the Air Force over the past year, as well as specific financial management accomplishments.
The publication of our financial statements complies with the requirement set out in the Chief Financial Officers
Act, and this financial information addresses both our General Fund and Working Capital Fund activities.
The service of our financial managers remains nothing short of outstanding – "Financing the fight," while providing
stellar contributions to America's air, space and cyberspace capability.




                                                                             Michael W. Wynne




ii
                                                                  2006 Annual Financial Statement


                                    DEPARTMENT OF THE AIR FORCE
                                                WASHINGTON DC
                                      OFFICE OF THE ASSISTANT SECRETARY

                                                  November 2006


                                                Message from the
                                       Assistant Secretary of the Air Force,
                                     Financial Management and Comptroller



I share the confidence and pride expressed by the Air Force Secretary in our financial management
professionals. In Fiscal Year 2006, we continued our support to ongoing Global War on Terrorism operations
throughout the world, responded to natural disasters, and continued to improve our financial processes,
systems and personnel.
The FY2006 Air Force Financial Statement reflects the wise investment America has made in its Air Force.
It includes a Management Discussion and Analysis section that more precisely illuminates Air Force efforts and
contributions. It fulfills the requirements of the Chief Financial Officers Act, documents the expenditures
devoted to our General Fund and Working Capital Fund, and reviews performance measures established as
part of the Government Performance and Results Act.
Financial management plays a key role in fulfilling the Air Force mission, improving that support and
conforming to the law is at the center of the Air Force financial management transformation. Our
Financial Management Vision is to:
• Become a partner in strategic Air Force decisions.
• Recruit, prepare and retain a well-trained and highly educated provisional team for today and tomorrow.
• Make processes efficient and effective to produce accurate and relevant financial information.
• Reduce our cost structure by employing leading-edge technologies that continuously streamline
   financial management processes and increase capabilities.
• Provide our customers with world-class financial services.
Our financial management team members are accomplishing these goals while stressing accountability,
visibility and the highest-quality management skills available anywhere. This remains our top priority.
We continue to make progress toward achieving financial information integrity. This year we begin validating
individual lines on our financial statement. One of the critical steps in this effort will be to thoroughly evaluate
the information comprising our Fund Balance with Treasury and our Cash and Other Monetary Assets entries
as major steps toward a complete and accurate presentation of our financial information.
We will never forget that we are financing the world's finest air and space power and that we have the obligation
to be good stewards of the resources entrusted to us. Air Force financial management professionals have met
that obligation, and will continue to do so, as we proudly preserve–your strategic partners ...“financing the fight!”




                                                                                                                   iii
                                                                  2006 Annual Financial Statement


Management Discussion and Analysis
Air Force in Action                         to meet the global challenges of today
                                            and tomorrow.” We are also undertak-
The Air Force vision of “Lasting            ing innovative recruiting and retention
Heritage…Limitless Horizon” encapsu-        efforts, military housing, and new man-
lates how America’s Airmen have             agement systems for personnel actions
created the world’s—and history’s—          and civilian employment.
greatest air, space, and cyberspace
power. In FY2006, this power was            Another element of this foundation is
used around the globe to face, and          Maintenance, Modernization, and Recapi-
prepare for, mission requirements           talization of Air Force systems – essen-
across the full spectrum of conflict.       tially transforming the way we do busi-
                                            ness. In some cases, the Air Force is
Our first priority is to maintain our
national focus on winning the Global        planning to use older aircraft with system
War on Terrorism (GWOT). In                 upgrades to extend service life. Bearing
FY2006, the Air Force continues to be       in mind the Air Force is dealing with
a part of a joint and coalition team with   service life extensions, we are also mov-
the Army, Navy, Marine Corps, Coast         ing to bring newer systems to the field,
Guard, and our allies. Whether flying       including the F-22A Raptor, unmanned
fighters, conducting space operations,      aerial vehicles and intelligence, surveil-
operating unmanned aerial vehicles or       lance and reconnaissance aircraft.
maintaining vigilance over the Home-        In this report, you will also read how
land, all of America’s Airmen, no matter
                                            our financial management community
their specialty, contribute to this mis-
                                            supports Air Force missions and initia-
sion. They have performed tremen-
                                            tives worldwide. All three goals – win-
dously, and in many cases heroically, in
                                            ning the GWOT, taking care of our
defending both our freedom and the
freedom of others.                          people, and recapitalizing our force –
                                            are critical to maintaining Air Force
In defending our country, our Airmen        capabilities in the service of the nation.
continue countless hours of surveil-
lance and remain on constant alert,         Looking into the future at how we will
ensuring that our airspace is protected     accomplish these three goals, we are
while our people stand ready for what-      taking a number of bold steps. In order
ever missions may come their way,           to respond swiftly, flexibly and decisive-
including humanitarian relief and rescue    ly to asymmetric, irregular, and emerg-
operations.                                 ing threats, we have embarked on a
                                            bold new initiative known as Air Force
To provide the foundation for these
vital capabilities, the Secretary of the    Smart Operations for the 21st Century
Air Force and the Chief of Staff of the     (AFSO21). This will allow our Airmen
Air Force have highlighted two addi-        to respond to everything from major
tional USAF priorities. The first of        conflicts to humanitarian relief. Our
these is Developing and Caring for Air-     Airmen are doing this with remarkable
men. As the Air Force Posture State-        success, despite dealing with the oldest
ment 2006 explains, “we must manage         inventory of aircraft in the storied his-
our force to ensure the Air Force is        tory of both the Army Air Corps and
properly sized, shaped, and organized,      the Air Force.


                                                                                                1
      United States Air Force


                                                                                 mand (STRATCOM). Provide air
                                                                                 defense forces to North American
                                                                                 Aerospace Defense Command
                                                                                 (NORAD).
                                                                                 AIR EDUCATION AND TRAINING
                                                                                 COMMAND (AETC)
                                                                                 Mission - Recruit, train, and edu-
                                                                                 cate professional, expeditionary-
                                                                                 minded airmen to sustain the com-
                                                                                 bat capability of America’s Air
                                                                                 Force. Conduct joint, readiness,
                                                                                 and Air Force security assistance
                                                                                 training.
                                                                                 AIR FORCE MATERIEL COMMAND
                                                                                 (AFMC)
                                                                                 Mission - Deliver war-winning
                                                                                 expeditionary capabilities to the
Underpinning all of this are our        the operational commands, the
                                                                                 warfighter through development
financial management profession-        divisions are generally defined
als, both military and civilian.                                                 and transition of technology, pro-
                                        according to purpose or location
Their attention to detail, expertise,                                            fessional acquisition management,
                                        (e.g., combat, movement of peo-
and professionalism ensures excel-      ple and supplies, Pacific and Euro-      and world-class sustainment of all
lent Air Force stewardship of the       pean theaters). The support com-         Air Force weapons systems.
nation’s resources. They are            mands generally are organized            AIR FORCE SPACE COMMAND
indeed “Financing the Fight.”           according to function (e.g., logistic,   (AFSPC)
                                        support, or training) and are
Air Force Organizations                 directly subordinate to Air Force
                                                                                 Mission - Operate and test USAF
                                                                                 ICBM forces for STRATCOM; mis-
The command line of the Air             Headquarters. The MAJCOMs are:
                                                                                 sile warning radars, sensors, and
Force flows from the President to       AIR COMBAT COMMAND (ACC)                 satellites; national space-launch
the Secretary of Defense and then
                                        Mission - Operate USAF bombers           facilities and operational boosters;
to the Department of the Air
                                        (active and Air National Guard and       worldwide space surveillance
Force. The Air Force is headed by
                                        Air Force Reserve Command);              radars and optical systems; world-
the Secretary of the Air Force
                                        USAF’s CONUS-based fighter and           wide space environment systems;
(SECAF), with the Chief of Staff
                                        attack, reconnaissance, battle man-      and position, navigation, and timing
reporting to the Secretary. Imme-
                                        agement, and command and con-            systems.
diately subordinate to the depart-
                                        trol aircraft and intelligence and       AIR FORCE SPECIAL OPERATIONS
mental headquarters are the Major
                                        surveillance systems. Provide            COMMAND (AFSOC)
Air Commands, Field Operating
                                        combat airpower to America’s
Agencies (FOAs), Direct Reporting                                                Mission - Serve as America’s
                                        warfighting commands (Central
Units (DRUs), and the Auxiliary.                                                 specialized airpower, providing
                                        European, Northern, Pacific, and         combat search and rescue, and
Major Command (MAJCOM)                  Southern).                               delivering special power anytime,
Major Air Commands are divided          Provide nuclear, conventional,           anywhere. Also tasked with:
primarily between two types:            and information operations forces        shaping the battlefield; information
operational and support. Within         to United States Strategic Com-          operations; precision engagement;



2
                                                                      2006 Annual Financial Statement


mobility; agile combat support;           AIR RESERVE COMMAND (AFRC)              Force Audit Agency, Air Force
aerospace interface; and recovery                                                 Communications Agency, Air
                                          Mission - Support the active duty
operations.                                                                       Force Cost Analysis Agency, Air
                                          force. Serve in such missions as
                                                                                  Force Services Agency, and Air
AIR MOBILITY COMMAND (AMC)                fighter, bomber, airlift, aerial port
                                                                                  Force Weather Agency.
                                          operations, aeromedical evacuation,
Mission - Provide rapid global            aerial fire fighting, weather recon-    DIRECT REPORTING UNIT (DRU)
mobility and sustainment through          naissance, space operations, air-
tactical and strategic airlift and aer-                                           A DRU is a subdivision of the Air
                                          borne air control, flying training,
ial refueling for U.S. armed forces.                                              Force, directly subordinate to
                                          flight testing, and aerial spraying.
Provide special duty and opera-                                                   Headquarters Air Force. A DRU
                                          Provide support and disaster relief
tional support aircraft and global                                                performs a mission that does not fit
                                          in the U.S., and support national       into any of the MAJCOMs. A DRU
humanitarian support.                     counterdrug efforts.                    has many of the same administra-
PACIFIC AIR FORCES (PACAF)                AIR NATIONAL GUARD (ANG)                tive and organizational responsibili-
                                          Mission - Provide combat capability     ties as a MAJCOM. The five DRUs
Mission - Provide ready air and
                                          to the warfighter and security for      are the Air Force Academy, Air
space power to promote U.S.
                                          the homeland. Protect life and          Force Studies and Analysis Agency,
interests in the Asia-Pacific region                                              Air Force Doctrine Center, Air
                                          property and preserve peace,
during peacetime, crisis, and war.                                                Force District of Washington, and
                                          order, and public safety.
US AIR FORCES IN EUROPE                                                           Air Force Operational Test and
                                          FIELD OPERATING AGENCY (FOA)            Evaluation Center.
(USAFE)
                                          A FOA is a subdivision of the Air       AUXILIARY
Mission - Provide the joint force         Force, directly subordinate to a
commander rapidly deployable              Headquarters Air Force functional       An Air Force auxiliary is an
expeditionary aerospace forces.           manager. An FOA performs field          organization created by statute
Plan, conduct, coordinate, and sup-       activities beyond the scope of any      that the Secretary of the Air
port air and space operations to          of the major commands. The              Force may use to fulfill the
achieve U.S. national and North           activities are specialized or associ-   Air Force’s noncombat programs
Atlantic Treaty Organization              ated with an Air Force-wide mis-        and missions. The Civil Air
(NATO) objectives based on U.S.           sion and do not include functions
                                                                                  Patrol (CAP) is the only U.S. Air
European Command (EUCOM)                  performed in management head-
                                                                                  Force auxiliary to date.
taskings. Support U.S. military           quarters, unless specifically direct-
plans and operations in Europe, the       ed by a Department of Defense           This Management Discussion and
Mediterranean, the Middle East,           (DoD) authority. Examples of the        Analysis includes both the Air
and Africa.                               total thirty-two FOAs are the Air       Force General Fund and Working




                                                                                                                      3
      United States Air Force




Capital Fund, descriptions of func-    today’s mission, as well                 Reserve and Air National Guard
tional areas these funds support,      as future missions.                      under the PALACE CHASE pro-
and how they are used to further                                                gram, and to the Army under the
                                       The Air Force accessed approxi-
Air Force capabilities for the                                                  “Blue to Green” program. The Air
                                       mately 31,000 enlisted personnel
nation. The Air Force Financial                                                 Force also waived most active duty
                                       and 4,200 officers for FY2006.
Statement also satisfies provisions                                             service commitments to allow per-
                                       This was an increase of about
of the Chief Financial Officers                                                 sonnel to separate early.
                                       12,000 enlisted accessions and a
(CFO) Act.
                                       decrease of more than 600 officer        In addition to the FSB, the Air
General Fund                           accessions over the previous year,       Force also provided incentives to
                                       as the Air Force worked to bal-          those eligible to retire, such as
Quality People/Force                   ance the force. It is critical to mis-   reducing from three years to two
Shaping                                sion accomplishment to have the          years the time in grade required
                                       right person, in the right position,     for colonels and lieutenant
The beginning of FY2006 saw the
                                       at the right time, which is achieved     colonels to retire. A liberal separa-
Air Force reach its goal of reducing
manning below 360,000 in order         through balancing the force.             tion policy was also instituted to
to fall below authorized end-          To reduce officer overages, the          encourage officers serving in over-
strength. Although the Air Force       SECAF authorized the establish-          age skills to leave, by waiving
was below overall end-strength,        ment of annual Force Shaping             active duty service commitments
the forces mix between officer and     Boards (FSBs). The purpose of the        incurred for education, recent
enlisted was unbalanced. Over-         FY2006 FSB was to reduce officer         assignments, and other administra-
age in officers resulted in the Air    overages by identifying eligible offi-   tive actions. Officers (colonel and
Force paying more in personnel         cers for separation while, at the        below) were also allowed to
costs than planned, which              same time, balancing career fields       request retirement more than
stretched an already thin budget.      and officer commissioned year-           12 months from their originally
To address these imbalances, the       groups. Prior to establishment of        requested date. The FY2006
FY2006 Force Shaping Program           the FSBs, eligible officers were         National Defense Authorization
involved a variety of programs to      offered voluntary options to transi-     Act (NDAA) provided legislation
ensure the Air Force could make        tion to other forms of service, in       allowing officers to retire with only
the required reductions while          and out of the Air Force. For            8 years of commissioned service
maintaining the right skills and       example, officers could move from        instead of 10 years, provided they
experience mix to accomplish           active duty to vacancies in the          attained at least 20 years of active



4
                                                                 2006 Annual Financial Statement


service. These programs allowed        of service to remain on active duty.   Together these programs and poli-
Airmen inclined to leave or retire     The FY2006 NDAA set the maxi-          cies helped shape the Air Force by
to do so quickly and easily.           mum payment an Airman can              improving imbalances between
                                       receive for an enlistment through      many enlisted AFSCs and retaining
The Air Force also force shaped                                               the right Airmen with the right
                                       the SRB program to $90,000;
the enlisted force through the                                                skills. The Air Force will continue
                                       however, the Air Force’s retention
FY2006 Noncommissioned Officer                                                to devise programs to ensure the
                                       rate has not demanded imple-
Retraining Program (NCORP),                                                   human capital is available to pro-
                                       menting this option. The maxi-         vide the needed mission capability.
which retrained 964 personnel
                                       mum payment in the Air Force
from 30 overage Air Force Special-
                                       remains $60,000. SRBs are set by       Transforming
ity Codes (AFSCs) into those with
                                       AFSC on a sliding scale. The aver-     Nonappropriated Fund
a shortage. The results equated to
an overall achievement rate of 95
                                       age SRB payment to Airmen in           (NAF) Business Operations
                                       FY2004 was $10,700. In FY2004,         Air Force Services is transforming
percent of the Air Staff’s target
                                       the Air Force removed 82 AFSCs         NAF business processes through
goal – the best since the program’s
                                       from the list of those eligible for    Nonappropriated Funds Transfor-
inception and an amazing improve-
                                       SRBs, leaving 62 AFSCs. In March       mation (NAF-T), a four-phased,
ment over the previous year’s 69
                                       2005, that list was reduced further,   multi-year initiative to improve
percent achievement. The Career
                                       leaving only 32 AFSCs with this        financial management capabilities
Job Reservation (CJR) program
                                       financial incentive. This reduction    and leverage technology to elimi-
helped rebalance the junior enlisted
                                       saved the Air Force $102.7 million.    nate non-value added business
force as they entered their second
                                       In May 2006, the Air Force further     processes.
enlistment. All Airmen were
                                       revised the SRB List to include 37
required to obtain a CJR in one of                                            Air Force Services is transforming
                                       AFSCs. Coupled with the sav-           NAF accounting and payroll
the 146 AFSCs in order to re-enlist.
                                       ings/efficiencies gained from previ-   processes through the continued
In 17 AFSCs that had significant
                                       ous year’s SRB reductions and the      building of a NAF Shared Services
overages, CJRs were limited to the
                                       newly developed SRB modeling           Center (SSC) in San Antonio,
number needed to sustain the
                                       capabilities, the Air Force can        Texas. This follows the trend in the
career fields at their optimal man-
                                       more effectively target the SRBs to    commercial sector where decen-
ning. Airmen from these AFSCs
                                       human capital capability shortages     tralized activities are moved to
who did not obtain CJRs had the
                                       in our warfighting specialties.        one location to achieve economies
choice of applying to retrain into
one of the shortage AFSCs or leav-
ing the Air Force. Using this tool
helped improve by 17 percent the
imbalances in the 17 AFSCs where
CJRs constrained the number of
people entering a second enlist-
ment.
The Air Force continues to judi-
ciously control spending for Selec-
tive Reenlistment Bonuses (SRBs).
SRBs are an additional financial
incentive used to encourage enlist-
ed Airmen in select AFSCs with
between 17 months and 14 years



                                                                                                                   5
       United States Air Force


                                                                               level of strategic advisory services
                                                                               to commanders and leaders within
                                                                               their respective organizations.
                                                                               The PSD Transformation vision is
                                                                               to transform Air Force Personnel
                                                                               to focus on the strategic delivery
                                                                               of the right people, to the right
                                                                               place, at the right time. The end-
                                                                               state goal for the program is to
                                                                               transition the primary interface
                                                                               with customers, such that 85 per-
                                                                               cent of personnel transactions/
                                                                               inquiries are conducted through
                                                                               self-service (Web and interactive
                                                                               voice response), 10 percent
                                                                               through the contact center
                                                                               (phone, chat, email, etc.), and only
                                                                               5 percent through face-to-face
                                                                               means. The PSD concept enabled
                                                                               the release of 1,500 authorizations,
of scale and increases in pro-           the way the Department works          creating a $382.4 million savings
ductivity. This initiative will have a   and what it works on.”                between FY2006 and FY2010 that
positive impact on the manage-                                                 is being re-capitalized into the per-
                                         To execute these new initiatives,
ment, control, and reporting of all                                            sonnel transformation effort.
                                         the Deputy Chief of Staff for Man-
Air Force NAF activities by
streamlining the information flow
                                         power and Personnel established       Operational Performance
                                         the Personnel Service Delivery
and reducing operating costs                                                   The Air Force must retain, main-
                                         (PSD) Transformation program in
in the worldwide $1.2 billion                                                  tain, and operate around the
                                         order to better serve the force.
NAF operation.                                                                 world 24 hours a day, 7 days a
                                         This program is a multi-year effort
Personnel Service Delivery               designed to dramatically transform    week. This is how we accomplish
                                         the processes, organizations, and     air supremacy, protecting Ameri-
In remarks made on 10 September
                                         technology by which the Air Force     can ground commanders and
2001, the Secretary of Defense
                                         delivers personnel services to the    troops from significant air threats.
declared war on the Pentagon’s
                                         Total Force-Active Duty, Guard,       Americans fighting on the ground
bureaucratic processes and chal-
                                         Reserve, and civilians. The focus     have not been significantly
lenged us all to “wage an all-out        of the transformation is on the       attacked by fixed-wing or rotary-
campaign to shift Pentagon               development and implementation        wing aircraft in more than 50
resources from bureaucracy to the        of a new Service Delivery Model       years, but this is not something
battlefield, from tail to the tooth.”    (SDM). This new model will            we can take for granted. A key
The Secretary went on to say: “To        improve the efficiency and quality    part of this training and prepara-
compete, we need to bring the            of transaction and inquiry services
                                                                               tion is the President’s Budget (PB)
Department of Defense the human          through the re-engineering, cen-
                                                                               Air Force Flying Hour Program.
resources practices that have already    tralization, and automation of
transformed the private sector.”         processes. The SDM will also          The Air Force Flying Hour Pro-
With that challenge, several initia-     allow Personnel professionals to      gram was developed to provide
tives were launched to “transform        focus on providing an enhanced        training opportunities to prepare


6
                                                                   2006 Annual Financial Statement


units to support their warfighting      tion deviation and required               for measuring the readiness of Air
mission. Execution of the FY2005        courses of action. These evalua-          Force aircraft. MC rates reflect the
PB Flying Hour Program was 100.5        tions provide insight to possible         percentage of aircraft, by fleet,
percent. As of 31 August 2006,          future-year requirements.                 capable of performing at least one
execution was 97.1 percent, and is                                                of their assigned missions. The
                                        Weapon System
projected to exceed the PB for the                                                FY2006 aggregate MC rate as of
full year. Flying Hour Program          Performance Metrics
                                                                                  31 July 2006 is 78.7 percent, an
execution addresses the execution       The Air Force uses a variety of           increase from the FY2005 rate of
of the Active Air Force Congres-        metrics to gauge the performance          78.3 percent, and is based on a
sionally funded O&M hours. Incre-       of its weapon systems and                 combined MC rate of A/OA-10,
mentally funded contingency sup-        organizations. They are the               B-1, B-2, B-52, C-130, C-141, C-5,
port hours, Transportation Work-        barometers for measuring                  C-17, E-3, E-8, F-15, F-15E, F-16,
ing Capital Fund hours, foreign         the effectiveness of our organiza-        F-117, HC-130, KC-10, KC-135,
nation reimbursable training hours,     tional structures, our training,          HH-60, RC-135, RQ-1, T-1, T-6,
Special Operations hours, and           manpower and equipment                    T-37, T-38, and U-2 aircraft.
RDT&E hours are not included.           levels, quality of spare parts,           MC rates categorized into Fighter,
The execution of the Flying Hour        maintenance actions, and a variety        Bomber, Tanker/Airlift, and Other
Program can be impacted by con-         of other indicators of our ability to     are drawn from the aggregate
tingency operations support, main-      provide mission-ready weapons             fleet above.
tenance issues, aircraft flight oper-   systems to the warfighter. Chief
                                                                                  Non-Mission Capable Rates
ations suspensions, aircraft delivery   among these performance metrics
delays, weapons system retire-          are Mission Capable rates, Non-           Total Non-Mission Capable for
ments, and approved program             Mission Capable rates, Cannibal-          Maintenance (TNMCM) rate
changes. Though the execution of        ization rates, and engine and             is a measure of a maintenance
the Flying Hour Program does not        supply measures.                          organization’s ability to fix
define unit readiness, it can be a                                                aircraft quickly and accurately;
                                        Mission Capable Rates                     Total Non-Mission Capable for
forward indicator of possible
readiness issues. The MAJCOMs           Mission Capable (MC) rates are            Supply (TNMCS) measures spare
determine the reasons for execu-        perhaps the best-known yardstick          parts availability.


                                             Mission Capable Rates
             100
             90                                                                             85.2 86
                   78.3 78.7      77.2 77.1
             80                                                         74.8 75.2
             70                                     66.4 67.3

             60
   Percent




                                                                                                             FY05
             50
                                                                                                             FY06
             40
             30
             20
             10
              0
                   Aggregate       Fighter           Bomber            Tanker/Airlift         Other

                                                                                              Rates as of 31 July 06



                                                                                                                       7
      United States Air Force




 The FY2006 aggregate fleet            CANNs per 100 sorties, as of            The Air Force strives to make
TNMCM rate, as of 31 July 2006,        31 July 2006, is a decrease from        continual improvements in busi-
decreased from 18.1 percent to         the FY2005 rate of 4.2 and              ness practices designed to
17.9 percent. The FY2006               represents the lowest CANN              increase the efficiency and effec-
TNMCS rate as of 31 July 2006          rate since FY1994.                      tiveness of our depot mainte-
decreased from 8.2 percent to          The Engine Non-Mission Capable-         nance programs. As of
7.9 percent, representing the                                                  31 July 2006, the total number of
                                       Supply (ENMCS) rate for all Air
seventh consecutive year of                                                    aircraft in depot for FY2006 was
                                       Force engines improved as the
improving supply rates, and the                                                525, continuing the downward
                                       rate dropped to 3.6 percent, the
lowest TNMCS rate since FY1994.                                                trend in depot-possessed aircraft.
                                       lowest rate in the past eight years.
Other Key Metrics                      Engine-time-on-wing (ETOW)              Financial Management
Air Force weapon system per-
                                       rates have improved by slightly         Transformation
formance measures for FY2006           over one percent each year for
                                                                               Air Force Financial Management
provide a snapshot of the tremen-      Fighter, Bomber, and Tanker/
                                                                               (FM) envisions an Air Force operat-
dous efforts of the logistics com-     Airlift fleets over the past two
                                                                               ing at peak effectiveness and efficien-
munity to provide and support          years. Investments in engine
                                                                               cy with every dollar striking the cor-
combat-capable forces that are         modifications, spare parts, and
                                                                               rect balance among supporting the
organized, trained and equipped to     reliability-centered maintenance
                                                                               mission, maintaining the infrastruc-
provide efficient and effective        have continued to pay quality           ture, and taking care of our people.
combat and combat support              dividends for our engine fleet          We achieve that vision by providing
efforts across the full spectrum of    throughout FY2006.                      Air Force leaders with accurate, rel-
military operations.                   Aircraft MC rates are but one           evant, and timely information to
Cannibalization (CANN) rates           indicator of enhanced weapon            make the right strategic choices
reflect the number of cannibaliza-     system readiness. Programmed            while making existing operations
tion actions that occur per 100 sor-   depot maintenance and fleet mod-        more effective and efficient. In addi-
ties for a particular weapon system.   ernization activities are critical to   tion, we see Airmen resolving pay
The FY2006 aggregate rate of 3.6       maintaining mission-ready aircraft.     issues without a trip to the Finance




8
                                                                 2006 Annual Financial Statement


Office, but retaining access to        Systems Transformation:                 services, and face-to-face sup-
face-to-face support when needed.                                              port, allowing customers to get
                                       We will modernize systems to
                                                                               financial help anytime, anywhere
In recent years, we created a          provide more robust capabilities
                                                                               in the world. This Air Force
roadmap that translates our vision     that will reduce man-hours and
                                                                               Finance Services Center
into concrete, actionable, and         costs of completing transactions.
                                                                               (AFFSC) will be operational in
measurable steps. It integrates        People:                                 October 2008.
ongoing transformation initiatives
into strategy and communicates         We will continue to develop our       • Financial Advisor Transformation
priorities, focuses efforts, and       force through innovative training,      will provide enhanced analytical
serves as a filter to help determine   self-study, and developmental           decision support and financial
where to invest time, people,          assignments.                            advice to commanders. This
and resources.                         Transformation is our catalyst to       includes realigning resources to
                                       achieving the FM vision. In 2006,       provide enhanced budget, cost,
The strategic goals outlined in the
                                       through our FM operational frame-       and accounting services to the
plan are:
                                       work, we enacted Six Lanes of           unit. This improved trusted
1. Become a partner in strategic       Transformation:                         advisor role, referred to as the
   Air Force decisions.                                                        Financial Advisor, will debut in
                                       • Financial Services Transforma-
2. Recruit, prepare, and retain a                                              June 2007.
                                         tion will consolidate back-office
   well-trained and highly educated                                          • Analytical Capability Transforma-
                                         travel and pay processing into a
   professional team for today and                                             tion’s vision of the Center of
                                         centralized Central Processing
   tomorrow.                                                                   Expertise (CoE) is to provide
                                         Center (CPC). The goal is to
3. Make processes efficient and                                                expert, on-demand, specialized
                                         transition into a 3-tier customer
   effective to produce accurate                                               financial analysis support for
                                         service concept to include a
   and relevant financial informa-                                             decisions to Air Force installa-
                                         24x7 Call Center, online
   tion complemented by sophisti-
   cated decision support.
4. Reduce our cost structure by
   employing leading-edge technolo-
   gies that continuously streamline
   financial management processes
   and increase capabilities.
5. Provide our customers with
   world-class financial services.
To better achieve these goals,
FM is transforming its services,
systems, and people.
Services Transformation:
We will transition from primarily
processing and responding to rou-
tine transactions and place more
emphasis on analytical decision
support activities while streamlin-
ing financial procedures.




                                                                                                              9
       United States Air Force




  tions and Major Commands.                 supported the other transfor-          and reserve bases to provide
  The types of analytic efforts that        mation lanes by providing the          one-stop shopping for all
  the CoE will provide include              necessary training and ensuring        accounting, budgeting, and
  advice/analysis for resource allo-        FM professionals have the              decision support for their
  cation, economic analyses, busi-          necessary skills to perform            customers and commanders.
  ness case analyses, as well as            their duties in the transformed      • 18 April 2006 marked the grand
  specialized analytical efforts (i.e.,     environment.                           opening of the FM Center of
  mission changes, support agree-         • Budget Operation Transforma-           Expertise. At full capacity, the
  ments, privatization, A-76, etc.).        tion will create a world-class         CoE will deliver support to
• Combat Comptroller Transfor-              enterprise in the Headquarters         installation and MAJCOM
  mation will determine how the             Air Force Budget operation by          comptroller staff, and clear and
  21st Century FM community                 strategically allocating               unbiased analysis to installation
  prepares and deploys to support           resources, re-engineering              and MAJCOM financial manage-
  the warfighter. Deliverables              processes, and building contin-        ment customers, as well as
  include launch of a Community             uous cultural improvements.            expert training to improve
  of Practice used to share deploy-                                                analytical skills for making
                                          Transformation accomplishments
  ment information to ensure we                                                    resource allocation decisions.
                                          in FY2006 included:
  maintain a robust capability to                                                  The CoE will be fully opera-
  meet our wartime requirements,          • The site selection for the             tional in FY2007.
  as well as test and implement             AFFSC was approved and offi-         • The Combat Comptroller team
  the E-44, a handheld tool used            cially announced as Ellsworth          has provided electronic tools
  to automate processes in                  AFB in South Dakota. The               and a website for one-stop
  deployed environments.                    center will be home to shared          shopping for all deployment
• Education, Training, and Devel-           services of more than 600 pay          needs. The Combat Comptrol-
  opment Transformation created             and travel professionals, and          ler Community of Practice was
  Web-based training guides to              will service the Air Force             launched in late April 2006 and
  support the realignment of the            warfighters’ financial needs.          has already received more than
  budget and accounting liaison             It will open in October 2007.          1,300 hits. The E-44 handheld
  functions; developed an induc-          • The accounting and budget func-        device will be deployed in the
  tion course for the CoE; and              tions were realigned at all active     fall of 2006 in an effort to make



10
                                                                  2006 Annual Financial Statement


  financial transactions while          overhaul and modification of        • Establish strong customer/
  deployed easier and more              aircraft, missiles, engines,          provider relationships.
  efficient.                            other major end items, and
                                                                            Supply Management
• The Education, Training, and          associated components. The
                                        Information Services business
                                                                            Activity Group
  Development team held the
  First Decision Support Course         area was decapitalized beginning    The Supply Management Activity
  in April 2006. Additionally,          1 October 2005 (FY2006) and         Group (SMAG) provides policy,
  modern Web-based courses              became an appropriated activity     guidance and resources to meet
  are being built to support the        that no longer operates under       Air Force needs for spare parts.
  opening of the AFFSC.                 the WCF.                            SMAG manages approximately two
                                                                            million items including weapon sys-
Air Force Working                       WCFs allow the Air Force to
                                        accomplish the following:           tems spare parts, medical/dental
Capital Fund Overview                                                       supplies, and equipment and items
                                        • Ensure readiness through
Air Force Materiel Command                                                  used for non-weapon systems
                                          reduced support costs,
(AFMC) supports Air Force                                                   applications. Materiel procured
                                          stabilized rates, and
warfighters and operations via                                              from vendors held in inventory is
                                          customer service.
major business areas that operate                                           for sale to authorized customers.
                                        • Provide flexibility to adjust
as revolving funds, i.e., providers
                                          customer support needs in         SMAG consists of four divisions:
charge users for the goods and
                                          response to real-world            Material Support Division (MSD),
services provided. AFMC
                                          situations.                       General Support Division (GSD),
accounts for more than 93 percent
                                        • Focus management attention        Medical/Dental Division, and Unit-
of Air Force Working Capital Fund
                                          on net results, including costs   ed States Air Force Academy
(WCF) revenue and expense activ-
                                          and performance.                  Cadet Issue Division. AFMC
ity (excluding the Transportation
                                        • Identify the total cost of        manages MSD and GSD. Head-
WCF, which is managed by the
                                          providing support products        quarters United States Air Force
United States Transportation Com-
mand). The AFMC-managed WCF               and services.                     manages the Medical/Dental
consists of two functions: Supply
Management and Depot Mainte-
nance. These functions, referred
to as activity groups, supply singu-
lar goods and services to the Air
Force and Department of Defense
(DoD) customers as well as cus-
tomers outside the DoD (e.g.,
local and foreign governments).
Supply Management provides man-
agers expedited repair, replenish-
ment, and inventory control for
spare parts and associated logistics
support services to fulfill Air Force
needs during war and peacetime.
Depot Maintenance provides
economical and responsive repair,



                                                                                                            11
      United States Air Force


                                                                                sale to cadets. The division’s
                                                                                customer base includes more than
                                                                                4,000 cadets who receive distinc-
                                                                                tive uniforms procured from a
                                                                                number of domestic manufacturing
                                                                                contractors.
                                                                                Customers, Products, and
                                                                                Services
                                                                                In addition to the management of
                                                                                various inventories, SMAG pro-
                                                                                vides a wide range of logistics
                                                                                support services, including require-
                                                                                ments forecasting, item introduc-
                                                                                tion, cataloging, provisioning,
                                                                                procurement, repair, technical
                                                                                support, data management, item
                                                                                disposal, distribution management,
                                                                                and transportation. SMAG
                                                                                provides this support to a variety
Division and Air Force Academy           The GSD items support installation     of customers. The SMAG supply
Cadet Issue Division.                    maintenance and administrative         business also provides initial
                                         functions, field and depot mainte-     provisioning support to the Air
MSD is responsible for Air Force-
                                         nance of aircraft, and other sys-      Force Acquisition Executive.
managed, depot-level reparable
                                         tems. GSD supports more than
spare parts and some consumable                                                 SMAG Transformation
                                         150 Air Force installations
spares. The principal products of                                               Initiatives
                                         throughout the world.
MSD are serviceable spare parts
                                                                                SMAG is implementing a major
and assemblies unique to Air Force       The Surgeon General of the Air
                                         Force is responsible for the overall   redesign of the spares supply
weapon systems.
                                         management of the Medical/Dental       process through a set of initiatives
The retail operations of the WCF                                                designed to improve support to
                                         Division. This peacetime operating
are comprised of the General Sup-                                               the warfighter. These initiatives
                                         authority provides the effective
port, Medical/ Dental, and United                                               will result in a fundamental reshap-
                                         support necessary to maintain
States Air Force Academy Divi-                                                  ing of the internal management
                                         established norms in the health care
sions. Although each division                                                   processes and data systems used
                                         of USAF active military, retirees,
operates independently, all pur-                                                on a daily basis to buy, repair, and
                                         and family members. The war
chase large quantities of commodi-
                                         reserve materiel (WRM) require-        distribute the thousands of differ-
ties in order to sell small quantities
                                         ment of this division is to provide    ent items needed to maintain
directly to the ultimate consumer
                                         medical supplies and equipment         weapon systems in a mission capa-
(supporting the warfighter). Large
                                         vital to support forces in combat      ble status. Four primary initiatives
bulk buys allow the Air Force to
                                         and contingency operations.            address key areas of opportunity
take advantage of economies of
                                                                                within the spares process:
scale and achieve significant cost       The United States Air Force Acad-
savings. Additionally, each division     emy Cadet Issue Division finances      • Purchasing and Supply Chain
concentrates its efforts in a specific   the purchase of uniforms, uniform        Management (PSCM) - adapts
area of expertise.                       accessories, and computers for           commercial best practices to



12
                                                                    2006 Annual Financial Statement


  integrate purchasing and supply         executable logistics system sup-       from the source of supply and then
  processes into a single, cus-           port plans and schedules. By           subsequent delivery to the base
  tomer-centric, end-to-end               emphasizing collaboration with         customer. MICAP hours have
  process that provides the right         customers and suppliers, it            improved significantly since 1999.
  item in the right quantity and          seeks to optimize activities and       MSD items accrued an average of
  quality, on time, and at a              resources across the Air Force         five million monthly MICAP hours
  reasonable cost.                        supply chain.                          during calendar year 2000. That
• Weapon System Supply Chain            Customer Support                         number dropped to 1.3 million
  Management - a customer-facing        Performance Measures                     hours for the 12-month period
  proactive initiative that seeks to                                             ending in April 2006. CWT is a
                                        Mission Capable (MICAP) and Cus-
  improve processes and leverage                                                 newer metric but has also shown
                                        tomer Wait Time (CWT) measures
  savings achieved by PSCM                                                       a significant improvement. The
                                        allow managers to assess quality of
  strategies, while retaining ulti-                                              monthly average CWT during
                                        spares support provided and plan
  mate focus on specific platforms                                               FY2004 was 7.4 days and has been
                                        corrective action when needed.
  operated by thewarfighter.                                                     six days through the first eight
                                        MICAP is defined as the status of a
                                                                                 months of FY2006.
• Logistics Enterprise Architecture     weapon system as determined by
  - an initiative to develop a single   its ability to accomplish its assigned   Financial Performance
  authoritative strategic map of        mission. MICAP hours are                 Measures
  future logistics business prac-       accrued in a given month for items       SMAG measures financial perform-
  tices, systems, and organiza-         affecting mission capability that are    ance based on the Net Operating
  tions. This single authoritative      on backorder to an AFMC source
                                                                                 Result (NOR) for MSD and
  source defines operations and         of supply. For every day during
                                                                                 GSD.The NOR is the difference
  systems models, aligns business       the month the requisition is
                                                                                 between revenue and expenses,
  and IT initiatives, and provides a    unfilled, 24 hours are assigned to
                                                                                 i.e., a bottom-line profit and loss
  vehicle to ensure transformation      the requisition. CWT measures
                                                                                 indicator. The NOR objective of
  coordination across the Air           the average time elapsed between
                                                                                 an activity group is to break even
  Force and outside the Air Force.      customer order and satisfaction of
                                                                                 over the budget cycle. Setting
• Advanced Planning System -            that order, including the wait time
                                                                                 rates that effectively offset prior
  aims to improve the process of        – expressed in days – between the
                                        retail supply issue or backorder         year net profit or loss and break
  translating warfighter needs into




                                                                                                                 13
      United States Air Force




even for new activity in the rate-    Air Force guidance. In peacetime,       requirements driven by contin-
setting year accomplishes this        DMAG enhances readiness by effi-        gency operations.
objective. Revenues are amounts       ciently and economically repairing,
                                                                              To accomplish this, short- and long-
earned as a result of normal opera-   overhauling, and modifying aircraft,
                                                                              term strategies must be used. The
tions and usually result from sale    engines, missiles, components and
                                                                              depot maintenance strategic plan
of, or reimbursements for, goods      software to meet warfighter
                                                                              guides the DMAG to have the right
and services provided to DoD          demands. During wartime or con-
                                                                              workload capacity and capability to
activities, other federal govern-     tingencies, the group shifts to surge
                                                                              meet depot maintenance in:
ment agencies and the public.         repair operations and to realign
                                                                              (a) peacetime support, (b) surge,
Expenses are the use of resources     capacity to support the warfighter’s
                                      immediate needs.                        and (c) core requirements. To
during an accounting period in car-
                                                                              better support the services that
rying out the DoD’s mission. They     Customers, Products and                 DMAG provides to its customers,
occur from rendering services;        Services                                an integrated suite of systems,
acquiring, producing or delivering
                                      DMAG provides major overhaul            Depot Maintenance Accounting
goods; or carrying out other mis-
                                      and repair of systems and spare         and Production Systems (DMAPS),
sion-related activities. The result
                                      parts while striving to meet or         provides improved financial, pro-
is being able to provide needed
                                      exceed required standards for           duction, and material functionality
goods and services to customers
                                      quality, timeliness and cost. Both      in support of the warfighter’s
and generating the revenue to sus-
                                      AFMC depots and contract oper-          needs for quality organic depot
tain continued operations within
                                      ations accomplish these goals.          maintenance. This includes
the activity.
                                      DMAG has two principal objec-           improved financial management
Depot Maintenance                     tives. The first objective is to        support/ tools and reporting for
Activity Group                        provide organic depot repair            organic depot maintenance activi-
                                      capability for fielded and emerging     ties, including substantial compli-
The Depot Maintenance Activity
                                      weapon systems, so that warfight-       ance with legislative requirements,
Group (DMAG) ensures successful
                                      ers have mission-essential equip-       such as the CFO Act.
management and execution of com-
prehensive depot maintenance pro-     ment. Secondly, DMAG’s intent is        DMAG supports a variety of cus-
grams for Air Force-managed equip-    to ensure the ability to rapidly        tomers including Air Force Major
ment in accordance with existing      respond to those warfighter             Commands, Air National Guard




14
                                                              2006 Annual Financial Statement


(ANG), Air Force Reserve Com-        throughout DoD and industry and     measures that are used to assess
mand (AFRC), SMAG, Foreign           will no doubt continue to be in     cost, schedule, and quality of the
Military Sales, and Non-DoD          the future.                         DMAG output. These are designed
customers. Additionally, DMAG                                            to achieve accountability at the
                                     Awards and recognitions include:
provides storage, reclamation, and                                       appropriate depot maintenance lev-
regeneration for equipment not       • 2005 Public Sector Shingo Prize
                                                                         el, the Depot Maintenance Manager.
currently used by the military         for Excellence in Manufacturing
                                                                         Customer Support performance
services. This work is done at       • Warner Robins ALC, the C-5
                                                                         measures monitor progress toward
the Aerospace Maintenance and          Planned Depot Maintenance,
                                                                         DMAG goals.
Regeneration Center at Davis-          Gold “winner”
                                     • Oklahoma City ALC, the            The Due Date Performance (abili-
Monthan AFB, Arizona. Contract
                                       KC-135 Planned Depot              ty of the depot to produce aircraft
depot maintenance is transitioning
                                       Maintenance, Silver “winner”      on time and on schedule) is cur-
from the Air Force WCF to be
                                     • Ogden ALC, the F-16               rently exceeding the new standard
financed directly by the using
                                       Common Configuration              of 95 percent, holding at 98 per-
commands, SMAG, and other
                                       Implementation Program,           cent as of May 2006. The depot
customers.
                                       Silver “winner”                   performance of Air Logistics
Transformation Initiatives                                               Centers (ALCs) continues to
                                     • Ogden ALC, the F-16 Pylon
Air Force Smart Operations for                                           have a direct impact on the
                                       Shop, Silver “winner”
the 21st Century (AFSO21) is the                                         warfighter's ability to meet
                                     • 2005 DoD Lean Recognition
overarching process improvement                                          worldwide missions.
                                       Award for Depot/Center
initiative now encompassing all        Level Maintenance Organiza-       Financial Performance
transformation efforts. Process        tional Excellence                 Measures
improvement activities have          • 2006 Franz Edelman Award          Financial performance measures
reduced flow days and backlogs,
                                       for Achievement in Operations     assess the financial performance of
and avoided costs, thus increasing
                                       Research                          the DMAG. These measures are
equipment availability to the
warfighter and reducing operating    Customer Support                    designed to achieve accountability
                                     Performance Measures                at the appropriate level and also
costs in support of Expeditionary
Logistics for the 21st Century       Customer Support performance        measure compliance with DMAG
(eLog21) goals. These ongoing        measures for DMAG consist prima-    budget objectives. Budget objec-
efforts have been recognized         rily of production performance      tives are identified in each ALC’s




                                                                                                         15
      United States Air Force




financial performance plan used to     adequate to meet six months of        into the future. Our Airmen, and
measure results during execution.      capital disbursements.                indeed the country, deserve our
                                                                             best as we achieve the strategic
Cash Management                        Cash management efforts continue
                                                                             vision, and attain transparency at
                                       to focus on analyzing data and
DoD cash management policy rec-                                              all levels (financial, business prac-
                                       developing tools to identify
ommends maintaining the mini-                                                tices, data, systems, and process-
                                       changes in cash and forecast future
mum cash balance necessary to                                                es). We are your strategic part-
                                       needs. Monthly, AFMC prepares a
meet both operational require-                                               ners, acknowledged leaders in the
                                       statement of sources and uses of
ments and disbursements in sup-                                              field of financial and management
                                       cash, which is used to identify
port of the capital program. Cash                                            information, working together to
                                       areas of increases and decreases,
generated from operations is the                                             meet the needs of our nation in
                                       to monitor performance.
primary means of maintaining ade-                                            time of war and in time of peace.
quate cash levels.                                                           Financial management will be a
                                       Financing the Fight
                                                                             vital component of on-going oper-
Effective cash management is           America’s Airmen performed bril-      ations, able to meet any need
directly dependent on the availabil-   liantly in FY2006, delivering deci-   required, and the Air Force's finan-
ity of accurate and timely data on     sive air supremacy and combat         cial management professionals will
cash levels and operational results.   power as well as much-needed          continue to support them with
Cash levels should be maintained       humanitarian support. Our coun-       top-tier, world-class service -
to cover at least 7 to 10 days of      try can count on our Airmen to        always there when needed, always
operational costs, as well as cash     continue these and other missions     ready to help finance the fight!




16
               2006 Annual Financial Statement




Fiscal Year 2006
Annual Financial Statements




                                            17
      United States Air Force


Limitations to the Financial Statements
The financial statements have been prepared to report the financial position and results of operations for the
entity, pursuant to the requirements of Title 31, United States Code, Section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with the
formats prescribed by the Office of Management and Budget, the statements are in addition to the financial
reports used to monitor and control budgetary resources, which are prepared from the same books and records.

To the extent possible, the financial statements have been prepared in accordance with federal accounting stan-
dards. At times, the Department is unable to implement all elements of the standards due to financial manage-
ment systems limitations. The Department continues to implement system improvements to address these limita-
tions. There are other instances when the Department’s application of the accounting standards is different from
the auditor’s application of the standards. In those situations, the Department has reviewed the intent of the stan-
dard and applied it in a manner that management believes fulfills that intent.

The statements should be read with the realization that they are for a component of the United States Govern-
ment, a sovereign entity. One implication of this is that the liabilities cannot be liquidated without legislation that
provides resources to do so.

The Federal Accounting Standards Advisory Board (FASAB) amended the Statement of Federal Financial Account-
ing Standard No. 6 to require the capitalization and depreciation of military equipment (formerly known as
National Defense Property, Plant and Equipment) for fiscal years (FY) 2004 and beyond, and encouraged early
implementation. Accordingly, the Department began the process of developing and reporting values for these
assets in notes to the Balance Sheet, beginning in FY 2003.




18
               2006 Annual Financial Statement




General Fund
Principal Statements




                                            19
      United States Air Force
Consolidated Balance Sheet—General Fund
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                                2006          2005 Consolidated
                                                                             Consolidated          Restated
 1. ASSETS (Note 2)
    A. Intragovernmental:
       1. Fund Balance with Treasury (Note 3)
          a. Entity                                                   $          68,767,178   $      62,272,967
          b. Nonentity Seized Iraqi Cash                                                  0                   0
          c. Nonentity - Other                                                       80,989              77,275
       2. Investments (Note 4)                                                          722                 717
       3. Accounts Receivable (Note 5)                                              665,672             653,589
       4. Other Assets (Note 6)                                                     454,968             427,989
       5. Total Intragovernmental Assets                              $          69,969,529   $      63,432,537
    B. Cash and Other Monetary Assets (Note 7)                        $             114,779   $         151,844
    C. Accounts Receivable, Net (Note 5)                                          1,041,746           1,028,310
    D. Loans Receivable (Note 8)                                                          0                   0
    E. Inventory and Related Property, Net (Note 9)                              48,584,335          47,169,013
    F. General Property, Plant and Equipment, Net (Note 10)                     141,861,111         142,955,380
    G. Investments (Note 4)                                                               0                   0
    H. Other Assets (Note 6)                                                     11,379,126          11,179,041
 2. TOTAL ASSETS                                                      $         272,950,626   $     265,916,125
 3. LIABILITIES (Note 11)
    A. Intragovernmental:
       1. Accounts Payable (Note 12)                                  $           1,425,771   $       1,651,904
       2. Debt (Note 13)                                                                  0                   0
       3. Other Liabilities (Note 15 & 16)                                        2,258,259           1,589,867
       4. Total Intragovernmental Liabilities                         $           3,684,030   $       3,241,771
    B. Accounts Payable (Note 12)                                     $           4,269,732   $       5,851,184
    C. Military Retirement and Other Federal                                      1,143,748           1,147,437
       Employment Benefits (Note 17)
    D. Environmental and Disposal Liabilities (Note 14)                           6,554,952           7,126,178
    E. Loan Guarantee Liability (Note 8)                                                  0                   0
    F. Other Liabilities (Note 15 and Note 16)                                    6,253,108           4,179,504
 4. TOTAL LIABILITIES                                                 $          21,905,570   $      21,546,075
 5. NET POSITION
    A. Unexpended Appropriations - Earmarked Funds (Note 23)          $                   0   $               0
    B. Unexpended Appropriations - Other Funds                                   70,186,333          63,716,637
    C. Cumulative Results of Operations - Earmarked Funds                             4,540                   0
    D. Cumulative Results of Operations - Other Funds                           180,854,183         180,653,413
 6. TOTAL NET POSITION                                                $         251,045,056   $     244,370,050
 7. TOTAL LIABILITIES AND NET POSITION                                $         272,950,626   $     265,916,125




The accompanying notes are an integral part of these financial statements.


20
                                                                   2006 Annual Financial Statement
Consolidated Statement of Net Cost—General Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                                2006                 2005
                                                                             Consolidated         Consolidated
1. Program Costs
   A. Gross Costs                                                      $        142,378,997   $      129,381,974
   B. (Less: Earned Revenue)                                                     -5,320,847           -5,087,578
   C. Net Program Costs                                                $        137,058,150   $      124,294,397
2. Cost Not Assigned to Programs                                                          0                    0
3. (Less: Earned Revenue Not Attributable to Programs)                                    0                    0
4. Net Cost of Operations                                              $        137,058,150   $      124,294,397




The accompanying notes are an integral part of these financial statements.


                                                                                                                 21
       United States Air Force
Consolidated Statement of Changes in Net Position—General Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                    Earmarked         All Other                                    2006                2005
                                                                      Funds            Funds             Eliminations           Consolidated        Consolidated
CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                           $         5,451   $    161,338,650                     0   $     161,344,101   $     168,982,135
2. Prior Period Adjustments:
   2a. Changes in accounting principles (+/-)                                 0                  0                      0                   0                   0
   2b. Corrections of errors (+/-)                                            0         19,309,311                      0          19,309,311          19,309,311
3. Beginning balances, as adjusted                                        5,451        180,647,961                      0         180,653,412         188,291,446
4. Budgetary Financing Sources:                                               0                  0                      0                   0                   0
   4a. Appropriations received                                                0                  0                      0                   0                   0
   4b. Appropriations transferred-in/out (+/-)                                0                  0                      0                   0                   0
   4c. Other adjustments (rescissions, etc.) (+/-)                            0                  0                      0                   0                   0
   4d. Appropriations used                                               -1,251        132,720,187                      0         132,718,936         114,969,992
   4e. Nonexchange revenue                                                  877                  0                      0                 877                 920
   4f. Donations and forfeitures of cash and cash equivalents             1,779                  0                      0               1,779               1,860
   4g. Transfers-in/out without reimbursement (+/-)                           0            106,784                      0             106,784             967,200
   4h. Other budgetary financing sources (+/-)                                0                  0                      0                   0                   0
5. Other Financing Sources:
   5a. Donations and forfeitures of property                                  0                  0                      0                   0                   0
   5b. Transfers-in/out without reimbursement (+/-)                           0             46,239                      0              46,239             -25,648
   5c. Imputed financing from costs absorbed by others                        0            698,815                      0             698,815             742,039
   5d. Other (+/-)                                                            0          3,690,030                      0           3,690,030                   0
6. Total Financing Sources                                                1,405        137,262,055                      0         137,263,460         116,656,363
7. Net Cost of Operations (+/-)                                           2,316        137,055,834                      0         137,058,150         124,294,396
8. Net Change                                                              -911            206,221                      0             205,310          -7,638,033
9. Ending Balances                                                        4,540        180,854,182                      0         180,858,722         180,653,413

UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                           $        -1,251   $     63,717,889                     0   $      63,716,638   $      49,660,670
2. Prior Period Adjustments:
   2a. Changes in accounting principles (+/-)                                 0                  0                      0                   0                   0
   2b. Corrections of errors (+/-)                                            0                  0                      0                   0                   0
3. Beginning balances, as adjusted                                       -1,251         63,717,889                      0          63,716,638          49,660,670
4. Budgetary Financing Sources:
   4a. Appropriations received                                                0        139,764,959                      0         139,764,959         128,888,188
   4b. Appropriations transferred-in/out (+/-)                                0          2,469,906                      0           2,469,906           1,631,239
   4c. Other adjustments (rescissions, etc) (+/-)                             0         -3,046,233                      0          -3,046,233          -1,493,468
   4d. Appropriations used                                                1,251       -132,720,187                      0        -132,718,936        -114,969,992
   4e. Nonexchange revenue                                                    0                  0                      0                   0                   0
   4f. Donations and forfeitures of cash and cash equivalents                 0                  0                      0                   0                   0
   4g. Transfers-in/out without reimbursement (+/-)                           0                  0                      0                   0                   0
   4h. Other budgetary financing sources (+/-)                                0                  0                      0                   0                   0
5. Other Financing Sources:
   5a. Donations and forfeitures of property                                  0                  0                      0                   0                   0
   5b. Transfers-in/out without reimbursement (+/-)                           0                  0                      0                   0                   0
   5c. Imputed financing from costs absorbed by others                        0                  0                      0                   0                   0
   5d. Other (+/-)                                                            0                  0                      0                   0                   0
6. Total Financing Sources                                                1,251          6,468,445                      0           6,469,696          14,055,967
7. Net Cost of Operations (+/-)                                               0                  0                      0                   0                   0
8. Net Change                                                             1,251          6,468,445                      0           6,469,696          14,055,967
9. Ending Balances                                              $             0   $     70,186,334                      0   $      70,186,334   $      63,716,637




The accompanying notes are an integral part of these financial statements.


22
                                                                                    2006 Annual Financial Statement
Combined Statement of Budgetary Resources—General Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                       2006               2005
                                                                     Combined           Combined
 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES:
 1. Unobligated balance, brought forward, October 1                            
 2. Recoveries of prior year unpaid obligations                                   
 3. Budget authority
    3a. Appropriation                                                         
    3b. Borrowing authority                                                                       
    3c. Contract authority                                                                        
 4. Spending authority from offsetting collections
    4a. Earned
        1. Collected                                                              
        2. Change in receivables from Federal sources                                 
    4b. Change in unfilled customer orders
        1. Advance received                                                           
        2. Without advance from Federal sources                                      
    4c. Anticipated for rest of year, without advances                                            
    4d. Previously unavailable                                                                    
    4e. Expenditure transfers from trust funds                                                    
    4f. Subtotal                                                              
 5. Nonexpenditure transfers, net, anticipated and actual                         
 6. Temporarily not available pursuant to Public Law                                              
 7. Permanently not available                                                   
 8. Total Budgetary Resources                                               

 STATUS OF BUGETARY RESOURCES:
 9. Obligations incurred:
    9a. Direct                                                              
    9b. Reimbursable                                                             
    9c. Subtotal                                                              
 10. Unobligated balance:
    10a. Apportioned                                                            
    10b. Exempt from apportionment                                                        
    10c. Subtotal                                                               
 11. Unobligated balance not available                                            
 12. Total Status of Budgetary Resources                                    

 CHANGE IN OBLIGATED BALANCE:
 13. Obligated balance, Net
     13a. Unpaid obligations, brought forward, October 1                        
     13b. Less: Uncollected customer payments                                 
          from Federal sources, brought forward, October 1
     13c. Total unpaid obligated balance                                        
     13d. Obligations incurred net (+/-)                                    
 14. Less: Gross outlays                                                    
 15. Obligated balance transferred, net
     15a. Actual transfers, unpaid obligations (+/-)                                              
     15b. Actual transfers, uncollected customer                                                  
          payments from Federal sources (+/-)
 16. Total Unpaid obligated balance transferred, net                                              
 17. Less: Recoveries of prior year unpaid obligations, actual                  
     Change in uncollected customer                                                  
     payments from Federal sources (+/-)
 18. Obligated balance, net, end of period
     18a. Unpaid obligations                                                    
     18b. Less: Uncollected customer payments                                   
          from Federal sources
     18c. Total, unpaid obligated balance, net, end of period                   
 NET OUTLAYS:
 19. Net Outlays:
     19a. Gross outlays                                                       
     19b. Less: Offsetting collections                                          
     19c. Less: Distributed Offsetting receipts                                     
 20. Net Outlays                                                            

The accompanying notes are an integral part of these financial statements.


                                                                                                                 23
       United States Air Force
Consolidated Statement of Financing—General Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                                                       2006                 2005
                                                                                                    Consolidated         Consolidated
  Resources Used to Finance Activities:
  Budgetary Resources Obligated
  1. Obligations incurred                                                                       $      145,600,996   $      137,137,979
  2. Less: Spending authority from offsetting collections and recoveries                               -10,409,644          -11,104,884
  3. Obligations net of offsetting collections and recoveries                                          135,191,352          126,033,095
  4. Less: Offsetting receipts                                                                            -185,423             -123,202
  5. Net obligations                                                                                   135,005,929          125,909,893
  Other Resources
  6. Donations and forfeitures of property                                                                       0                    0
  7. Transfers in/out without reimbursement (+/-)                                                           46,240              -25,648
  8. Imputed financing from costs absorbed by others                                                       698,814              742,039
  9. Other (+/-)                                                                                         3,690,030                    0
  10. Net other resources used to finance activities                                                     4,435,084              716,391
  11. Total resources used to finance activities                                                $      139,441,013   $      126,626,284
  Resources Used to Finance Items not Part of the Net Cost of Operations
  12. Change in budgetary resources obligated for goods,
      services and benefits ordered but not yet provided
      12a. Undelivered Orders (-)                                                                       -2,386,909          -11,681,780
      12b. Unfilled Customer Orders                                                                       -197,170              738,214
  13. Resources that fund expenses recognized in prior periods                                            -898,944             -606,526
  14. Budgetary offsetting collections and receipts that do not affect net cost of operations              185,423              123,202
  15. Resources that finance the acquisition of assets                                                 -17,411,172          -18,029,608
  16. Other resources or adjustments to net obligated resources
      that do not affect net cost of operations
      16a. Less: Trust or Special Fund Receipts Related to
            exchange in the Entity's Budget                                                                      0                    0
      16b. Other (+/-)                                                                                  -3,736,270               25,648
  17. Total resources used to finance items not part of the net cost of operations              $      -24,445,042   $      -29,430,850
  18. Total resources used to finance the net cost of operations                                $      114,995,971   $       97,195,434

  Components of the Net Cost of Operations that will
  not Require or Generate Resources in the Current Period:
  Components Requiring or Generating Resources in Future Period:
  19. Increase in annual leave liability                                                                  491,847                81,024
  20. Increase in environmental and disposal liability                                                          0                     0
  21. Upward/Downward reestimates of credit subsidy expense (+/-)                                               0                     0
  22. Increase in exchange revenue receivable from the public (-)                                               0                     0
  23. Other (+/-)                                                                                         610,486                13,659
  24. Total components of Net Cost of Operations that
      will require or generate resources in future periods                                               1,102,333               94,683

  Components not Requiring or Generating Resources:
  25. Depreciation and amortization                                                                     16,091,380           11,743,098
  26. Revaluation of assets or liabilities (+/-)                                                           569,339              787,835
  27. Other (+/-)
      27a. Trust Fund Exchange Revenue                                                                           0                    0
      27b. Cost of Goods Sold                                                                                    0                    0
      27c. Operating Material & Supplies Used                                                           13,272,303            2,037,758
      27d. Other                                                                                        -8,973,176           12,435,587
  28. Total components of Net Cost of Operations that will not require or generate resources            20,959,846           27,004,278
  29. Total components of net cost of operations that
      will not require or generate resources in the current period                              $       22,062,179   $       27,098,961
  30. Net Cost of Operations                                                                    $      137,058,150   $      124,294,395




The accompanying notes are an integral part of these financial statements.


24
               2006 Annual Financial Statement




General Fund
Footnotes to the
Principal Statements




                                            25
     United States Air Force




                               This page intentionally left blank.




26
                                                                    2006 Annual Financial Statement


Note 1. Significant Accounting Policies

1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Air
Force, as required by the "Chief Financial Officers Act of 1990," expanded by the "Government Management
Reform Act of 1994," and other appropriate legislation. The financial statements have been prepared from the
books and records of the Air Force in accordance with the "DoD Financial Management Regulation," Office of
Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, and to the extent possible
generally accepted accounting principles (GAAP). The accompanying financial statements account for all
resources for which the Air Force is responsible. Information relative to classified assets, programs, and opera-
tions is aggregated and reported in such a manner that it is not discernable.

The Air Force is unable to fully implement all elements of GAAP and the Office of Management and Budget
Circular A-136, due to process and system limitations for both financial and non-financial management, which
feeds into the financial statements. The Air Force derives its reported values and information for major asset and
liability categories, largely from non-financial systems, such as inventory and logistic systems. These systems were
designed to support reporting requirements for maintaining accountability over assets and reporting the status of
Federal appropriations rather than preparing financial statements in accordance with GAAP.

The Air Force currently has two auditor identified financial statement material weaknesses: (1) financial and non-
financial feeder systems do not contain an adequate audit trail and other systems controls for the proprietary and
budgetary accounts, and (2) intragovernmental transaction cannot be accurately identified by the customer, which is
required for eliminations when preparing consolidated financial statements. In addition, with the implementation of
the Office of Management and Budget (OMB) Circular A-123, Management's Responsibility for Internal Controls,
Appendix A, Internal Controls Over Financial Reporting (ICOFR), the Air Force identified two additional material
weaknesses: (1) Military Equipment Valuation, the Air Force is unable to report the value of its current military
equipment assets in a consistent and accurate manner on the financial statements, and (2) Real Property Valuation,
the Air Force is unable to report the value of its current real property assets in a consistent and accurate manner on
the financial statements. The Air Force also identified one reportable condition with the Environmental Liabilities
reporting process. These findings are being addressed with corrective actions in the Financial Improvement Plan.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The National
Security Act Amendments of 1949 established the DoD and made the Air Force a department within the DoD. The
overall mission of the Air Force is to defend the United States through control and exploitation of air and space.

The Air Force incorporates internal controls, reconciliations, management by exception reports, and other man-
agement control information into its accounting systems. When possible, the financial statements are presented
on the accrual basis of accounting, as required by federal accounting standards.

The accounts used to prepare the financial statements are categorized as either entity or nonentity. Entity
accounts consist of resources that are available for use in the operations of the entity. The Air Force is author-
ized to decide how to use resources in entity accounts or may be legally obligated to use these resources to meet
entity obligations. Nonentity accounts, on the other hand, consist of assets that are held by an entity but that are
not available for use in the operations of the entity. The following is a list of Air Force account numbers and titles
(all accounts are entity accounts unless otherwise noted):




                                                                                                                   27
      United States Air Force


Air Force Account Number                Title
57 * 0704                               Military Family Housing (O&M and Construction), Air Force
57 * 0740                               Military Family Housing (Construction), Air Force
57 * 0745                               Military Family Housing (O&M), Air Force
57 * 0810                               Environmental Restoration, Air Force
57 * 1007                               Medicare Eligible Retiree Health fund Contributions, Air Force
57 * 1008                               Medicare Eligible Retiree Health fund Contributions, Air Force Reserve
57 * 1009                               Medicare Eligible Retiree Health fund Contributions, Air National Guard
57 * 3010                               Aircraft Procurement, Air Force
57 * 3011                               Procurement of Ammunition, Air Force
57 * 3020                               Missile Procurement, Air Force
57 * 3080                               Other Procurement, Air Force
57 * 3300                               Military Construction, Air Force
57 * 3400                               Operation and Maintenance (O&M), Air Force
57 * 3500                               Military Personnel, Air Force
57 * 3600                               Research, Development, Testing, and Evaluation (RDT&E), AF
57 * 3700                               Personnel, Air Force Reserve
57 * 3730                               Military Construction, Air Force Reserve
57 * 3740                               Operation and Maintenance (O&M), Air Force Reserve
57 * 3830                               Military Construction, Air National Guard
57 * 3840                               Operation and Maintenance (O&M), Air National Guard
57 * 3850                               Personnel, Air National Guard
57 X 5095                               Wildlife Conservation, etc., Military Reservations, Air Force
57 X 8418                               Air Force Cadet Fund
57 X 8928                               Air Force General Gift Fund
57 * 3XXX (Incl Nonentity)              Budget Clearing Accounts
57 * 6XXX (Nonentity)                   Deposit Fund Accounts
57 **** (Nonentity)                     Receipt Accounts

1.C. Appropriations and Funds
The Air Force receives its appropriations and funds as general, working capital (revolving funds), trust, special,
and deposit funds. The Air Force uses these appropriations and funds to execute their missions and report on
resource usage.
• General funds are used for financial transactions funded by congressional appropriations, including personnel,
  operations and maintenance, research and development, procurement, and military construction accounts.

• Working capital fund (revolving fund) activities are reported in a separate set of audited financial statements and
  related footnotes.

• Trust funds contain the receipt and expenditure of funds held in trust by the Air Force for use in carrying out
  specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

• Special funds account for Air Force receipts reserved for specific purposes.




28
                                                                  2006 Annual Financial Statement


• Deposit funds are generally used to (1) account for unidentified remittances or (2) hold assets for which the Air
  Force is acting as an agent or a custodian or whose distribution is awaiting legal determination.

• Earmarked funds are financed by specifically identified revenues that are required by statute to be used for des-
  ignated activities, benefits or purposes, and remain available over time. Earmarked funds also have a require-
  ment to account for and report on the receipt, use, and retention of revenues and other financing sources that
  distinguish them from general revenues.

1.D. Basis of Accounting
For FY 2006, the Air Force's financial management systems are unable to meet all of the requirements for full
accrual accounting. Many of the Air Force's financial and non-financial feeder systems and processes were
designed and implemented prior to the issuance of GAAP for federal agencies. These systems were not designed
to collect and record financial information on the full accrual accounting basis as required by GAAP. Most of the
Air Force's legacy systems were designed to record information on a budgetary basis.

The Department has undertaken efforts to determine the actions required to bring its financial and non-financial
feeder systems and processes into compliance with GAAP. One such action is the current initiative to revise Air
Force's accounting systems to record transactions based on the United States Standard General Ledger (USSGL).
Until all of the Air Force's financial and non-financial feeder systems and processes are updated to collect and
report financial information as required by GAAP, the Air Force's financial data will be based on budgetary transac-
tions (obligations, disbursements, and collections), transactions from non-financial feeder systems, and adjust-
ments for known accruals of major items such as payroll expenses, accounts payable, and environmental liabilities.

In addition, the DoD identifies program costs based upon the major appropriation groups provided by Congress.
Current processes and systems do not capture and report accumulated costs for major programs based upon the
performance measures as required by the "Government Performance and Results Act (GPRA)." The DoD is in
the process of reviewing available data and attempting to develop a cost reporting methodology that balances the
need for cost information required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
"Managerial Cost Accounting Concepts and Standards for the Federal Government," with the need to keep the
financial statements from being overly voluminous.

1.E. Revenues and Other Financing Sources
The Air Force receives congressional appropriations as financing sources for general funds on either an annual or
multi-year basis. When authorized by legislation, these appropriations are supplemented by revenues generated
by sales of goods or services. The Air Force recognizes revenue as a result of costs incurred or services provided
to other Federal agencies and the public. Full cost pricing is the Air Force's standard policy for services provided
as required by OMB Circular A-25. The Air Force recognizes revenue when earned within the constraints of cur-
rent system capabilities. In other instances, revenue is recognized when bills are issued.

The Air Force does not include non-monetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost and the Statement of Financing. The U.S. has cost
sharing agreements with other countries. Examples include countries where there is a mutual or reciprocal
defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.




                                                                                                                 29
      United States Air Force


1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred.
However, because the Air Force's financial and non-financial feeder systems were not designed to collect and record
financial information on the full accrual accounting basis, accrual adjustments are made for major items such as pay-
roll expenses, accounts payable, environmental liabilities, and unbilled revenue. The Air Force's expenditures for
capital and other long-term assets are recognized as operating expenses based on depreciation. In the case of
Operating Materials and Supplies (OM&S), operating expenses are generally recognized when the items are pur-
chased. Efforts are underway to migrate towards the consumption method for recognizing OM&S expenses.

1.G. Accounting for Intragovernmental Activities
Preparation of reliable financial statements requires the elimination of transactions occurring among entities within
the DoD or between two or more federal agencies. However, the Air Force cannot accurately identify most of
its intragovernmental transactions by customer because the Air Force's systems do not track buyer and seller data
needed to match related transactions. Seller entities within the DoD provided summary seller-side balances for
revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most
cases, the buyer-side records are adjusted to agree with DoD seller-side balances. Intra-DoD intragovernmental
balances are then eliminated. The Air Force properly eliminates the revenue results from intra-DoD sales of cap-
italized assets. The DoD is developing long-term system improvements that will include sufficient up-front edits
and controls to eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transac-
tions is so large that after-the-fact reconciliations cannot be accomplished effectively with existing or foreseeable
resources.

The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating transactions
between the DoD and other federal agencies. The Treasury Financial Manual, Part 2 - Chapter 4700, "Agency
Reporting Requirements for the Financial Report of the United States Government" and the Treasury's "Federal
Intragovernmental Transactions Accounting Policy Guide," provide guidance for reporting and reconciling intragov-
ernmental balances. While the Air Force is unable to fully reconcile intragovernmental transactions with all feder-
al partners, the Air Force is able to reconcile balances pertaining to investments in federal securities, borrowings
from the U.S. Treasury and the Federal Financing Bank, Federal Employees' Compensation Act transactions with
the Department of Labor (DOL), and benefit program transactions with the Office of Personnel Management
(OPM). The DoD's proportionate share of public debt and related expenses of the federal government are not
included. The federal government does not apportion debt and its related costs to federal agencies. The DoD's
financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the state-
ments report the source of public financing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. This financing ultimately may
have been obtained through the issuance of public debt. The interest costs have not been capitalized since the
Department of the Treasury does not allocate such costs to the benefiting agencies.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the Air Force sells defense articles and services to foreign governments and international organizations
under the provisions of the "Arms Export Control Act of 1976." Under the provisions of the Act, the DoD has
authority to sell defense articles and services to foreign countries and international organizations, generally at no
profit or loss to the U.S. Government. Payment is required in advance.




30
                                                                   2006 Annual Financial Statement


1.I. Funds with the U.S. Treasury
The Air Force's monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of
the Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers
(USACE), and the Department of State's financial service centers process the majority of the Air Force's cash col-
lections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports that pro-
vide information to the U.S. Treasury on check issues, electronic fund transfers, interagency transfers, and deposits.

In addition, the DFAS sites and the USACE Finance Center submit appropriation reports to the Department of
the Treasury on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury records this information to the applicable Fund Balance with Treasury (FBWT) account. Differences
sometimes occur between the Air Force's recorded balance in the FBWT accounts and Treasury's FBWT accounts
and are subsequently reconciled.

1.J. Foreign Currency
Cash is the total of cash resources under the control of the DoD, which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency consists of
the total U.S. dollar equivalent of both purchased and nonpurchased foreign currencies held in foreign currency
fund accounts.

The majority of cash and all foreign currency is classified as nonentity and, therefore, is restricted. Amounts
reported consist primarily of cash and foreign currency held by Disbursing Officers to carry out their paying, col-
lecting, and foreign currency accommodation exchange missions.

The Air Force conducts a significant portion of its operations overseas. The Congress established a special
account to handle the gains and losses from foreign currency transactions for five general fund appropriations
(operations and maintenance, military personnel, military construction, family housing operations and mainte-
nance, and family housing construction). The gains and losses are computed as the variance between the
exchange rate current at the date of payment and a budget rate established at the beginning of each fiscal year.
Foreign currency fluctuations related to other appropriations require adjustments to the original obligation
amount at the time of payment. The Air Force does not separately identify currency fluctuations.

1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable include accounts, claims, and refunds receivable from
other federal entities or from the public. Allowances for uncollectible accounts due from the public are based
upon analysis of collection experience by fund type. The DoD does not recognize an allowance for estimated
uncollectible amounts from other federal agencies. Claims against other federal agencies are to be resolved
between the agencies (per Code of Federal Regulations 4 CFR 101).

The allowance for Air Force entity receivables is computed each quarter based on the average percent of write-
offs to outstanding public accounts receivable for the last five years. For closed years receivables and deferred
debts in litigation, an allowance rate of 50% is used. Interest allowance is calculated using an average percent of
write-offs to outstanding public accounts receivable over a five year period starting with FY 2001 data.

1.L. Direct Loans and Loan Guarantees
Not applicable.




                                                                                                                   31
      United States Air Force


1.M. Inventories and Related Property
Most of the Air Force's inventories are currently reported at an approximation of historical cost using latest acqui-
sition cost adjusted for holding gains and losses. The latest acquisition cost method is used because legacy inven-
tory systems were designed for materiel management rather than accounting. Although these systems provide
visibility and accountability over inventory items, they do not maintain historical cost data necessary to comply
with the SFFAS No. 3, "Accounting for Inventory and Related Property." Additionally, these systems cannot pro-
duce financial transactions using the USSGL, as required by the Federal Financial Management Improvement Act
of 1996 (P.L. 104-208). By utilizing new systems development processes, the Air Force has transitioned, and is
continuing to transition, the inventory to the moving average cost method. Approximately 32% of the Air Force
inventory value is now being reported from systems that have transitioned to moving average cost functionality.
However, since the on-hand balances which transitioned were not, for the most part, baselined to auditable his-
torical cost, the reported values remain noncompliant with SFFAS 3 and GAAP.

Related property includes operating materials and supplies (OM&S) and stockpile materials. The OM&S, including
munitions not held for sale, are valued at standard purchase price. The DoD uses both the consumption method
and the purchase method of accounting for OM&S. Items that are centrally managed and stored, such as ammu-
nitions and engines, are generally recorded using the consumption method and are reported on the Balance Sheet
as OM&S.

The Air Force determined that the recurring high dollar value of OM&S in need of repair is material to the finan-
cial statements and requires a separate reporting category. Many high dollar items, such as aircraft engines, are
categorized as OM&S rather than military equipment.

The Air Force recognizes condemned material as "Excess, Obsolete, and Unserviceable." The cost of disposal is
greater than the potential scrap value; therefore, the net value of condemned material is zero. Potentially redis-
tributed material, presented in previous years as "Excess, Obsolete, and Unserviceable," is included in the "Held
for Use" or "Held for Repair" categories according to its condition.

1.N. Investments in U.S. Treasury Securities
The Air Force reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts.
Premiums or discounts amortize into interest income over the term of the investment using the effective interest
rate method or another method obtaining similar results. The Air Force's intent is to hold investments to maturi-
ty, unless they are needed to finance claims or otherwise sustain operations. Consequently, a provision is not
made for unrealized gains or losses on these securities. Related earnings are allocated to appropriate Air Force
activities to be used in accordance with the directions of the donor.

The Air Force invests in nonmarketable securities. The two types of nonmarketable securities are par value and
market-based intragovernmental securities. The Bureau of Public Debt issues nonmarketable par value intragov-
ernmental securities. Nonmarketable, market-based intragovernmental securities mimic marketable securities,
but are not publicly traded.

1.O. General Property, Plant and Equipment
The Department is moving away from a standard capitalization threshold for all categories (e.g. real property, military
equipment, etc.) of General Property Plant and Equipment (PP&E) to one that is specific for each individual category.




32
                                                                    2006 Annual Financial Statement


The capitalization threshold was revised from $100,000 to $20,000 for real property. The current $100,000 capi-
talization threshold remains unchanged for the remaining General PP&E categories.

General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a
useful life of two or more years and when the acquisition cost equals or exceeds the DoD capitalization threshold of
$100,000. The DoD also requires capitalization of improvement costs over the DoD capitalization threshold of
$100,000 for General PP&E. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15,000, $25,000, and $50,000 for fiscal
years 1993, 1994, and 1995, respectively, and an estimated useful life of two or more years. General PP&E previously
capitalized at amounts below $100,000 were written off from the General Fund financial statements in FY 1998.

When it is in the best interest of the government, the Air Force provides government property to contractors to
complete contract work. The Air Force either owns or leases such property, or it is purchased directly by the
contractor for the government based on contract terms. When the value of contractor-procured General PP&E
exceeds the DoD capitalization threshold, it must be reported on the Air Force's Balance Sheet.

The DoD is developing new policies and a contractor reporting process that will provide appropriate General
PP&E information for future financial statement reporting purposes. Accordingly, the Air Force reports only gov-
ernment property in the possession of contractors that is maintained in the Air Force's property systems. The
DoD has issued new property accountability and reporting requirements that require Air Force Components to
maintain, in their property systems, information on all property furnished to contractors. This action which
should be implemented by the end of FY 2009 is structured to capture and report the information necessary for
compliance with Federal accounting standards.

The SFFAS No. 23, "Eliminating the Category National Defense Property, Plant, and Equipment," establishes gen-
erally accepted accounting principles for valuing and reporting military equipment (e.g. ships, aircraft, combat
vehicles, weapons) in federal financial statements. The Standard provided for the use of estimated historical cost
for valuing military equipment if obtaining actual historical cost information is not practical. The Department used
Bureau of Economic Analysis (BEA) to calculate the value of the military equipment for reporting periods from
October 1, 2002 through March 31, 2006.

Effective 3rd Quarter, FY 2006, the Department replaced the BEA estimation methodology with an estimation
methodology for military equipment based on Department internal records. The Department initially identified
the universe of military equipment by accumulating information relating to program funding and associated mili-
tary equipment, equipment useful life, program acquisitions and disposals to create a baseline. The military equip-
ment baseline is updated using expenditure information, and information related to acquisition and disposals.

1.P. Advances and Prepayments
The Air Force records payments in advance of the receipt of goods and services as advances or prepayments and
reports them as assets on the Balance Sheet. The Air Force recognizes advances and prepayments as expenses
when it receives the related goods and services.

1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating
leases. When a lease is essentially equivalent to an installment purchase of property (a capital lease), the Air
Force records the applicable asset and liability if the value equals or exceeds the current capitalization threshold.



                                                                                                                     33
      United States Air Force


The Air Force records the amounts as the lesser of the present value of the rental and other lease payments dur-
ing the lease term (excluding portions representing executory costs paid to the lessor) or the asset's fair market
value. The discount rate for the present value calculation is either the lessor's implicit interest rate or the govern-
mental's incremental borrowing rate at the inception of the lease. The Air Force, as the lessee of real estate or
equipment, will receive the use and possession of leased property from a lessor in exchange for a payment of
funds. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments for
operating leases are charged to expense over the lease term as it becomes payable.

Office space and leases entered into by the Air Force in support of contingency operations are the largest compo-
nent of operating leases. These costs were gathered from existing leases, General Service Administration (GSA)
bills, and Interservice Support Agreements. Future year projections use the Consumer Price Index (CPI), rather
than the DoD inflation factor. The CPI impacts increases to the leases, especially those at commercial lease sites.
Equipment leases have a variety of lease terms which are not expected to be renewed upon expiration. Other
operating leases are generally one year leases. The Air Force expects to continue to reduce the level of owned
assets while increasing the number of leased assets. The Air Force will strive to displace commercial leases with
more economical GSA leases.

1.R. Other Assets
The Air Force conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can
cause, the Air Force provides financing payments. One type of financing payment that the Air Force makes for
real property is based upon a percentage of completion. In accordance with the SFFAS No. 1, "Accounting for
Selected Assets and Liabilities," such payments are treated as construction-in-process and are reported on the
General PP&E line on the Balance Sheet and in the related note.

Other assets include those assets, such as military and civil service employee pay advances, travel advances, and
contract financing payments, that are not reported elsewhere on the Department's Balance Sheet.

Contract financing payments are defined in the Federal Acquisition Regulations (FAR), Part 32, as authorized dis-
bursements of monies to a contractor prior to acceptance of supplies or services by the Government. These
payments are designed to alleviate the potential financial burden on contractors performing on certain long-term
contracts and facilitate competition for defense contracts. Contract financing payments clauses are incorporated
in the contract terms and conditions and may include advance payments, performance-based payments, commer-
cial advance and interim payments, progress payments based on cost, and interim payments under certain cost-
reimbursement contracts. Contract financing payments do not include invoice payments, payments for partial
deliveries, lease and rental payments, or progress payments based on a percentage or stage of completion, which
the Defense Federal Acquisitions Regulations Supplement (DFARS) authorizes only for construction of real prop-
erty, shipbuilding, and ship conversion, alteration, or repair. Progress payments for real property and ships are
reported as Construction in Progress in Note 10.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, "Accounting for Liabilities of the Federal Government," as amended by SFFAS No. 12,
"Recognition of Contingent Liabilities Arising from Litigation," defines a contingency as an existing condition, situation,
or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved
when one or more future events occur or fail to occur. The Air Force recognizes contingent liabilities when past
events or exchange transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.


34
                                                                      2006 Annual Financial Statement


Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
where there is at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss con-
tingencies include the collectibility of receivables, pending or threatened litigation, and possible claims and assess-
ments. The Air Force's loss contingencies arise as a result of pending or threatened litigation or claims; and
assessments that occur due to events such as aircraft and vehicle accidents, medical malpractice, property or
environmental damages, and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for the Air Force's assets. This type of liability has
two components: non-environmental and environmental. Consistent with SFFAS No. 6, "Accounting for
Property, Plant, and Equipment," recognition of an anticipated environmental disposal liability begins when the
asset is placed into service. Non-environmental disposal liabilities are recognized for assets when management
decides to dispose of an asset based upon the DoD's policy, which is consistent with SFFAS No. 5, "Accounting
for Liabilities of Federal Government."

1.T. Accrued Leave
The Air Force reports as liabilities military leave and civilian earned leave except sick leave that has been accrued
and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of
the accounting period reflects current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of authority that are not obligated and that have not been
rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities
for payments have not been incurred.

Cumulative results of operations represent the net difference between expenses and losses and financing sources
(including appropriations, revenue, and gains) since the inception of an activity. Beginning with FY 1998, the
cumulative results also include donations and transfer in and out of assets without reimbursement.

1.V. Treaties for Use of Foreign Bases
The Air Force has the use of land, buildings, and other facilities that are located overseas and that have been
obtained through various international treaties and agreements negotiated by the Department of State. The Air
Force purchases overseas capital assets with appropriated funds, but the host country retains title to land and
improvements. Generally, treaty terms allow the Air Force continued use of these properties until the treaties
expire. In the event treaties or other agreements are terminated, whereby use of the foreign bases is prohibited,
losses are recorded for the value of any non-retrievable capital assets. This takes place after negotiations between
the U.S. and the host country have determined the amount to be paid the U.S. for such capital investments.

1.W. Comparative Data
Financial statement fluctuations greater than 2% of total assets on the Balance Sheet or 10% from the previous
period presented are explained within the notes to the financial statements.

1.X. Unexpended Obligations
The Air Force obligates funds to provide goods and services for outstanding orders not yet delivered. The finan-
cial statements do not reflect this liability for payment for goods or services not yet delivered.


                                                                                                                           35
      United States Air Force

1.Y. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts
reported on the departmental accounting reports. In-transit payments are those payments that have been made
to other agencies or entities that have not been recorded in their accounting records. These payments are
applied to the entities' outstanding accounts payable balance. In-transit collections are those collections from
other agencies or entities that have not been recorded in the accounting records. These collections are also
applied to the entities' accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and non-
federal categories based on the percentage of federal and nonfederal accounts payable and accounts receivable.
Unsupported undistributed disbursements are recorded in accounts payable. Unsupported undistributed collec-
tions are recorded in other liabilities. The Air Force follows DoD policy.

Note 2. Nonentity Assets

 As of September 30                                                2006                        2005
 ($ in thousands)
 1. Intragovernmental Assets
    A. Fund Balance with Treasury                             $             80,989        $               77,276
    B. Accounts Receivable                                                   2,715                          2,354
    C. Total Intragovernmental Assets                         $             83,704        $               79,630

 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                         $            114,779        $              151,844
    B. Accounts Receivable                                                 568,289                       128,943
    C. Other Assets                                                        196,826                       156,872
    D. Total Nonfederal Assets                                $            879,894        $              437,659

 3. Total Nonentity Assets                                    $            963,598        $              517,289
 4. Total Entity Assets                                       $        271,987,028        $           265,398,836
 5. Total Assets                                              $        272,950,626        $           265,916,125



Fluctuations
Total nonentity assets increased by $446.3 million (86%) primarily due to a $439.3 million increase in nonfederal
accounts receivable. In the past, DFAS-DE erroneously reported public accounts receivable in receipt and
deposit accounts as entity. DFAS-DE corrected the error during 3rd Quarter, FY 2006. These receivables are
now correctly recorded as nonentity in accordance with the classification of accounts as entity versus nonentity in
DoDFMR, Volume 6B, Attachment 20A.

Relevant Information for Comprehension
Nonentity assets are assets held by an entity but are not available for use in the operations of the entity.
Nonfederal other assets are advances to contractors. The Nonentity Fund Balance with Treasury asset class rep-
resents amounts in Air Force's deposit fund and two suspense fund accounts (Uniformed Services Thrift Savings
Plan Suspense and Thrift Savings Plan Suspense) that are not available for Air Force use. Nonentity Accounts
Receivable, when collected, goes to the Department of the Treasury as miscellaneous receipts. The Nonentity




36
                                                                   2006 Annual Financial Statement


Nonfederal Accounts Receivable amount also includes interest receivables on aged debt. Nonentity Cash and
Other Monetary Assets represent disbursing officers' cash and undeposited collections as reported on the
Statement of Accountability. These assets are held by the Air Force disbursing officers as agents of the Treasury.

Other nonfederal assets consist of advances to contractors as part of the advance payment pool agreements with
the Massachusetts Institute of Technology and other nonprofit institutions. These agreements are used for the
financing of cost-type contracts with nonprofit educational or research institutions for experimental or research
and development work when several contracts or a series of contracts require financing by advance payments.

Note 3. Fund Balance with Treasury

 As of September 30                                                             2006                 2005
 ($ in thousands)

 1. Fund Balances
    A. Appropriated Funds                                                   $    68,762,362   $       62,293,567
    B. Revolving Funds                                                                    0                    0
    C. Trust Funds                                                                    3,944                4,134
    D. Special Funds                                                                    872                  789
    E. Other Fund Types                                                              80,989               51,752
    F. Total Fund Balances                                                  $    68,848,167   $       62,350,242
 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                            $    69,960,267   $        63,268,814
    B. Fund Balance per Air Force                                               -68,848,167           -62,350,242
 3. Reconciling Amount                                                      $     1,112,100   $          918,572


Fluctuations
Total fund balances increased $6.5 billion (10%) primarily due to a capital infusion in the amount of $9.6 billion
received on June 15, 2006 from the supplemental appropriation act for defense to support Global War on
Terrorism and Hurricane Recovery. Of the $9.6 billion, $5.0 billion was multi-year and operations and mainte-
nance appropriations that could not be disbursed in the current fiscal year due to the late receipt of funding.

Reconciling Amount
The Air Force shows a reconciling amount of $1.1 billion with the Department of the Treasury which is com-
prised of:
• $929.9 million in withdrawal of the FBWT in the canceling appropriations at September 30, 2006. These funds
  are included in FBWT per Treasury but are not included in FBWT per Air Force.

• $170.1 million in withdrawal of the FBWT for unavailable receipt accounts at September 30, 2006. These
  funds are included in FBWT per Treasury but are not included in FBWT per Air Force.

• $16.8 million in allocation transfers from the Department of Agriculture and the Foreign Military Sales - Military
  Assistance Program. An allocation transfer occurs when the Treasury appropriates funds to one federal entity,
  which then transfers the authority to execute its funds to another federal entity. These funds are included in
  the fund balance with Treasury (FBWT) per Treasury, but are not included in the FBWT per Air Force.

• $4.7 million in allocation transfers to the Department of Transportation. These funds are included in FBWT
  per Air Force but are not included in FBWT per Treasury.



                                                                                                                     37
      United States Air Force


Status of Fund Balance with Treasury

 As of September 30                                               2006                             2005
 ($ in thousands)

 1. Unobligated Balance
    A. Available                                          $              15,001,790            $          11,760,100
    B. Unavailable                                                        2,111,136                        1,246,109
 2. Obligated Balance not yet Disbursed                   $              53,989,101            $          51,840,781
 3. Non-Budgetary FBWT                                    $                 380,571            $             339,456
 4. Non-FBWT Budgetary Accounts                           $              -2,634,431            $          -2,836,206
 5. Total                                                 $              68,848,167            $          62,350,240



Fluctuations
Total status of Fund Balance with Treasury increased $6.5 billion (10%) primarily due to a $3.2 billion increase in
the unobligated balance available. This increase is due a capital infusion of $9.6 billion received on June 15, 2006
from the supplemental appropriation act for defense to support Global War on Terrorism and Hurricane
Recovery. Most of the $2.8 billion of multi-year appropriations, included in the supplemental, were not obligated
prior to the end of FY 2006. In addition, obligated balance not yet disbursed increased $2.2 billion as a result of
the late receipt of the $9.6 billion supplemental. The late receipt resulted in Air Force obligating the single year
appropriations during FY 2006 but was unable to disburse all of the obligations during the current fiscal year.

Relevant Information for Comprehension
The Status of Fund Balance with Treasury consists of unobligated and obligated balances. These balances reflect
the budgetary authority remaining for disbursements against current or future obligations. In addition, the Status
includes various accounts that affect either budgetary reporting or Fund Balance with Treasury, but not both.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover
outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated with appropri-
ations expiring at fiscal year end that remain available only for obligation adjustments until the account is closed.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been
received or services that have not been performed.

Non-Budgetary Fund Balance with Treasury (FBWT) includes entity and nonentity Fund Balance with Treasury
accounts which do not have budgetary authority, such as unavailable receipt accounts or clearing accounts.

Non-FBWT Budgetary Accounts include budgetary accounts that do not affect Fund Balance with Treasury, such
as contract authority, borrowing authority, and investment accounts. This category reduces the Status of Fund
Balance with Treasury.

Although funds have been appropriated, $2.1 billion of these funds are not available for obligation because the
period for obligation established by law has lapsed.




38
                                                                             2006 Annual Financial Statement


Disclosures Related to Suspense/Budget Clearing Accounts

 As of September 30                                                                                          (Decrease)/Increase
                                                                2004              2005           2006             from FY
                                                                                                                 2005 - 2006
 ($ in thousands)

 Account
  F3845 – Personal Property Proceeds                        $            0    $          0   $           0      $              0
  F3875 – Disbursing Officer Suspense                             -357,705         336,053         362,040                25,987
  F3880 – Lost or Cancelled Treasury Checks                         -3,803             691             553                  -138
  F3882 – Uniformed Services Thrift Savings Plan Suspense          -20,956          25,523          30,802                 5,279
  F3885 – Interfund/IPAC Suspense                                   14,989         -74,564         -63,012                11,552
  F3886 – Thrift Savings Plan Suspense                                   0               0               0                     0
 Total                                                      $     -367,475    $    287,703   $     330,383      $         42,680


Fluctuations
Total suspense/budget clearing accounts increased $42.7 million (15%) due to a $26.0 million increase in
Disbursing Officer Suspense and an $11.6 million increase in Interfund/IPAC Suspense. The increase in the
Disbursing Officer Suspense account is the result of an increase in federal income tax being withheld and not yet
disbursed for civilian and military due to increases in Internal Revenue Service withholding rates during FY 2006.
The change in the Interfund/IPAC Suspense account can be attributed to a decrease in the amount of intragovern-
mental payments and collections in suspense. In April 2006, the DFAS Transaction Interface Module was imple-
mented (DTIM-IPAC). DTIM-IPAC has greatly reduced the time transactions remain in suspense thereby reduc-
ing the amount and dollar value of transactions that are in the Interfund/IPAC Suspense account.

Relevant Information for Comprehension
The F3845 suspense account represents the balance of proceeds from the sale of personal property.

The F3875 suspense clearing accounts represents the Disbursing Officer's (DO) suspense. Account F3885 repre-
sents the Interfund/IPAC suspense. Account F3886 represents the (payroll) Thrift Savings Plan suspense. These
three suspense accounts temporarily hold collections or disbursements until they can be assigned or identified to
a valid appropriation.

The F3880 suspense account represents the balance of Treasury checks that (1) have either been lost by the
payee and need to be reissued, (2) have never been cashed by the payee, or (3) have been cancelled by the
Treasury and need to be transferred to the original appropriation.

The F3882 suspense account was established for the Uniformed Services Thrift Savings Plan in FY 2002. The
amounts in this account represent a timing difference between the posting of the Thrift Savings Plan deductions by the
National Finance Center and the posting of these amounts in the military accounting systems in the following month.




                                                                                                                                   39
      United States Air Force


Disclosures Related to Problem Disbursements and In-Transit Disbursements

 As of September 30                                                                              (Decrease)/Increase
                                                          2004          2005           2006           from FY
                                                                                                     2005-2006
 ($ in thousands)

 1. Total Problem Disbursements, Absolute Value
    A. Unmatched Disbursements (UMDs)                 $   161,630   $    272,972   $    32,063     $        -240,909
    B. Negative Unliquidated Obligations (NULO)             9,792          8,209         6,291                -1,918
 2. Total In-transit Disbursements, Net               $ 1,065,326   $    776,544   $   611,372     $        -165,172


Fluctuations
The Air Force had a $242.8 million decrease in problem disbursements and a $165.2 million decrease in in-tran-
sits. The Defense Finance and Accounting Service has efforts underway to improve the systems, to resolve all
previous problem disbursements, and to process all in-transits in a timely manner. The amount of unmatched dis-
bursements (UMDs) over 180 days is $0, negative unliquidated disbursements (NULOs) is $0, and in-transits is
$2.1 million. The amount of UMDs over 120 days old is $0, NULOs is $0 and in-transits is $3.0 million. The cur-
rent absolute value of in-transits is $1.3 billion.

The decrease of $240.9 million (88%) in UMDs and the $1.9 million (23%) decrease in NULOs can be attributed
to an increase in the rate of automated posting of disbursements since September 2005, utilizing the DFAS
Transaction Interface Module.

The decrease in in-transits of $165.2 million (21%) can be attributed to a decrease in Interfund activity and a
decrease in intraservice (Air Force for Air Force) disbursement activity 4th Quarter, FY 2006. Fluctuations are
driven by the cyclical nature of Interfund and cross disbursement activities.

Relevant Information for Comprehension
The Air Force is reporting $1.5 million of in-transit disbursements pertaining to the International Military
Education and Training (IMET) appropriation. The Air Force has no problem disbursements directly related to
Foreign Military Sales.

There are no discrepancies between amounts reported in the problem disbursement metric furnished to DFAS
Arlington and the schedule above.

Problem disbursements represent disbursements of Air Force funds reported by a disbursing station to the
Department of the Treasury which have not yet been precisely matched against the specific source obligation.
The problem disbursement arises when the various contracting, disbursing, and accounting systems fail to match
the data necessary to properly account for the transaction in all the applicable accounting systems.

A UMD occurs when a payment is not matched to a corresponding obligation in the accounting system. Absolute
value is the sum of the positive values of debit and credit transactions without regard to the sign (plus or minus).

A NULO occurs when a payment is made against a valid obligation, but the payment is greater than the amount
of the obligation recorded in the official accounting system. These payments have been made using available
funds and are based on valid receiving reports for goods and services delivered under valid contracts.

The in-transits represent the net value of disbursements and collections made by a DoD disbursing activity on
behalf of an accountable activity and have not been posted to the accounting system.



40
                                                                              2006 Annual Financial Statement


Note 4. Investments and Related Interest

 As of September 30                                                                 2006
                                                             Amortization     Amortized            Investments           Market Value
                                               Cost
                                                              Method      (Premium)/Discount           Net                Disclosure
 ($ in thousands)

 1. Intragovernmental Securities
   A. Nonmarketable, Market Based          $          713                     $             1        $        714          $         712
   B. Accrued Interest                                  8                                                       8                      8
   C. Total Intragovernmental Securities   $          721                     $             1        $        722          $         720
 2. Other Investments
   A. Total Investments                    $            0                     $             0        $           0                   N/A


 As of September 30                                                                 2005
                                               Cost          Amortization     Amortized            Investments           Market Value
                                                              Method      (Premium)/Discount           Net                Disclosure
 ($ in thousands)
 1. Intragovernmental Securities
   A. Nonmarketable, Market Based          $          710                     $            0        $         710         $          705
   B. Accrued Interest                                  7                                                       7                      7
   C. Total Intragovernmental Securities   $          717                     $            0        $         717         $          712
 2. Other Investments
   A. Total Investments                    $           0                      $            0        $            0                   N/A


Relevant Information for Comprehension
The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited in the U.S.
Treasury, which uses the cash for general Government purposes. Treasury securities are issued to the Air Force
as evidence of its receipts. Treasury securities are an asset to the Air Force and a liability to the U.S. Treasury.
Because the Air Force and the U.S. Treasury are both parts of the Government, these assets and liabilities offset
each other from the standpoint of the Government as a whole. For this reason, they do not represent an asset
or a liability in the U.S. Governmentwide financial statements. U.S. Treasury securities provide the Air Force with
authority to draw upon the U.S. Treasury to make future benefit payments or other expenditures. When the Air
Force requires redemption of these securities to make expenditures, the Government finances those expendi-
tures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or repay-
ing less debt, or by curtailing other expenditures. This is the same way that the Government finances all other
expenditures.

Note 5. Accounts Receivable

 As of September 30                                                         2006                                          2005
                                               Gross Amount           Allowance For        Accounts                Accounts
                                                                        Estimated
                                                   Due                Uncollectibles     Receivable, Net         Receivable, Net
 ($ in thousands)
 1. Intragovernmental Receivables                 $         665,672                N/A         $    665,672          $          653,589
 2. Nonfederal Receivables
                                                  $    1,189,271        $    -147,525          $ 1,041,746           $         1,028,310
    (From the Public)
 3. Total Accounts Receivable                     $    1,854,943        $    -147,525          $ 1,707,418           $         1,681,899




                                                                                                                                           41
       United States Air Force


Relevant Information for Comprehension
As presented on the Consolidated Balance Sheet, accounts receivable include reimbursements receivable and
refunds receivable such as out-of-service debts (amounts owed by former service members) and contractor
debts. It also includes net interest receivables per DoDFMR Vol. 6B guidance. Canceled accounts receivable are
reported as nonentity receivables because these amounts are deposited into a Treasury Department miscella-
neous receipt account when collected. Reconciliation between Treasury Report on Receivables (TROR) Due
from the Public and the Balance Sheet was accomplished. This reconciliation is performed to ensure that the
financial statements are in agreement with the receivable amount reported to the Department of the Treasury.
The difference between accounts receivable on the Balance Sheet and TROR Due from the Public include the
allowance for estimated uncollectible of $147.5 million, unsupported collections in transit in the amount of $1.1
million, and undistributed collections of $358.5 thousand. Undistributed collections are prorated between public
and intragovernmental receivables based on a percentage calculated from receivable amounts represented on the
Balance Sheet.

Aged Accounts Receivable

 As of September 30                                            2006                                  2005
                                                Intragovernmental     Nonfederal     Intragovernmental      Nonfederal
 ($ in thousands)
 CATEGORY
 Nondelinquent
  Current                                          $     1,085,891     $   193,635       $    1,360,677     $      247,651
  Noncurrent                                                 5,725               0                    0                  0
 Delinquent
  1 to 30 days                                     $       34,155      $     6,010       $        7,167     $        6,242
  31 to 60 days                                           122,543            4,677                5,836              3,369
  61 to 90 days                                            28,469            6,744               22,661              7,735
  91 to 180 days                                           64,611           21,217               14,723              7,214
  181 days to 1 year                                       55,201           41,513               25,834             21,965
  Greater than 1 year and less
  than or equal to 2 years                                   7,145          12,565                  436            661,736
  Greater than 2 years and less
  than or equal to 6 years                                   6,437         705,483                   36             30,232
  Greater than 6 years and less
  than or equal to 10 years                                      0         179,819                     0           177,244
  Greater than 10 years                                          0          17,702                     0            17,115
 Subtotal                                          $     1,410,177     $ 1,189,365       $    1,437,370     $    1,180,503
  Less Supported Undistributed Collections                    -665             -94                -7,439             -1,841
  Less Eliminations                                       -743,840               0             -776,342                   0
  Less Other                                                     0               0                     0                -36
 Total                                             $       665,672     $ 1,189,271       $      653,589     $    1,178,626


For nondelinquent, noncurrent accounts receivables, the Air Force currently has 26 claims in the amount of $5.7
million, which are currently being negotiated. These amounts are reported by the Air Force in the Operation and
Maintenance appropriation classified program. As a result, additional information on these cases is not available.
Throughout the year, follow-up is made by the Air Force on these cases.

Delinquent receivables as a result of transactions arising within DoD or other federal agencies are being collected
through the Intergovernmental Payment and Collection System (IPAC) in accordance with trading partner agree-
ments. For receivables without valid supporting documentation, DFAS-DE is working with the Air Force to




42
                                                                 2006 Annual Financial Statement


obtain documentation to support an IPAC collection. If supporting documentation is not available, the original
entry will be reversed.

DFAS-DE has a new initiative to develop a front end edit system to help validate reimbursable data before it is
loaded into the accounting system. DFAS-DE is also strengthening guidance relative to the elimination of unsup-
ported reimbursable transactions and is providing training to Air Force customers.

Demand letters are sent to nonfederal debtors once the payment becomes 30 days delinquent in accordance
with the procedures outlined in the Concept of Operations for Managing Accounts Receivables. The delinquen-
cies for the Air Force consist primarily of debts that have been turned over to the Contract Debt System (CDS)
and the Defense Debt Management System (DDMS) for resolution.

Note 6. Other Assets

 As of September 30                                                  2006                       2005
 ($ in thousands)

 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                  $          454,968         $            427,989
    B. Other Assets                                                               0                            0
    C. Total Intragovernmental Other Assets                      $          454,968         $            427,989
 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                   $      11,098,138          $          10,919,137
    B. Other Assets (With the Public)                                      280,988                        259,904
    C. Total Nonfederal Other Assets                             $      11,379,126          $          11,179,041
 3. Total Other Assets                                           $      11,834,094          $          11,607,030

Relevant Information for Comprehension
Other Assets (With the Public) (line 2B) is comprised primarily of advances to contractors as part of advance pay-
ment pool agreements with the Massachusetts Institute of Technology and other nonprofit institutions and travel
advances. The advance payment pool agreements are used for the financing of cost type contracts with nonprofit
educational or research institutions for experimental or research and development work when several contracts
or a series of contracts require financing by advance payments.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the
Department that protect the contract work from state or local taxation, liens or attachment by the contractor's
creditors, transfer of property, or disposition in bankruptcy; however, these rights should not be misconstrued
to mean that ownership of the contractor's work has transferred to the Government. The government does
not have the right to take the work, except as provided in contract clauses related to termination or accept-
ance, and the Department is not obligated to make payment to the contractor until delivery and acceptance of a
satisfactory product.

The Contract Financing Payment balance of $11.1 billion is comprised of $9.9 billion in contract financing pay-
ments and an additional $1.2 billion in estimated future funded payments that will be paid to the contractor
upon future delivery and Government acceptance of a satisfactory product. (See additional discussion in Note
15, Other Liabilities).




                                                                                                                    43
      United States Air Force


Note 7. Cash and Other Monetary Assets

 As of September 30                                                               2006                2005
 ($ in thousands)
 1. Cash                                                                          $   111,641          $    148,938
 2. Foreign Currency                                                                    3,138                 2,906
 3. Total Cash, Foreign Currency, & Other Monetary Assets                         $   114,779          $    151,844


Fluctuations
Overall total cash, foreign currency, & other monetary assets (line 3) decreased by $37.1 million (24%) primarily
due to a $37.3 million decrease in cash (line 1). The decrease is attributed to the increased utilization of the
International Treasury Service (ITS.gov) for payments to foreign vendors in U.S. dollars. DFAS-DE sends U.S. dol-
lars directly to the Federal Reserve Bank of New York. The Federal Reserve Bank disburses funds directly to for-
eign vendors resulting in a reduced need for U.S. dollars at Air Force disbursing locations. ITS.gov began a
phased implementation during the 2nd Quarter, FY 2005.

Relevant Information for Comprehension
The amount reported as cash and foreign currency consists primarily of cash held by disbursing officers. The for-
eign currency amount reported is valued at the Department of Treasury's prevailing exchange rate, which is the
most favorable rate available to the U.S. Government for foreign exchange transactions. Foreign currency is used
to make disbursements and exchange U.S. dollars for military personnel.

Cash and foreign currency are nonentity assets and, as such, are considered restricted assets that are held by the
Air Force but not available for use in its operations. These assets are held by the Air Force's disbursing officers as
agents of the Treasury. The total balance of $114.8 million is restricted.

Note 8. Direct Loan and/or Loan Guarantee Programs
Direct Loan and/or Loan Guarantee Programs - The entity operates the following direct loan and/or
Loan guarantee program(s):

• Military Housing Privatization Initiative
• Armament Retooling & Manufacturing Support Initiative

Note 9. Inventory and Related Property

 As of September 30                                                        2006                      2005
 ($ in thousands)

 1. Inventory, Net                                                    $               0          $               0
 2. Operating Materials & Supplies, Net                                      48,584,335                 47,169,013
 3. Stockpile Materials, Net                                                          0                          0
 4. Total                                                             $      48,584,335          $      47,169,013




44
                                                                                   2006 Annual Financial Statement


Operating Materials and Supplies, Net

 As of September 30                                                         2006                                  2005
                                                    OM&S                Revaluation                                             Valuation
                                                  Gross Value                             OM&S, Net             OM&S, Net
                                                                        Allowance                                                Method
 ($ in thousands)

 1. OM&S Categories
    A. Held for Use                               $    37,448,202     $              0   $   37,448,202    $       36,317,706   SP, LAC
    B. Held for Repair                                 11,136,133                    0       11,136,133            10,851,307   SP, LAC
    C. Excess, Obsolete, and Unserviceable              1,263,059           -1,263,059                0                     0    NRV
    D. Total                                      $    49,847,394     $     -1,263,059   $   48,584,335    $       47,169,013

 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses     NRV = Net Realizable Value
 SP = Standard Price                                                               O = Other
 AC = Actual Cost


Information related to OM&S
General Composition of OM&S

Operating Materials and Supplies (OM&S) include weapon systems, spare and repair parts, ammunition, tactical mis-
siles, centrally managed spare aircraft engines, and uninstalled cruise and intercontinental ballistic missile motors.

In addition to the account balances shown in Note 9, the federal accounting standard requires disclosure of the
amount of OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is not holding
any items for future use.

Some munitions included in OM&S are restricted to use. Restricted munitions are items that cannot be expected
to meet performance requirements under all conditions. They are only used in emergency combat situations in
which no other suitable munitions are immediately available.

Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned

The category Held for Use includes all materials available for issuance. OM&S classified as such is marked within
each supply or inventory system with condition codes A-D.

The category "Held as Excess, Obsolete, and Unserviceable" includes all material that managers determine to be
more costly to repair than to replace. Items retained for management purposes, which are beyond economic
repair are coded "condemned." The net value of these items is zero and they are shown as Excess, Obsolete,
and Unserviceable and assigned condition codes H, P, S, or V.

The Category Held for Repair relates to impaired assets and includes all other condition codes as defined by the
Military Standard Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M).

Changes in the Criteria for Identifying the Category to Which OM&S Items Are Assigned

As stated above, the category Held for Use includes all material available for issuance, and the category Held for
Repair includes all economically reparable material. Before FY 2002, the Department of Defense (DoD) categorized
potentially redistributable material, regardless of condition, as Excess, Obsolete, and Unserviceable.

To date, the Air Force has partially implemented a moving average cost (MAC) valuation process within four systems
in an effort to report the value of OM&S at historical cost, which is the DoD-approved costing methodology.



                                                                                                                                            45
      United States Air Force


(Three of the four systems had its beginning balance validated). Most OM&S assets are in systems not yet converted
to MAC and therefore are still valued at standard price with an allowance for Excess, Obsolete, and Unserviceable.

Under current DoD policy, no allowance is made for serviceable ready-to-issue items (category Held for Use).
An allowance equal to 100% of standard price, however, is made for the category Excess, Obsolete, and
Unserviceable. This allowance results in a net book value of zero, which is considered appropriate in the case of
items coded as condemned that have no intrinsic value to the Air Force. The category Held for Repair repre-
sents suspended, unserviceable (but reparable) items which have a value to the Air Force but whose value is less
than that of the Held for Use items and greater than that of the Excess, Obsolete and Unserviceable items. To
date, the Office of the Secretary of Defense is currently developing guidance for computing an allowance for the
Held for Repair category. As a result, Air Force continues to report Held for Repair at full standard price.

Government-Furnished Material (GFM) and Contractor-Acquired Material (CAM)
The value of some of the Air Force's GFM and CAM in the hands of contractors is not included in the OM&S val-
ues reported above. The DoD is presently reviewing its process for reporting these amounts in an effort to
determine the appropriate accounting treatment and the best method to collect and report required information
quarterly without duplicating information already in other logistics systems.

Operating Materials and Supplies (OM&S) Value
The OM&S data reported on the financial statements are derived from logistics systems designed for material
management purposes. Some of these systems do not maintain the historical cost data necessary to comply with
the valuation requirements of the Statement of Federal Financial Accounting Standards (SFFAS) No. 3,
"Accounting for Inventory and Related Property."

Items commonly used in and available from the commercial sector are not managed in the DoD material manage-
ment activities. Further, unlike the commercial sector, the DoD operational cycles are based on national need and
thereby are irregular. In addition, the military risks associated with stock-out positions (e.g., weapon systems that
are not mission capable due to lack of supplies) are totally different from a commercial activity's risk of losing sales.
Therefore, the Department does not attempt to account separately for items held for current or future use.

In general, the Air Force is using the consumption method of accounting for OM&S, since OM&S is defined in the
SFFAS No. 3 as material that has not yet been issued to the end user. Once issued, the material is expensed.
According to federal accounting standards, the consumption method of accounting should be used to account for
OM&S unless (1) the amount of OM&S is not significant, (2) OM&S are in the hands of the end user for use in
normal operations, or (3) it is cost beneficial to expense OM&S when purchased (purchase method).

Other Air Force Disclosures
In the past, the Air Force provided only minimal OM&S accounting data that could be used to prepare the finan-
cial statements but has made considerable strides in improving the systems to provide actual transactions for
completing the financial statements. However, in some cases, the data provided still consists of only beginning
and ending balances for each of the asset accounts Held for Use; Excess, Obsolete, Unserviceable; and Held for
Repair. Without the required additional data (acquisitions, transfers in, amounts consumed, transfers out, trading
partner data, etc.), the Defense Finance and Accounting Service (DFAS) could only report the net change
between prior period ending balances and the values reported as current period ending balances.




46
                                                                                              2006 Annual Financial Statement


Although the Air Force OM&S systems, in most cases, capture some trading partner data at the transaction level,
no electronic interfaces exist between the Air Force OM&S feeder systems, the DFAS accounting systems, other
DoD services, and other federal agencies for reporting the data for all items transferred in and out. Consequently,
intragovernmental transactions (trading partner data) could not always be reconciled. The Air Force and DFAS are
currently developing processes, methodologies and standard electronic interfaces that will allow intragovernmental
transactions to be reported monthly to the General Accounting and Finance System - Rehost.

Note 10. General PP&E, Net

 As of September 30                                                                       2006                                              2005
                                                   Depreciation/                                  (Accumulated
                                                                    Service     Acquisition                                 Net Book    Prior FY Net
                                                   Amortization                                   Depreciation/
                                                                     Life         Value                                      Value      Book Value
                                                     Method                                       Amortization)
 ($ in thousands)

 1. Major Asset Classes
    A. Land                                            N/A             N/A      $       440,350                   N/A   $     440,350   $     432,911
    B. Buildings, Structures, and Facilities                        20 or 40         46,075,786     $     -26,234,571      19,841,215      18,916,942
    C. Leasehold Improvements                          S/L         lease term                 0                     0               0               0
    D. Software                                        S/L          2-5 or 10           794,601              -307,616         486,985         344,561
    E. General Equipment                               S/L           5 or 10         30,298,895           -23,829,906       6,468,989       6,808,603
    F. Military Equipment                              S/L           Various        235,060,495          -123,829,675     111,230,820     111,579,312
    G. Assets Under Capital Lease                      S/L         lease term           453,481              -328,319         125,162         151,598
    H. Construction-in-Progress                        N/A             N/A            3,267,590                   N/A       3,267,590       4,721,453
    I. Other                                                                                  0                     0               0               0
 2. Total General PP&E                                                          $   316,391,198     $    -174,530,087   $ 141,861,111   $ 142,955,380

  [1]
    Note 15 for additional information on Capital Leases
  Legend for Valuation Methods:
  S/L = Straight Line       N/A = Not Applicable



Relevant Information for Comprehension
The Air Force changed its method of valuing military equipment in 3rd Quarter, FY 2006. Previously, military
equipment was valued using Bureau of Economic Analysis (BEA) data. Beginning 3rd Quarter, FY 2006, military
equipment is valued based on internal records. The value of military equipment for the 4th Quarter, FY 2005 was
restated from $92.3 billion to $111.6 billion for comparative purposes using the new valuation method. See Note
19 for further disclosures.

For 4th Quarter, FY 2006, military equipment is valued at $111.2 billion based on internal records. Under the
previously used BEA valuation methodology, this equipment would have been valued at $95.0 billion.

There are restrictions on the Air Force's ability to dispose of real property (land and buildings) located outside the
continental United States.

Other Air Force Disclosures
Included in the net book value of general equipment for 4th Quarter, FY 2006 reports, the Air Force used some
FY 2002 ending data for Special Tools and Special Test Equipment (ST/STE) but did use actual data for the B-2 air-
craft. The FY 2002 values were still being used for all other ST/STE because the two systems previously used to
report ST/STE have been turned off and at least 80% of the dollar value is scheduled to be replaced by Air Force
Equipment Management System (AFEMS) in FY 2007. The net book value of ST/STE for the 4th Quarter, FY
2006 remains unchanged at $170.3 million, which is immaterial to the balance of general equipment.




                                                                                                                                                        47
      United States Air Force


The value of the Air Force's General PP&E real property in the possession of contractors is included in the values
reported above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of General
PP&E personal property (Major Asset Classes of Software and Equipment) does not include all of the General
PP&E above the DoD capitalization threshold in the possession of contractors. The net book amount of such
property is immaterial in relation to the total General PP&E net book value. The Government Accountability
Office, the Inspector General, DoD, and the Air Force are developing new policies and a contractor-reporting
process to capture General PP&E information for future reporting purposes in compliance with GAAP.

Heritage Assets
Heritage Assets and Stewardship Land are resources that protect, restore, enhance, modernize, preserve and
sustain mission capability within the Air Force through effective planning and management of natural and cultural
resources to guarantee access to air, land, and waters. These assets are resources that are managed to provide
multiple-use activities for the public benefit. This includes actions to comply with requirements such as Federal
Laws, Executive Orders, DoD policies, final governing standards and other binding agreements.

Heritage Assets, within the Air Force, consists of buildings and structures, museums, major collections, monu-
ments and memorials, archeological sites and cemeteries, while Stewardship Land consist mainly of mission essen-
tial (donated, public domain, executive order) land. The Air Force, with minor exceptions, uses most of the
buildings and structures as part of their every day activities and includes them on the balance sheet as multi-use
heritage assets (capitalized and depreciated). The mission essential stewardship land is used for many different
activities including general base operations, training sites, bombing ranges, recreation, and timber production.

Buildings and Structures: The Air Force considers 4,548 buildings and structures on Air Force bases and sites to
be heritage assets. In order to be considered a heritage asset, the building and/or facility must be listed, eligible,
or potentially eligible for the National Register. These buildings and structures are maintained by each base's civil
engineering group as part of their overall responsibility.

Museums: The Air Force Museum System consists of 14 museums with the major museum located at Wright-
Patterson Air Force Base, Ohio. It houses the main collection of historical artifacts. 13 museums are considered
Air Force Field Museums or Heritage Centers, which also contain items of historical interest, some of which are
specific to the general locality. The 14th museum belongs to the Air National Guard. The Air Force also has sev-
eral heritage centers that are no longer considered museums.

Major Collections: The Air Force has four significant collections consisting of the Air Force art collection and
three collections located at the Air Force Academy. Included in these collections are historical items and memo-
rabilia as well as distinctive works of art.

Cemeteries: The Air Force has administrative and curatorial responsibilities for 39 cemeteries on its active
duty bases.

Archeological Sites: The Air Force has 1,514 archeological sites listed on or eligible for the National Register.




48
                                                                   2006 Annual Financial Statement


Assets Under Capital Lease

 As of September 30                                                                   2006             2005
 ($ in thousands)
 1. Entity as Lessee, Assets Under Capital Lease
    A. Land and Buildings                                                         $      453,481       $     453,481
    B. Equipment                                                                               0                   0
    C. Accumulated Amortization                                                         -328,319            -301,883
    D. Total Capital Leases                                                       $      125,162       $     151,598


Fluctuations
The total capital leases decrease of $26.4 million (17%) is due to the current year increase in accumulated amor-
tization. The Air Force is not acquiring new capital leases; therefore, the change in amortization will continue to
decrease the net value of assets under capital lease.

Relevant Information for Comprehension
The Air Force is the lessee in ten capital leases. These leases are for military family housing acquired through
Section 801 Family Housing Program. The leased items are capitalized and reported as an asset when their costs
exceed the capitalization threshold. Leased items not meeting this threshold are expensed. All leases originating
prior to FY 1992 are funded on a fiscal year basis. Six of the current military family housing leases originated
before FY 1992.

Note 11. Liabilities Not Covered by Budgetary Resources

 As of September 30                                                               2006                 2005
 ($ in thousands)
 1. Intragovernmental Liabilities
    A. Accounts Payable                                                       $               0    $               0
    B. Debt                                                                                   0                    0
    C. Other                                                                            971,752              491,562
    D. Total Intragovernmental Liabilities                                    $         971,752    $         491,562
 2. Nonfederal Liabilities
    A. Accounts Payable                                                       $    185,457         $          232,672
    B. Military Retirement and Other Federal Employment Benefits                 1,123,322                  1,147,437
    C. Environmental Liabilities                                                 5,787,360                  6,376,345
    D. Other Liabilities                                                         3,494,673                  2,835,261
    E. Total Nonfederal Liabilities                                           $ 10,590,812         $       10,591,715
 3. Total Liabilities Not Covered by Budgetary Resources                      $ 11,562,564         $       11,083,277
 4. Total Liabilities Covered by Budgetary Resources                          $ 10,343,006         $       10,462,797
 5. Total Liabilities                                                         $ 21,905,570         $       21,546,074




                                                                                                                        49
      United States Air Force


Information Related to Liabilities Not Covered by Budgetary Resources: Other
Liability Disclosures
Other Intragovernmental Liabilities Not Covered by Budgetary Resources consists of Federal Employees'
Compensation Act (FECA) liability to the Department of Labor, unemployment compensation, and custodial liabilities.

Military Retirement and Other Federal Employment Benefits consist of actuarial FECA liability.

Other Nonfederal Liabilities Not Covered by Budgetary Resources consists of capital lease liabilities, contingent
liabilities, and accrued annual leave liabilities for military and civilians.

Note 12. Accounts Payable

 As of September 30                                                2006                                2005
                                            Accounts             Interest,
                                                              Penalties, and          Total            Total
                                             Payable
                                                            Administrative Fees
 ($ in thousands)

 1. Intragovernmental Payables              $   1,425,771              N/A        $   1,425,771    $    1,651,905
 2. Nonfederal Payables (to the Public)     $   4,269,732      $         0        $   4,269,732    $    5,851,184
 3. Total                                   $   5,695,503      $         0        $   5,695,503    $    7,503,089



Fluctuations
Intragovernmental accounts payable decreased by $226.1 million (14%) primarily due to less business with the
Department of Transportation, the General Service Administration, and the National Aeronautics and Space
Administration. Air Force reported a $168.3 million net decrease in payables to the Department of
Transportation, the General Service Administration, and the National Aeronautics and Space Administration from
4th Quarter, FY 2005 to 4th Quarter, FY 2006.

Nonfederal payables decreased by $1.6 billion (27%) primarily in aircraft procurement. In FY 2005, production
of the F-22, C-17, C-130J, and Predator aircraft was increased to meet additional requirements. In FY 2006, pro-
duction was reduced back to normal operating levels.

Note 13. Debt
Not applicable




50
                                                                                2006 Annual Financial Statement


Note 14. Environmental Liabilities and Disposal Liabilities

 As of September 30                                                                        2006                                  2005

                                                                         Current       Noncurrent
                                                                                                                Total            Total
                                                                         Liability      Liability
 ($ in thousands)

 1. Environmental Liabilities–Nonfederal
    A. Accrued Environmental Restoration Liabilities
       1. Active Installations—Installation Restoration Program (IRP)
          and Building Demolition and Debris Removal (BD/DR)             $   397,341   $   3,241,240        $   3,638,581    $    4,006,627
       2. Active Installations—Military Munitions Response Program
          (MMRP)                                                              15,545       1,378,160            1,393,705         1,344,856
       3. Formerly Used Defense Sites—IRP and BD/DR                                0               0                    0                 0
       4. Formerly Used Defense Sites—MMRP                                         0               0                    0                 0
    B. Other Accrued Environmental Liabilities—Active Installations
       1. Environmental Corrective Action                                          0        136,910               136,910             138,378
       2. Environmental Closure Requirements                                   4,429         95,052                99,481              51,655
       3. Environmental Response at Operational Ranges                             0              0                     0                   0
       4. Other                                                                    0              0                     0                   0
    C. Base Realignment and Closure (BRAC)
       1. Installation Restoration Program                                   124,812       1,080,060            1,204,872         1,201,444
       2. Military Munitions Response Program                                      0               0                    0                 0
       3. Environmental Corrective Action / Closure Requirements               8,432          72,971               81,403           152,376
       4. Other                                                                    0               0                    0           230,842
    D. Environmental Disposal for Weapons Systems Programs
       1. Nuclear Powered Aircraft Carriers                                        0             0                      0                 0
       2. Nuclear Powered Submarines                                               0             0                      0                 0
       3. Other Nuclear Powered Ships                                              0             0                      0                 0
       4. Other National Defense Weapons Systems                                   0             0                      0                 0
       5. Chemical Weapons Disposal Program                                        0             0                      0                 0
       6. Other                                                                    0             0                      0                 0
 2. Total Environmental Liabilities                                      $   550,559   $ 6,004,393          $   6,554,952    $    7,126,178


Other Categories Disclosure
 Others Category Disclosure Comparative Table
 ($ in thousands)
                                                                                                    2006                      2005

 Other Accrued Environmental Costs - Other
      Total                                                                                            $0                        $0
 Base Realignment and Closure - Other
     Manpower services at BRAC installations and headquarters offices.                                 $0                   $230,842
     Total                                                                                             $0                   $230,842
 Environmental Disposal for Weapons Systems Programs - Other                                           $0                        $0
     Total                                                                                             $0                        $0


The amount reported for Base Realignment and Closure (BRAC) - Other in FY 2005 was reclassified into the
Installation Restoration Program (IRP) line for 4th Quarter, FY 2006 to better reflect the distribution of manage-
ment and manpower estimates and to be consistent with DoD policy. All future management and manpower
estimates will be reported in the IRP and Environmental Corrective Action/Closure Requirements lines.




                                                                                                                                                51
      United States Air Force


Environmental Disclosures

 As of September 30                                                           2006                   2005
 ($ in thousands)
  A. Amount of operating and capital expenditures used to
     remediate legacy waste. Legacy wastes are the
                                                                         $        357,074        $      374,635
     remediation efforts covered by IRP, MMRP, and BD/DR
     regardless of funding source.
  B. The unrecognized portion of the estimated total cleanup
     costs associated with general property, plant, and                  $        103,690        $      152,145
     equipment.

  C. The estimated cleanup costs associated with general
     property, plant, and equipment placed into service                  $                0      $            0
     during each fiscal year.

  D. Changes in total cleanup costs due to changes in laws,
                                                                         $           -44,891     $           40
     regulations, and/or technology.

  E. Portion of the changes in estimated costs due to
     changes in laws and technology that is related to prior             $                0      $            0
     periods.


The unrecognized portion of the estimated total cleanup costs associated with general property, plant, and equip-
ment decreased by $48.5 million (32%) due to the normal management lifecycle of landfills maintained by the Air
Force. Closure liabilities are recognized by multiplying the percentage used of the total capacity of the landfills.
Since Air Force has not placed any new landfills into service in FY 2006, the percentage and dollar amount of used
and recognized increases and the percentage and dollar amount of unused and unrecognized decreases.

There are no values for the estimated cleanup costs associated with general property, plant, and equipment
placed into service during each fiscal year since the Air Force has not placed any new assets with environmental
closure requirements (i.e., landfills) into service in FY 2005 and FY 2006. As of FY 2005, the Air Force no longer
recognizes the costs of closure for Underground Storage Tanks (USTs) and Treatment, Storage, and Disposal
Facilities (TSDFs) as environmental liabilities. The Air Force does not plan to abandon these facilities and there-
fore has no liability to be recognized in the financial statements. The Resource Conservation and Recovery Act
(RCRA) states that the cleanup of a UST facility takes place only when the tank is abandoned for 12 consecutive
months.

The changes in total cleanup costs due to changes in laws, regulations, and/or technology decreased by $44.9 mil-
lion (112,328%). The change represents an increased improvement in the method used to report information.
The FY 2005 information was based on a manual data call. Air Force built an automated process to track and
report FY 2006 information.

There is no value assigned to the changes in estimated costs due to changes in laws and technology related to
prior periods for FY 2006. The data collected for total changes in cost estimates is due to changes in laws, regu-
lations, and technologies were changes that occurred during FY 2006.




52
                                                                   2006 Annual Financial Statement


Other Information Related to Environmental Liabilities
Applicable Laws and Regulations of Cleanup Requirements

The Air Force is required to clean-up contamination resulting from past waste disposal practices, leaks, spills and
other past activity, which has created a public health or environmental risk. The Air Force does this in coordina-
tion with regulatory agencies, and if applicable, with other responsible parties, and current property owners. The
Air Force is also required to recognize closure and post-closure costs for its General Property, Plant and
Equipment (PP&E) and environmental corrective action costs for current operations. The Air Force is responsible
for tracking and reporting all required environmental information related to environmental restoration costs,
other accrued environmental costs, disposal costs of weapons systems, and environmental costs related to BRAC
actions that have taken place in prior years. Examples of relevant laws and regulations that are considered for
discussion, as applicable, include, but are not limited to:

        (a) Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
        (b) Clean Water Act
        (c) Clean Air Act
        (d) Resource Conversation and Recovery Act (RCRA)
        (e) Toxic Substances Control Act (TSCA)
        (f) Other

The two laws with the vast majority of cost estimates for active environmental cleanup are CERCLA and RCRA.
The "Other" classification is reserved to capture all other laws and regulations that are considered for discussion.
For example, when environmental cleanup requirements are subject to individual state and/or local laws and reg-
ulations, the "Other" classification is used in the Air Force management system as an attribute of the cleanup.

Methods for Assigning Total Cleanup Costs to Current Operating Periods

The Air Force uses engineering estimates and independently validated models to estimate environmental cleanup
costs. The models are either contained within the Remedial Action Cost Engineering Requirements (RACER)
application, or a historic comparable project, a specific bid, or an independent government cost estimate is refer-
enced for the current project. The Air Force validates the models in accordance with DoD Instruction 5000.61
and primarily uses the models to estimate the cleanup costs based on data received during a preliminary assess-
ment and initial site investigation. The Air Force primarily uses engineering estimates after obtaining extensive
data during the remedial investigation/feasibility phase of the environmental project. Once the environmental
cleanup cost estimates are complete, the Air Force complies with accounting standards to assign costs to current
operating periods. Because the Accrued Environmental Restoration Liabilities is accounted for as a totally self-
contained program, all direct and indirect costs of the program are captured and reported.

The Air Force has already expensed the costs for cleanup associated with General PP&E placed into service prior
to October 1, 1997, unless the costs are intended to be recovered through user charges. If the costs are recov-
ered through user charges, then the Air Force expensed that portion of the asset that has passed since the
General PP&E was placed into service and is systematically recognizing the remaining cost over the life of the
assets. For General PP&E placed into service after September 30, 1997, the Air Force expenses the associated
environmental costs systematically over the life of the asset. The Air Force expenses the full cost to cleanup con-
tamination for Stewardship PP&E at the time the asset is placed into service. The Air Force uses the physical
capacity for operating landfills method for systematic recognition.



                                                                                                                  53
      United States Air Force


Types of Environmental Liabilities Identified

The Air Force has cleanup requirements for the Defense Environmental Restoration Program (DERP) sites at
active installations, BRAC installations, and sites at active installations that are not covered by the DERP. The Air
Force is required to cleanup DERP and sites not covered by the DERP in coordination with regulatory agencies,
other responsible parties, and current property owners.

The environmental cleanup of military ranges is governed by the Military Munitions Rule in 40 CFR 266.201.
Environmental cleanup liabilities on ranges refer to munitions related activities. Environmental cleanup areas with-
in a closed range are referred to as Munitions Response Areas (MRAs). As studies are done to find munitions-
related contamination on closed ranges, the number of sites is expected to rise. As investigations progress, the
number of sites will increase to reflect specific areas of pollution. The Air Force expects the number of sites
reported to increase as pollution is discovered and sites are defined in areas less than the total boundary of the
closed range.

The accounting standard requires full cost be recognized for closure requirements. The Air Force has closure
requirements or disposal liabilities at active installations. Disposal liabilities are presented as an accrued amount
for the life of the landfill. The total liability for FY 2006 is $202.0 million which includes:

$99.5 million recognized in the FY 2006 financial statements. The environmental closure liability for landfills is
based on the proportion of the landfill used as of the reporting date. This estimate includes the cost of capping
(closing) the landfill, as well as 30 years of monitoring required by federal regulations.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation,
Deflation, Technology, or Applicable Laws and Regulations

The Air Force is not aware of any pending changes to reported values of reported Environmental Liabilities. The
Air Force does understand that the liabilities can change in the future due to changes in laws and regulations,
changes in agreements with regulatory agencies, and advances in technology.

Level of Uncertainty Regarding the Accounting Estimates used to Calculate the Reported
Environmental Liabilities

Environmental liabilities for the Air Force are based on accounting estimates which require certain judgments and
assumptions to be made by management. The Air Force believes the estimates are reasonable based upon the
information available at the time of their calculation. Actual results may vary materially from the accounting esti-
mates if agreements with regulatory agencies require remediation to a different degree than anticipated when cal-
culating the estimates. The liabilities can be further impacted if further investigation of the environmental sites
discovers contamination different than known at the time of the estimates.

Air Force financial statements would be affected to the extent there are material differences between these esti-
mates and actual results. There are areas in which management judgment in selecting any available alternative
could produce a materially different result.

Included in the Accrued Environmental Restoration Liability for September 30, 2006, are 27 engineering sites that
represent building demolition and debris removal totaling $56.5 million.




54
                                                                     2006 Annual Financial Statement


Other Disclosures
Other Accrued Environmental Liabilities - Environmental Corrective Actions

Because the Other Accrued, non-BRAC environmental cleanup activity is part of general funding achieved using
Air Force Operation and Maintenance appropriated funds, there is no special accounting for the costs of the
cleanup program. Therefore, the costs captured for the Other Accrued, non-BRAC environmental cleanup
reflect only direct costs. Because this program was not tracked and appropriated specifically, there was no
accounting specific to this program. It is believed that the current portion of the environmental cleanup liability in
this area is relatively small and not material in the classification of liabilities.

Other Accrued Environmental Liabilities - Environmental Closure Requirements

Closure liabilities recognized by the Air Force cover only direct costs. No cost accounting exists to determine
indirect closure costs. Costs incurred in periods greater than 30 years into the future are considered immaterial.
The present value of such costs would be negligible in recognition of closure liabilities if such recognition were
not on a current cost basis.

Reporting of landfill closure liability is not in conformance with the accounting standard. The standard would rec-
ognize all future costs regardless of timing. The Air Force recognizes only the initial closure. A landfill cap typi-
cally requires replacement every 30 to 40 years. An estimation of current costs based on all future costs, regard-
less of timing, would result in an infinite liability. The Air Force, therefore, reports only the cost of the initial cap
required to close a landfill.

Environmental Restoration for Overseas Bases

In addition to the liabilities reported above, the Air Force has the potential to incur costs for restoration initiatives
in conjunction with returning overseas Defense facilities to host nations. The Air Force is unable to provide a
reasonable estimate at this time because the extent of restoration required is not known.




                                                                                                                      55
       United States Air Force


Note 15. Other Liabilities

 As of September 30                                                        2006                            2005
                                                        Current         Noncurrent
                                                                                          Total            Total
                                                        Liability        Liability
 ($ in thousands)

 1. Intragovernmental
    A. Advances from Others                             $     622,200   $           0    $   622,200   $        573,687
    B. Deposit Funds and Suspense Account Liabilities         299,582               0        299,582            167,899
    C. Disbursing Officer Cash                                311,604               0        311,604            304,148
    D. Judgment Fund Liabilities                                    0               0              0                  0
    E. FECA Reimbursement to the Department of Labor          124,516         165,899        290,415            291,104
    F. Other Liabilities                                      734,458               0        734,458            253,029
    G. Total Intragovernmental Other Liabilities        $   2,092,360   $     165,899    $ 2,258,259   $      1,589,867

 2. Nonfederal
    A. Accrued Funded Payroll and Benefits              $     965,802   $            0   $   965,802   $          877,966
    B. Advances from Others                                    31,769                0        31,769               67,773
    C. Deferred Credits                                             0                0             0                    0
    D. Deposit Funds and Suspense Accounts                     79,865                0        79,865              171,514
    E. Temporary Early Retirement Authority                       130                0           130                  677
    F. Non-environmental Disposal Liabilities
       (1) Military Equipment (Nonnuclear)                          0               0              0                  0
       (2) Excess/Obsolete Structures                               0               0              0                  0
       (3) Conventional Munitions Disposal                          0               0              0                  0
    G. Accrued Unfunded Annual Leave                        2,839,835               0      2,839,835          2,351,814
    H. Capital Lease Liability                                      0         188,119        188,119            265,543
     I. Other Liabilities                                   1,524,515         623,073      2,147,588            444,217
    J. Total Nonfederal Other Liabilities               $   5,441,916   $     811,192    $ 6,253,108   $      4,179,504
 3. Total Other Liabilities                             $   7,534,276   $     977,091    $ 8,511,367   $      5,769,371



Fluctuations
Total intragovernmental other liabilities increased $668.4 million (42%) primarily due to a $481.4 million increase
in other liabilities. The increase is primarily due to custodial liabilities. In the past, DFAS-DE erroneously report-
ed public accounts receivables in the receipt and deposit fund accounts as entity. DFAS-DE corrected the error
during 3rd Quarter, FY 2006 in accordance with the classification of accounts as entity versus nonentity in
DoDFMR, Volume 6B, Attachment 20A. The correct classification of a receivable as nonentity results in the
recognition of a corresponding custodial liability.

Total nonfederal other liabilities increased $2.1 billion (50%) primarily due to a $1.7 billion increase in other liabili-
ties. The increase is due to the new DoD reporting requirement to record the estimated future contract financ-
ing payment that will be paid to contractors upon delivery and Government acceptance of a satisfactory product.
This new requirement was implemented in the 4th Quarter, FY 2006.

Relevant Information for Comprehension
The amount of Intragovernmental Other Liabilities represents government contributions for employee benefits,
unemployment compensation, education benefits, and custodial liabilities.

The amount of Nonfederal Other Liabilities represents legal contingencies, employee benefits, and contract holdbacks.

The Air Force has no delinquent amounts due to Department of Labor for Federal Employees' Compensation
Act (FECA).




56
                                                                   2006 Annual Financial Statement


Contingent Liabilities balance includes $1.2 billion in estimated future contract financing payments that will be paid
to the contractor upon delivery and Government acceptance of a satisfactory product. In accordance with con-
tract terms, specific rights to the contractor's work vests with the Government when a specific type of contract
financing payments is made, thereby, protecting taxpayer funds in the event of contract nonperformance. These
rights should not be misconstrued as the rights of ownership. The Department is under no obligation to pay the
contractor for amounts greater than the amounts authorized in the contract until delivery and Government
acceptance of a satisfactory product. Because it is probable that the contractor will complete its efforts and deliv-
er a satisfactory product to the Department and the amount of potential future payments are estimable; the
Department has recognized a contingent liability for estimated future payments, which are conditional pending
delivery and Government acceptance of a satisfactory product.

The recorded estimated probable liability amount of $25.0 million is included in other liabilities nonfederal for
open contractor claims greater than $100.0 thousand. At this junction, these claims are not in appeal or in litiga-
tion. In addition to the contractor claims under appeal and the open contractor claims for an amount greater
than $100.0 thousand, the Air Force was party to numerous other contractor claims in amounts less than $100.0
thousand per claim. These claims are a routine part of the contracting business and are typically resolved through
mutual agreement between the contracting officer and the contractor. Because of the routine nature of these
claims, no requirement exists for a consolidated tracking mechanism to record the amount of each claim, the
number of open claims, or the probability of the claim being settled in favor of the claimant. The potential liability
arising from these claims in aggregate would not materially affect the operations or financial condition of the Air
Force. A reasonably possible liability is estimated at $47.9 million and is not included in the reported amount and
is disclosed in Note 16.

The total estimated probable liability for claims and litigation against the Air Force handled by the Civil Law and
Litigation Directorate, as of September 30, 2006, was valued at $443.8 million and is included in other liabilities
nonfederal. As of September 30, 2006, the Air Force was party to 19,254 claims and litigation actions. This liabil-
ity dollar amount recorded in the financial statements is an estimate based on the weighted average payout rate
for the previous three years. A reasonably possible liability is estimated at $204.9 million and is not included in
the reported amount and disclosed in Note 16. Neither past payments nor the current contingent liability esti-
mate provides a basis for accurately projecting the results of any individual lawsuit or claim. It is uncertain that
claims will ever accrue to the Air Force. In addition, many claims and lawsuits, even if successful, will not be paid
out of Air Force Funds.

As of September 30, 2006, the Air Force was party to 77 contract appeals before the Armed Services Board of
Contract Appeals (ASBCA). The probable amount of loss from contractor claims of $154.2 million is included in
other liabilities nonfederal. The contractor claims involve unique circumstances, which are considered by the
ASBCA in formulating decisions on the cases. Such claims are funded primarily from Air Force appropriations. A
reasonably possible liability is estimated at $486.6 million and is not included in the reported amount and dis-
closed in Note 16.




                                                                                                                   57
        United States Air Force


Capital Lease Liability

 As of September 30                                                                       2006                                 2005
                                                                                     Asset Category
                                                                   Land and
                                                                                  Equipment       Other            Total       Total
                                                                   Buildings
 ($ in thousands)

 1. Future Payments Due
    A. 2006                                                        $          0      $        0   $       0    $           0   $    42,973
    B. 2007                                                              39,878               0           0           39,878        39,878
    C. 2008                                                              38,594               0           0           38,594        38,594
    D. 2009                                                              38,478               0           0           38,478        38,478
    E. 2010                                                              38,478               0           0           38,478        38,478
    F. 2011                                                              36,786               0           0           36,786             0
    G. After 5 Years                                                     43,520               0           0           43,520       128,881
    H. Total Future Lease Payments Due                             $    235,734      $        0   $       0    $     235,734   $   327,282
     I. Less: Imputed Interest Executory Costs                           47,615               0           0           47,615        61,738
    J. Net Capital Lease Liability                                 $    188,119      $        0   $       0    $     188,119   $   265,544
 2. Capital Lease Liabilities Covered by Budgetary Resources                                                   $     158,472   $    42,973
 3. Capital Lease Liabilities Not Covered by Budgetary Resources                                               $      29,647   $   222,570



Note 16. Commitments and Contingencies

Relevant Information for Comprehension
The Air Force is a party in various administrative proceedings and legal actions, with claims including environmen-
tal damage claims, equal opportunity matters, and contractual bid protests. The Air Force has accrued contingent
liabilities for legal actions where the Air Force Office of the General Counsel considers an adverse decision prob-
able and the amount of loss is measurable. In the event of an adverse judgment against the Government, some of
the liabilities may be payable from the Judgment Fund. The Air Force records Judgment Fund liabilities in Note
12 "Accounts Payable."

The Commitments and Contingencies consist of the following reasonably possible liabilities:
                                                                                                      ($ in Millions)
Contractual Actions:
           Contractor Claims                                                                              $    47.9
           Appeals before Armed Services Board of Contract Appeals (ASBCA)                                    486.6
           Claims and Litigation from Civil Law                                                               204.9
Total                                                                                                     $ 739.4

The amounts disclosed for litigations claims and assessments are fully supportable and agree with the Air Force's
legal representation letters and management summary schedule.

The amount of undelivered orders for open contracts citing cancelled appropriations which remain unfilled or
unreconciled for which the Air Force may incur a contractual commitment for payment is $1.4 billion.

The Air Force is not aware of any amounts for contractual arrangements such as fixed price contracts with escala-
tion, price redetermination, or incentive clauses; contract authorizing variations in quantities; and contracts where
allowable interest may become payable based on contractors’ claims under "Dispute" clause contained in contracts.




58
                                                                                2006 Annual Financial Statement


Note 17. Military Retirement and Other Federal Employment Benefits

 As of September 30                                                             2006                                       2005
                                                                    Assumed     (Less: Assets
                                                      Present Value                                 Unfunded         Present Value
                                                                     Interest    Available to
                                                       of Benefits                                   Liability        of Benefits
                                                                    Rate (%)    Pay Benefits)
 ($ in thousands)

 1. Pension and Health Actuarial Benefits
    A. Military Retirement Pensions                     $        0                $             0   $            0     $             0
    B. Military Retirement Health Benefits                       0                              0                0                   0
    C. Military Medicare-Eligible Retiree Benefits               0                              0                0                   0
    D. Total Pension and Health Actuarial Benefits      $        0                $             0   $            0     $             0
 2. Other Actuarial Benefits
    A. FECA                                             $ 1,123,323               $          0      $   1,123,323      $    1,147,437
    B. Voluntary Separation Incentive Programs                    0                          0                  0                   0
    C. DoD Education Benefits Fund                                0                          0                  0                   0
    D. Total Other Actuarial Benefits                   $ 1,123,323               $          0      $   1,123,323      $    1,147,437
 3. Other Federal Employment Benefits                   $    20,425               $    -20,425      $           0      $            0
 4. Total Military Retirement and Other Federal
    Employment Benefits:                                $ 1,143,748               $    -20,425      $   1,123,323      $    1,147,437



Relevant Information for Comprehension
Federal Employees' Compensation Act (FECA)

The Air Force's actuarial liability for workers' compensation benefits is developed and provided by the
Department of Labor (DOL) at the end of each fiscal year. The total liability for 4th Quarter, FY 2006 is
$1.1 billion, which is a change of $24.1 million (2%) in comparison to 4th Quarter, FY 2005, and includes the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases, plus a
component for incurred but unreported claims.

The liability is determined using a method that utilizes historical benefit payment patterns to predict the ultimate
payments. The projected annual benefit payments are then discounted to the present value using the Office of
Management and Budget's (OMB's) economic assumptions for 10-year U.S. Treasury notes and bonds. Interest
rate assumptions utilized for discounting are as follows:
                                                                  2006
                                                            5.170% in Year 1
                                                     5.313% in Year 2 and thereafter

To adjust more specifically for the effects of inflation on the liability for future workers' compensation benefits,
wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index
medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors
for the charge back year (CBY) 2006 were also used to adjust the methodology's historical payments to current
year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:
                      2006                 2007                2008               2009                  2010+
COLA                 3.50%                 3.13%              2.40%              2.40%                  2.43%
CPIM                 4.00%                 4.01%              4.01%              4.01%                  4.09%




                                                                                                                                         59
      United States Air Force


The model's resulting projections were analyzed to insure that the estimates were reliable. The analysis was
based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the per-
centage change in the liability amount by agency to the percentage change in the actual incremental payments, (3)
a comparison of the incremental paid loses per case (a measure of case-severity) in CBY 2006 to the average pat-
tern observed during the most current three charge back years, and (4) a comparison of the estimated liability
per case in the 2006 projection to the average pattern for the projections of the most recent three years.

Other Federal Employment Benefits
Other Federal Employment Benefits represent liabilities for Servicemembers' Group Life Insurance (SGLI) and
death gratuities payable to the beneficiaries of military members.

Note 18. General Disclosures Related to the Statement of Net Cost
Intragovernmental Costs and Exchange Revenue

 As of September 30                                                   2006                     2005
 ($ in thousands)

 1. Intragovernmental Costs                                    $         30,656,499       $         29,845,742
 2. Public Costs                                                        111,722,498                 99,536,232
 3. Total Costs                                                $        142,378,997       $        129,381,974
 4. Intragovernmental Earned Revenue                           $         -4,493,654       $         -4,207,648
 5. Public Earned Revenue                                                  -827,193                   -879,930
 6. Total Earned Revenue                                       $         -5,320,847       $         -5,087,578
 7. Net Cost of Operations                                     $        137,058,150       $        124,294,396


Fluctuations
Total costs increased $13.0 billion (10%) primarily due to a $12.2 billion increase in public costs. The increase
resulted from the additional expenses in FY 2006 to address the hurricanes in the Gulf of Mexico and the Global
War on Terrorism (GWOT).

Relevant Information for Comprehension
The Air Force recorded a prior period adjustment due to a change in the methodology for reporting of military
equipment. The FY 2005 restatement impacts the value of general property, plant, and equipment and associated
accumulated depreciation reported on the balance sheet. The Department has determined that developing the
prior year value for the depreciation expense is cost-prohibitive, and thus has elected not to restate the
Statement of Net Cost.

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the
Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The Statement of Net Cost is unique because its principles are driven on understanding the net cost of programs
and/or organizations that the Federal Government supports through appropriations or by other means. This
statement provides gross and net cost information that can be related to the amount of output or outcome for a
given program and/or organization administered by a responsible reporting entity.



60
                                                                                2006 Annual Financial Statement


The amounts presented in this statement are based on obligations and disbursements and, thus, may not report
actual accrued costs in all cases and may not meet accounting standards. As such, the information presented is
based on budgetary obligations, disbursements, and collection transactions, as well as non-financial feeder sys-
tems, adjusted to record known accruals for major items such as payroll expenses, accounts payable, and envi-
ronmental liabilities.

The cost of acquiring, constructing, improving, reconstructing, or renovating heritage assets is $2.3 million in FY 2006.

Note 19. Disclosures Related to the Statement of Changes in Net Position

 As of September 30                                                          2006                               2005
                                                               Cumulative Results    Unexpended Cumulative Results      Unexpended
                                                                 of Operations      Appropriations of Operations       Appropriations
 ($ in thousands)

 1. Prior Period Adjustments Increases (Decreases) to Net
    Position Beginning Balance
    A. Changes in Accounting Standards                           $              0    $         0     $            0       $             0
    B. Errors and Omissions in Prior Year Accounting Reports           19,309,311              0         19,309,311                     0
    C. Total Prior Period Adjustments                            $     19,309,311    $         0     $   19,309,311       $             0

 2. Imputed Financing
     A. Civilian CSRS/FERS Retirement                            $        230,498    $         0     $     236,321        $             0
     B. Civilian Health                                                   454,584              0           427,569                      0
     C. Civilian Life Insurance                                             1,481              0             1,398                      0
     D. Judgment Fund                                                      12,252              0            76,751                      0
     E. Intra-Entity                                                            0              0                 0                      0
     F. Total Imputed Financing                                  $        698,815    $         0     $     742,039        $             0



Abnormalities
The Statement of Changes in Net Position includes the following abnormal balances:
Cumulative Results of Operations
Appropriations used - Earmarked Funds                                    $-1,251,498
Unexpended Appropriations
Appropriations used - Earmarked Funds                                     $1,251,498

DFAS-DE caused the abnormal balances by establishing incorrect posting logic for the US Standard General
Ledger (USSGL) in the General Accounting and Finance System - Rehost (GAFS-R). Prior to the 4th Quarter, FY
2005, GAFS-R erroneously updated unexpended appropriations used and expended appropriations for the ear-
marked funds. DFAS-DE corrected the posting logic in the 4th Quarter, FY 2005, but did not reverse the previ-
ous fiscal years transactions until 1st Quarter, FY 2006. In FY 2007, these balances will be corrected and no
longer reported on the Statement of Net Position.

Relevant Information for Comprehension
Errors and Omissions in Prior Year Accounting Reports

The Air Force recorded a $19.3 billion prior period adjustment due to a change in the methodology for reporting
of military equipment, resulting in a $19.3 billion restatement for FY 2005. The FY 2005 restatement impacts the
value of general property, plant, and equipment and associated accumulated depreciation reported on the Balance
Sheet. The Department has determined that developing the prior year value for the depreciation expense is
cost-prohibitive, and thus has elected not to restate the Statement of Net Cost.



                                                                                                                                        61
      United States Air Force


In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 23, Eliminating the Category
National Defense Property, Plant, and Equipment, the Department reported military equipment values in the
financial statements beginning in FY 2003. As an interim measure, while the Department worked to develop its
military equipment baseline from internal records, the military equipment values reported were based on infor-
mation obtained from the Bureau of Economic Analysis (BEA).

Effective 3rd Quarter, FY 2006, the Department replaced the BEA estimation methodology with a valuation
based on internal Departmental records. During the process of establishing a baseline, we discovered that the
BEA estimates had failed to consider disposals, thresholds, and construction in process. While an estimation
methodology is acceptable per SFFAS 23, due to the nature of the BEA omissions, we consider that the method
we previously used was not compliant with Generally Accepted Accounting Principles (GAAP), and thus have
treated the adjustment as correction of a material error.

Imputed Financing
The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil
Service Retirement System (CSRS), the Federal Employees' Retirement System (FERS), the Federal Employees
Health Benefits Program (FEHB), and the Federal Employees Group Life Insurance Program (FEGLI) do not fully
cover the U.S. Government's cost to provide these benefits. The financial statements recognized an imputed cost
as the difference between the Government's cost of providing these benefits to the employees and contributions
made by and for them. OPM provides the cost factors to Defense Finance and Accounting Service (DFAS) for
computation of imputed financing cost. DFAS provides the costs to the Office of the Under Secretary of Defense
(Personnel and Readiness) (OUSD [P&R]) for validation. After validation, OUSD (P&R) provides the imputed
costs to the reporting components for inclusion in their financial statements.

For the Judgment Fund, the Air Force recognizes liabilities and expenses when unfavorable litigation outcomes are
probable and the amounts can be estimated. The Treasury provides the dollar amount of the imputed financing.
The Treasury based the imputed financing on the amount the Judgment Fund is expected to pay for settlements.

Appropriations Received
Appropriations Received on the Statement of Change in Net Position does not agree with Appropriations
Received on the Statement of Budgetary Resources due to differences between proprietary and budgetary
accounting concepts and reporting requirements. This difference totals $2.7 million.

Note 20. Disclosures Related to the Statement of Budgetary Resources

 As of September 30                                                              2006               2005
 ($ in thousands)
 1. Net Amount of Budgetary Resources Obligated
                                                                              $ 56,974,233       $ 54,587,501
    for Undelivered Orders at the End of the Period
 2. Available Borrowing and Contract Authority at the End of the Period                    0                  0




62
                                                                  2006 Annual Financial Statement


Apportionment Categories
Funds are apportioned by three categories: (1) category A is apportioned at the quarterly level, (2) category B is
apportioned by activity or project, and (3) exempt are funds not subject to apportionment. The amount of direct
obligations incurred and apportioned under category A is $78.9 billion, category B is $57.6 billion, and exempt is
$1.8 million. For reimbursable obligations incurred and apportioned, category A is $5.9 billion, category B is $3.3
billion, and exempt is $11.8 million.

Relevant Information for Comprehension
Intra-entity transactions have not been eliminated because the financial statements are presented as combined
and combining. Permanent indefinite appropriations are the Wildlife Conservation Fund [16 USC 670 (b)] and the
Department of the Air Force General Gift Fund [10 USC 2601 (b)]. Reference Note 23 for additional information.
There are no legal arrangements affecting the use of unobligated balances of budget authority. Capital infusion in
the amount of $13.9 billion was received during FY 2006 from the Supplemental Appropriation Act for Defense -
The Global War on Terror and Hurricane Recovery (P.L. 109-234).

Note 21. Disclosures Related to the Statement of Financing
The objective of the Statement of Financing is to reconcile the difference between budgetary obligations and the
net cost of operations reported.

Due to limitations in the Department of the Air Force's financial systems, budgetary data is not in agreement with
proprietary expenses and assets capitalized. Differences between budgetary and proprietary data constitute a
previously identified deficiency.

No adjustment was made to bring the Statement of Financing into balance with the Statement of Net Cost.

The following Statement of Financing lines are presented as combined instead of consolidated due to intraagency
budgetary transactions not being eliminated:
• Obligations Incurred
• Less: Spending Authority from Offsetting Collections and Recoveries
• Obligations Net of Offsetting Collections and Recoveries
• Less: Offsetting Receipts
• Net Obligations
• Undelivered Orders
• Unfilled Customer Orders

Other Resources, Other consists of other gains and losses to adjust intragovernmental transfers in. Other
resources or adjustments to net obligated resources that do not affect net cost of operations, Other consists of
net transfers in and transfers out without reimbursement and other gains and losses to adjust intragovernmental
transfers in. Components Requiring or Generating Resources in Future Period, Other consists of increases to
future funded expenses. Components Not Requiring or Generating Resources, Other consists of cost capitaliza-
tion offset and other expenses not requiring budgetary resources.




                                                                                                                63
      United States Air Force


The Air Force's allocation transfers do not create a reconciling item on the transferor's or recipient's Statement of
Financing.

Components requiring or generating resources in future periods are costs not funded in the period the costs are
incurred. The expense and the corresponding liability are recognized in the current period but the budgetary
resource will not be provided until a subsequent period. The amount of liabilities not covered by budgetary
resources for 4th Quarter, FY 2006 is $11.6 billion. In general, the changes in liabilities not covered by budgetary
resources as shown on the Balance Sheet are reflected on the Statement of Financing. Differences are a result of
custodial liabilities, unfunded capital lease liabilities, and environmental liabilities covered by unobligated budgetary
resources.

Note 22. Disclosures Related to the Statement of Custodial Activity
Not applicable.

Note 23. Earmarked Funds

 BALANCE SHEET                                                                Other
 As of September 30                                  MRF       MERHCF       Earmarked       Eliminations           Total
                                                                              Funds
 ($ in thousands)
 ASSETS
 Fund Balance with Treasury                          $     0     $      0     $     4,816     $            0   $       4,816
 Investments                                               0            0             722                  0             722
 Accounts and Interest Receivable                          0            0             284                  0             284
 Other Assets                                              0            0               6                  0               6
 Total Assets                                        $     0     $      0     $     5,828     $            0   $       5,828

 LIABILITIES and NET POSITION
 As of September 30
 Military Retirement Benefits and Other Federal
                                                     $     0     $      0     $         0     $            0   $           0
 Employment Benefits
 Other Liabilities                                         0            0           1,288          -1,288                  0
 Unexpended Appropriations                                 0            0               0               0                  0
 Cumulative Results of Operations                          0            0           4,540               0              4,540
 Total Liabilities and Net Position                  $     0     $      0     $     5,828     $    -1,288      $       4,540

 STATEMENT OF NET COST
 As of September 30

 Program Costs                                       $     0     $      0     $    14,835     $            0   $      14,835
 Less Earned Revenue                                       0            0         -12,519                  0         -12,519
 Net Program Costs                                   $     0     $      0     $     2,316     $            0   $       2,316
 Less Earned Revenues Not Attributable to Programs         0            0               0                  0               0
 Net Cost of Operations                              $     0     $      0     $     2,316     $            0   $       2,316

 STATEMENT OF CHANGES IN NET POSITION
 As of September 30
 Net Position Beginning of the Period                $     0     $      0     $     4,200     $            0   $       4,200
 Net Cost of Operations                                    0            0           2,316                  0           2,316
 Budgetary Financing Sources                               0            0           2,656                  0           2,656
 Other Financing Sources                                   0            0               0                  0               0
 Change in Net Position                              $     0     $      0     $       340     $            0   $         340
 Net Position End of Period                          $     0     $      0     $     4,540     $            0   $       4,540




64
                                                                        2006 Annual Financial Statement


Department of the Air Force General Gift Fund (10 USC 2601 (b)

The Department of the Air Force General Gift Fund accepts, holds, and administers any gift, device, or bequest of
real or personal property, made on the condition that it is used for the benefit (or in connection with the establish-
ment, maintenance, or operation) of a school, hospital, library, museum, or cemetery under the Air Force's jurisdic-
tion. The fund is available to such institutions or organizations - subject to the terms of the gift, device, or bequest.

Conditional gifts are invested in U.S. Treasury securities, and any interest earned on these securities is added back
into the fund.

Wildlife Conservation Fund (16 USC 670 (b))

The Wildlife Conservation Fund provides for (1) the conservation and rehabilitation of natural resources on mili-
tary installations; (2) the sustainable multipurpose use of the resources which include hunting, fishing, trapping,
and nonconsumptive uses; and (3) the public access to military installations to facilitate its use - subject to safety
requirements and military security. The fund is available to carry out these programs and other such expenses
that may be necessary for the purpose of the cited statute.

Consisting of both appropriated and nonappropriated funding, this fund gives installation commanders the author-
ity to collect fees from the sale of hunting and fishing permits.

Air Force Cadet Fund (37 USC 725 (s))

The Air Force Cadet Fund is maintained for the benefit of Air Force Academy cadets. Disbursements are made
for the personal services of cadets such as laundry, arts, and athletics while collections are received from the
same cadets at least equal to any disbursements made.

Relevant Information for Comprehension
No legislation exists that significantly changes the purpose of an earmarked fund or redirects a material portion of
the accumulated balance of an earmarked fund.

The Total Earmarked Funds column is shown as consolidated. All intra-DoD activity between earmarked funds
and non-earmarked funds has been eliminated from this column, which causes assets to not equal liabilities and
net position.

Note 24. Other Disclosures

 As of September 30                                                                2006
                                                                              Asset Category
                                                Land and Buildings       Equipment             Other           Total
 ($ in thousands)
 1. ENTITY AS LEASEE-Operating Leases
    Future Payments Due
    Fiscal Year
    2007                                              $        65,538     $          0     $     123,726   $   189,264
    2008                                                       60,167                0           127,437       187,604
    2009                                                       56,064                0           131,260       187,324
    2010                                                       51,000                0           135,198       186,198
    2011                                                       72,078                0           139,254       211,332
    After 5 Years                                              66,960                0           143,432       210,392
   Total Future Lease Payments Due                    $       371,807     $          0     $     800,307   $ 1,172,114




                                                                                                                         65
      United States Air Force


Relevant Information for Comprehension
Leases in the land and buildings category include costs for operating leased housing facilities in the U.S. and over-
seas for the active Air Force.

The Air Force has no leases in the equipment category and does not anticipate any in the future.

Other leases consist of vehicle leases. The Air Force leases vehicles in three major geographic regions (stateside,
Europe, and Southwest Asia) and from two types of lessors, the General Service Administration (GSA) and
commercial lessors.




66
              2006 Annual Financial Statement




General Fund
Consolidating and
Combining Statements




                                           67
      United States Air Force
Consolidating Balance Sheet—General Fund
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                  Air Force           Air Force           Air National
                                                                   Active             Reserve                Guard
1. ASSETS (Note 2)
   A. Intragovernmental:
      1. Fund Balance with Treasury (Note 3)
         a. Entity                                            $     65,780,012    $         958,933   $        2,028,233
         b. Nonentity Seized Iraqi Cash                                      0                    0                    0
         c. Nonentity - Other                                           80,989                    0                    0
      2. Investments (Note 4)                                              722                    0                    0
      3. Accounts Receivable (Note 5)                                1,128,138              111,283              170,092
      4. Other Assets (Note 6)                                              38                    0                    0
      5. Total Intragovernmental Assets                       $     66,989,899    $       1,070,216   $        2,198,325
   B. Cash and Other Monetary Assets (Note 7)                 $        114,779    $               0   $                0
   C. Accounts Receivable, Net (Note 5)                              1,015,683                9,425               16,638
   D. Loans Receivable (Note 8)                                              0                    0                    0
   E. Inventory and Related Property, Net (Note 9)                  47,147,046               98,984            1,338,305
   F. General Property, Plant and Equipment, Net (Note 10)         137,923,115              946,193            2,991,803
   G. Investments (Note 4)                                                   0                    0                    0
   H. Other Assets (Note 6)                                         11,351,763                6,269               21,094
2. TOTAL ASSETS                                               $    264,542,285    $       2,131,087   $        6,566,165
3. LIABILITIES (Note 11)
   A. Intragovernmental:
      1. Accounts Payable (Note 12)                           $         702,167   $         26,230    $           73,024
      2. Debt (Note 13)                                                       0                  0                     0
      3. Other Liabilities (Note 15 & 16)                             2,638,269              1,372                   923
      4. Total Intragovernmental Liabilities                  $       3,340,436   $         27,602    $           73,947
   B. Accounts Payable (Note 12)                              $       4,042,852   $         79,033    $          108,840
   C. Military Retirement and Other Federal                             826,321            118,222               199,205
       Employment Benefits (Note 17)
   D. Environmental and Disposal Liabilities (Note 14)               6,554,952                   0                     0
   E. Loan Guarantee Liability (Note 8)                                      0                   0                     0
   F. Other Liabilities (Note 15 and Note 16)                        5,955,603             115,611               181,894
4. TOTAL LIABILITIES                                          $     20,720,164    $        340,468    $          563,886
5. NET POSITION
   A. Unexpended Appropriations - Earmarked Funds (Note 23)   $              0    $               0   $                0
   B. Unexpended Appropriations - Other Funds                       67,980,181              880,943            1,895,172
   C. Cumulative Results of Operations - Earmarked Funds                 4,540                    0                    0
   D. Cumulative Results of Operations - Other Funds               175,837,400              909,676            4,107,107
6. TOTAL NET POSITION                                         $    243,822,121    $       1,790,619   $        6,002,279
7. TOTAL LIABILITIES AND NET POSITION                         $    264,542,285    $       2,131,087   $        6,566,165




The accompanying notes are an integral part of these financial statements.


68
                                                                   2006 Annual Financial Statement


    Component           Combined                                      2006              2005 Consolidated
      Level               Total             Eliminations           Consolidated             Restated




$               0   $      68,767,178   $                  0   $       68,767,178   $          62,272,967
                0                   0                      0                    0                       0
                0              80,989                      0               80,989                  77,275
                0                 722                      0                  722                     717
         -743,841             665,672                      0              665,672                 653,589
          454,930             454,968                      0              454,968                 427,989
$        -288,911   $      69,969,529   $                  0   $       69,969,529   $          63,432,537
$               0   $         114,779   $                  0   $          114,779   $             151,844
                0           1,041,746                      0            1,041,746               1,028,310
                0                   0                      0                    0                       0
                0          48,584,335                      0           48,584,335              47,169,013
                0         141,861,111                      0          141,861,111             142,955,380
                0                   0                      0                    0                       0
                0          11,379,126                      0           11,379,126              11,179,041
$        -288,911   $     272,950,626   $                  0   $      272,950,626   $         265,916,125



$         624,350   $       1,425,771   $                  0   $        1,425,771   $           1,651,904
                0                   0                      0                    0                       0
         -382,305           2,258,259                      0            2,258,259               1,589,867
$         242,045   $       3,684,030   $                  0   $        3,684,030   $           3,241,771
$          39,007   $       4,269,732   $                  0   $        4,269,732   $           5,851,184
                0           1,143,748                      0            1,143,748               1,147,437

               0            6,554,952                      0            6,554,952               7,126,178
               0                    0                      0                    0                       0
               0            6,253,108                      0            6,253,108               4,179,504
$        281,052    $      21,905,570   $                  0   $       21,905,570   $          21,546,075

$               0   $               0   $                  0   $                0   $                   0
         -569,963          70,186,333                      0           70,186,333              63,716,637
                0               4,540                      0                4,540                       0
                0         180,854,183                      0          180,854,183             180,653,413
$        -569,963   $     251,045,056   $                  0   $      251,045,056   $         244,370,050
$        -288,911   $     272,950,626   $                  0   $      272,950,626   $         265,916,125




                                                                                                            69
      United States Air Force
Consolidating Statement of Net Cost—General Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                             Air Force           Air Force           Air National
                                                              Active             Reserve                Guard
1. Program Costs
   A. Military Personnel
      1. Gross Costs                                     $      27,251,264   $       1,487,489   $        2,885,836
      2. (Less: Earned Revenue)                                   -313,642              -5,980              -33,030
      3. Net Program Costs                               $      26,937,622   $       1,481,509   $        2,852,806
   B. Operation and Maintenance
      1. Gross Costs                                     $      43,289,289   $       3,264,430   $        6,671,632
      2. (Less: Earned Revenue)                                 -4,243,713            -365,940             -839,532
      3. Net Program Costs                               $      39,045,576   $       2,898,490   $        5,832,100
   C. Procurement
      1. Gross Costs                                     $      34,227,618   $               0   $                  0
      2. (Less: Earned Revenue)                                   -307,269                   0                      0
      3. Net Program Costs                               $      33,920,349   $               0   $                  0
   D. Research, Development, Test & Evaluation
      1. Gross Costs                                     $      23,881,915   $               0   $                  0
      2. (Less: Earned Revenue)                                 -3,062,745                   0                      0
      3. Net Program Costs                               $      20,819,170   $               0   $                  0
   E. Military Construction/Family Housing
      1. Gross Costs                                     $       2,714,499   $        107,946    $          214,321
      2. (Less: Earned Revenue)                                       -467                  0                     0
      3. Net Program Costs                               $       2,714,032   $        107,946    $          214,321
   F. Other
      1. Gross Costs                                     $         409,131   $               0   $                  0
      2. (Less: Earned Revenue)                                    -12,737                   0                      0
      3. Net Program Costs                               $         396,394   $               0   $                  0
   G. Total Program Costs
      1. Gross Costs                                     $     131,773,716   $       4,859,865   $        9,771,789
      2. (Less: Earned Revenue)                                 -7,940,573            -371,920             -872,562
      3. Net Program Costs                               $     123,833,143   $       4,487,945   $        8,899,227
2. Cost Not Assigned to Programs                                         0                   0                    0
3. (Less: Earned Revenue Not Attributable to Programs)                   0                   0                    0
4. Net Cost of Operations                                $     123,833,143   $       4,487,945   $        8,899,227




The accompanying notes are an integral part of these financial statements.


70
                                                                    2006 Annual Financial Statement


    Component           Combined                                      2006                  2005
      Level               Total             Eliminations           Consolidated          Consolidated



                    $      31,624,589   $                  0   $       31,624,589    $       30,439,626
                             -352,652                      0             -352,652              -412,333
                    $      31,271,937   $                  0   $       31,271,937    $       30,027,293

                    $      53,225,351   $                  0   $       53,225,351    $       51,130,908
                           -5,449,185                      0           -5,449,185            -4,979,392
                    $      47,776,166   $                  0   $       47,776,166    $       46,151,516

                    $      34,227,618   $                  0   $       34,227,618    $       30,102,668
                             -307,269                      0             -307,269              -409,050
                    $      33,920,349   $                  0   $       33,920,349    $       29,693,618

                    $      23,881,915   $                  0   $       23,881,915    $       23,481,095
                           -3,062,745                      0           -3,062,745            -3,335,195
                    $      20,819,170   $                  0   $       20,819,170    $       20,145,900

                    $       3,036,766   $                  0   $        3,036,766    $          196,667
                                 -467                      0                 -467                 1,168
                    $       3,036,299   $                  0   $        3,036,299    $          197,835

$      -4,026,373   $      -3,617,242   $                  0   $        -3,617,242   $        -5,968,990
        3,864,208           3,851,471                      0             3,851,471             4,047,225
$        -162,165   $         234,229   $                  0   $           234,229   $        -1,921,765

$      -4,026,373   $     142,378,997   $                  0   $      142,378,997    $      129,381,974
        3,864,208          -5,320,847                      0           -5,320,847            -5,087,577
$        -162,165   $     137,058,150   $                  0   $      137,058,150    $      124,294,397
                0                   0                      0                    0                     0
                0                   0                      0                    0                     0
$        -162,165   $     137,058,150   $                  0   $      137,058,150    $      124,294,397




                                                                                                           71
       United States Air Force
Combining Statement of Budgetary Resources—General Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                  Air Force           Air Force
                                                                   Active             Reserve
 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES:
 1. Unobligated balance, brought forward, October 1          $      12,315,048    $       223,806
 2. Recoveries of prior year unpaid obligations                      1,278,697            103,489
 3. Budget authority
    3a. Appropriation                                             127,698,816            4,187,758
    3b. Borrowing authority                                                 0                    0
    3c. Contract authority                                                  0                    0
 4. Spending authority from offsetting collections
    4a. Earned
        1. Collected                                                 8,064,516            307,942
        2. Change in receivables from Federal sources                 -153,113             64,003
    4b. Change in unfilled customer orders
        1. Advance received                                           -94,677                    0
        2. Without advance from Federal sources                      -101,970                  125
    4c. Anticipated for rest of year, without advances                      0                    0
    4d. Previously unavailable                                              0                    0
    4e. Expenditure transfers from trust funds                              0                    0
    4f. Subtotal                                                  135,413,572            4,559,828
 5. Nonexpenditure transfers, net, anticipated and actual           2,302,571              -37,205
 6. Temporarily not available pursuant to Public Law                        0                    0
 7. Permanently not available                                      -2,800,010              -89,081
 8. Total Budgetary Resources                                $    148,509,878     $      4,760,837
 STATUS OF BUDGETARY RESOURCES:
 9. Obligations incurred:
     9a. Direct                                              $    124,191,781     $      4,161,954
     9b. Reimbursable                                               7,874,286              408,314
     9c. Subtotal                                                 132,066,067            4,570,268
 10. Unobligated balance:
     10a. Apportioned                                              14,791,609               48,988
     10b. Exempt from apportionment                                     3,174                    0
     10c. Subtotal                                                 14,794,783               48,988
 11. Unobligated balance not available                              1,649,028              141,581
 12. Total Status of Budgetary Resources                     $    148,509,878     $      4,760,837
CHANGE IN OBLIGATED BALANCE:
13. Obligated balance, Net
    13a. Unpaid obligations, brought forward, October 1             49,444,390            879,413
    13b. Less: Uncollected customer payments                  $     -2,592,595    $       -52,108
         from Federal sources, brought forward, October 1
    13c. Total unpaid obligated balance                             46,851,795             827,305
    13d. Obligations incurred net (+/-)                       $    132,066,066    $      4,570,268
14. Less: Gross outlays                                           -128,856,921          -4,461,592
15. Obligated balance transferred, net
    15a. Actual transfers, unpaid obligations (+/-)                           0                   0
    15b. Actual transfers, uncollected customer                               0                   0
         payments from Federal sources (+/-)
16. Total Unpaid obligated balance transferred, net                          0                   0
17. Less: Recoveries of prior year unpaid obligations, actual       -1,278,697            -103,489
    Change in uncollected customer                                     255,083             -64,127
    payments from Federal sources (+/-)
18. Obligated balance, net, end of period
    18a. Unpaid obligations                                         51,374,838            884,600
    18b. Less: Uncollected customer payments
         from Federal sources                                       -2,337,512            -116,235
    18c. Total, unpaid obligated balance, net, end of period        49,037,326             768,365

NET OUTLAYS:
19. Net Outlays:
    19a. Gross outlays                                            128,856,921            4,461,592
    19b. Less: Offsetting collections                              -7,969,838             -307,942
    19c. Less: Distributed Offsetting receipts                       -185,423                    0
20. Net Outlays                                              $    120,701,660     $      4,153,650

The accompanying notes are an integral part of these financial statements.


72
                                                                         2006 Annual Financial Statement


    Air National           Component             2006               2005
       Guard                 Level             Combined           Combined


$          467,354     $               0   $     13,006,208   $      9,043,364
            68,720                     0          1,450,906          1,300,191

         7,881,036                     0        139,767,610        128,890,968
                 0                     0                  0                  0
                 0                     0                  0                  0


           882,732                     0          9,255,190          8,923,532
           -10,169                     0            -99,279            142,948

                 0                     0            -94,677            349,671
              -648                     0           -102,493            388,543
                 0                     0                  0                  0
                 0                     0                  0                  0
                 0                     0                  0                  0
         8,752,951                     0        148,726,351        138,695,662
           311,324                     0          2,576,690          2,598,439
                 0                     0                  0                  0
          -157,142                     0         -3,046,233         -1,493,468
$        9,443,207     $               0   $    162,713,922   $    150,144,188



$        8,085,811     $               0   $    136,439,546   $    124,689,424
           878,849                     0          9,161,449         12,448,555
         8,964,660                     0        145,600,995        137,137,979

           158,019                     0         14,998,616         11,756,881
                 0                     0              3,174              3,218
           158,019                     0         15,001,790         11,760,099
           320,528                     0          2,111,137          1,246,110
$        9,443,207     $               0   $    162,713,922   $    150,144,188



         1,516,978                     0         51,840,781         53,808,139
$         -190,794     $               0   $     -2,835,497   $     -2,304,006

         1,326,184                     0         49,005,284         51,504,133
$        8,964,661     $               0   $    145,600,995   $    137,137,979
        -8,683,256                     0       -142,001,769       -137,805,147

                   0                   0                  0                  0
                   0                   0                  0                  0

                 0                     0                  0                  0
           -68,720                     0         -1,450,906         -1,300,191
            10,817                     0            201,773           -531,490


         1,729,663                     0         53,989,101         51,840,781

          -179,976                     0         -2,633,723         -2,835,497
         1,549,687                     0         51,355,378         49,005,284



         8,683,256                     0        142,001,769        137,805,147
          -882,732                     0         -9,160,512         -9,273,203
                 0                     0           -185,423           -123,202
$        7,800,524     $               0   $    132,655,834   $    128,408,742




                                                                                                      73
       United States Air Force
Consolidating Statement of Financing—General Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                                                 Air Force          Air Force             Air National
                                                                                                  Active            Reserve                  Guard
Resources Used to Finance Activities:
Budgetary Resources Obligated
1. Obligations incurred                                                                      $    132,066,067   $      4,570,268      $       8,964,661
2. Less: Spending authority from offsetting collections and recoveries (-)                         -8,993,450           -475,559               -940,635
3. Obligations net of offsetting collections and recoveries                                       123,072,617          4,094,709              8,024,026
4. Less: Offsetting receipts (-)                                                                     -185,423                  0                      0
5. Net obligations                                                                                122,887,194          4,094,709              8,024,026
Other Resources
6. Donations and forfeitures of property                                                                    0                  0                      0
7. Transfers in/out without reimbursement (+/-)                                                     3,833,935             49,264               -146,929
8. Imputed financing from costs absorbed by others                                                    698,814                  0                      0
9. Other (+/-)                                                                                              0                  0                      0
10. Net other resources used to finance activities                                                  4,532,749             49,264               -146,929
11. Total resources used to finance activities                                               $    127,419,943   $      4,143,973      $       7,877,097

Resources Used to Finance Items not Part
of the Net Cost of Operations
12. Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
    12a. Undelivered Orders (-)                                                                    -2,011,669             -6,994                -206,081
    12b. Unfilled Customer Orders                                                                    -196,647                125                    -648
13. Resources that fund expenses recognized in prior periods                                         -884,679             -4,340                  -9,925
14. Budgetary offsetting collections and receipts that do not affect                                  185,423                  0                       0
15. Resources that finance the acquisition of assets                                              -17,216,050            -15,022                -180,100
16. Other resources or adjustments to net obligated resources that do not affect
    net cost of operations
    16a. Less: Trust or Special Fund Receipts Related to exchange in the Entity's Budget                    0                  0                      0
    16b. Other (+/-)                                                                               -3,833,935            -49,264                146,929
17. Total resources used to finance items not part of the net cost of operations             $    -23,957,557   $        -75,495      $        -249,825
18. Total resources used to finance the net cost of operations                               $    103,462,386   $      4,068,478      $       7,627,272

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
19. Increase in annual leave liability                                                                491,847                     0                      0
20. Increase in environmental and disposal liability                                                        0                     0                      0
21. Upward/Downward reestimates of credit subsidy expense (+/-)                                             0                     0                      0
22. Increase in exchange revenue receivable from the public (-)                                             0                     0                      0
23. Other (+/-)                                                                                       610,250                   236                      0
24. Total components of Net Cost of Operations that
    will require or generate resources in future periods                                            1,102,097                   236                      0

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                                  15,792,824             46,327                252,229
26. Revaluation of assets or liabilities (+/-)                                                        431,256             24,483                113,600
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                                        0                  0                      0
    27b. Cost of Goods Sold                                                                                 0                  0                      0
    27c. Operating Material & Supplies Used                                                        13,184,372             10,511                 77,420
    27d. Other                                                                                    -10,139,794            337,911                828,707
28. Total components of Net Cost of Operations that will not require or generate resources         19,268,658            419,232              1,271,956
29. Total components of net cost of operations that will not
    require or generate resources in the current period                                      $     20,370,755   $        419,468      $       1,271,956
30. Net Cost of Operations                                                                   $    123,833,141   $      4,487,946      $       8,899,228




The accompanying notes are an integral part of these financial statements.


74
                                                                                   2006 Annual Financial Statement


    Component           Combined                                     2006                 2005
      Level               Total            Eliminations           Consolidated         Consolidated



$               0   $    145,600,996   $                  0   $     145,600,996    $     137,137,979
                0        -10,409,644                      0         -10,409,644          -11,104,884
                0        135,191,352                      0         135,191,352          126,033,095
                0           -185,423                      0            -185,423             -123,202
                0        135,005,929                      0         135,005,929          125,909,894

                0                  0                      0                   0                    0
       -3,690,030             46,240                      0              46,240              -25,648
                0            698,814                      0             698,814              742,039
        3,690,030          3,690,030                      0           3,690,030                    0
                0          4,435,084                      0           4,435,084              716,391
$               0   $    139,441,013   $                  0   $     139,441,013    $     126,626,284




        -162,165          -2,386,909                      0           -2,386,909          -11,681,780
               0            -197,170                      0             -197,170              738,214
               0            -898,944                      0             -898,944             -606,526
               0             185,423                      0              185,423              123,202
               0         -17,411,172                      0          -17,411,172          -18,029,608



               0                   0                      0                   0                     0
               0          -3,736,270                      0          -3,736,270                25,648
$       -162,165    $    -24,445,042   $                  0   $     -24,445,042    $      -29,430,850
$       -162,165    $    114,995,971   $                  0   $     114,995,971    $       97,195,434




                0           491,847                       0             491,847               81,024
                0                 0                       0                   0                    0
                0                 0                       0                   0                    0
                0                 0                       0                   0                    0
                0           610,486                       0             610,486               13,659

                0          1,102,333                      0            1,102,333              94,683



                0         16,091,380                      0           16,091,380           11,743,098
                0            569,339                      0              569,339              787,835

                0                  0                      0                    0                    0
                0                  0                      0                    0                    0
                0         13,272,303                      0           13,272,303            2,037,758
                0         -8,973,176                      0           -8,973,176           12,435,587
                0         20,959,846                      0           20,959,846           27,004,278

$              0    $     22,062,179   $                  0   $      22,062,179    $      27,098,961
$       -162,165    $    137,058,150   $                  0   $     137,058,150    $     124,294,395




                                                                                                                75
     United States Air Force




                               This page intentionally left blank.




76
               2006 Annual Financial Statement




General Fund
Required Supplementary
Stewardship Information




                                            77
     United States Air Force




                               This page intentionally left blank.




78
                                                                           2006 Annual Financial Statement


                                          NON-FEDERAL PHYSICAL PROPERTY
                                        Yearly Investment in State and Local Governments
                                                For Fiscal Years 2002 through 2006
                                                            ($ in Millions)

 Categories                                                    FY 2002       FY 2003       FY 2004     FY 2005     FY 2006
 Funded Assets:
  National Defense Mission Related                              $21.30        $11.31        $18.30      $8.30       $8.50
  Total                                                         $21.30        $11.31        $18.30      $8.30       $8.50




Narrative Statement
The Air National Guard investments in nonfederal physical property are strictly through the Military Construction
Cooperative Agreements (MCCAs). These agreements involve the transfer of money only and allow joint partici-
pation with States, Counties, and Airport Authorities for construction or repair of airfield pavements and facilities
required to support the flying mission assigned at these civilian airfields.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures).
Outlays are used because current DoD systems are unable to capture and summarize costs in accordance with
the Federal Accounting Standards requirements.

                                     INVESTMENTS IN RESEARCH AND DEVELOPMENT
                                        Yearly Investment in Research and Development
                                              For Fiscal Years 2002 through 2006
                                                          ($ in Millions)

 Categories                                                     FY 2002       FY 2003      FY 2004     FY 2005     FY 2006
 1. Basic Research                                                   $205          $220         $209        $287        $334
 2. Applied Research                                                  658           735          805         805         939
 3. Development
    Advanced Technology Development                                    559           545         681         966         901
    Advanced Component Development And Prototypes                    4,640         4,385       1,426       1,897       1,985
    System Development and Demonstration                             3,509         4,341       4,390       4,179       4,172
    Research, Development, Test and Evaluation
    Management Support                                                 824           880         890         824       1,271
    Operational Systems Development                                  7,103         7,571      10,361      10,083       9,622

 4. Totals                                                         $17,498      $18,677      $18,762     $19,041     $19,224



Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phe-
nomena and of observable facts without specific applications, processes, or products in mind. Basic Research
involves the gathering of a fuller knowledge or understanding of the subject under study. Major outputs are
scientific studies and research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the
means by which a recognized and specific need may be met. It is the practical application of such knowledge or
understanding for the purpose of meeting a recognized need. This research points toward specific military needs
with a view toward developing and evaluating the feasibility and practicability of proposed solutions and determin-
ing their parameters. Major outputs are scientific studies, investigations, and research papers, hardware compo-
nents, software codes, and limited construction of, or part of, a weapon system to include nonsystem specific
development efforts.



                                                                                                                             79
      United States Air Force


Development takes what has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development is comprised of five
stages defined below:
1. Advanced Technology Development is the systematic use of the knowledge or understanding gained from
   research directed toward proof of technological feasibility and assessment of operational and producibility
   rather than the development of hardware for service use. Employs demonstration activities intended to prove
   or test a technology or method.

2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an operat-
   ing environment as possible to assess the performance or cost reduction potential of advanced technology.
   Programs in this phase are generally system specific. Major outputs of Advanced Component Development
   and Prototypes are hardware and software components, or complete weapon systems, ready for operational
   and developmental testing and field use.

3. System Development and Demonstration concludes the program or project and prepares it for production. It
   consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapon sys-
   tems finalized for complete operational and developmental testing.

4. RDT&E Management Support is support for installations and operations for general research and development
   use. This category includes costs associated with test ranges, military construction maintenance support for
   laboratories, operations and maintenance of test aircraft and ships, and studies and analysis in support of the
   R&D program.

5. Operational Systems Development is concerned with development projects in support of programs or
   upgrades still in engineering and manufacturing development, which have received approval for production, for
   which production funds have been budgeted in subsequent fiscal years.

The following are representative program examples for each of the above major stages:

Basic Research - A team of Air Force-supported basic researchers has discovered a new diagnostic technique
called Radar Resonant Enhanced Multi-Photo Ionization (Radar REMPI) for measuring plasmas and hypersonic
flows. The technique is based on scattering microwave radiation from a small laser-induced ionization region in a
flowing gas, combusting zone or plasma, and is capable of measuring at any point of the hypersonic flow without
causing any intrusion on the flow that could negatively impact the accuracy of the measurements. The research
conducted by the team is both computational and experimental and involves working at hypersonic speeds.
Better understanding of hypersonic flows is critical for designing more efficient high-speed vehicles.

The Air Force supported basic researchers have successfully proved experimentally the existence of a class of
materials (metamaterials) that possess a negative refractive index that was predicted theoretically in 1968. All
known materials have positive refractive index: however according to the experimental results, it is possible to
make an artificial metamaterial that has a negative refractive index, without violating the laws of Physics. The
experiment was conducted in a microwave wavelength region, but notionally, an electromagnetic wave (such as a
beam of light) will be bent in the opposite way in a metamaterial, for an example. This scientific discovery could
potentially lead to a higher-resolution imaging and smaller and lighter electromagnetic devises for military sensing
and communication.




80
                                                                    2006 Annual Financial Statement


Applied Research - An Air Force Research Laboratory (AFRL) bio-sensor, consisting of aptamers combined with
metallic nanoparticles and fluorescing quantum dots, was demonstrated for detection and identification of biologi-
cal threat agents.

Researchers at the AFRL demonstrated a Logistics Fuel Processor (LFP). The processor would permit the user of
a reliable and easily operated fuel cell power system as an alternative to current Mobile Electric Power (MEP)
units for ground based power applications.

Air Force is investing in concept studies and technologies to suppress enemy activity in high threat areas with air-
delivered, network centric, persistent munitions capable of defeating the entire spectrum of ground mobile targets.

Developed the first-ever broadband, laser-based proactive infrared countermeasure (PIRCM) system; integrating
complex self-protection functions into a single set of electro-optical (EO) sensors. This PIRCM system can
detect, identify, locate, target and counter threats from EO/infrared sensors and missile seekers prior to missile
launch or sensor activation.

The Air Force is developing information technologies to support the Air, Space, and Cyberspace forces of the
future. Development of the Commander's Predictive Environment is underway, whose goal is to explore and
develop capabilities that will enable commanders to anticipate and shape the battlespace. This environment is
designed to anticipate the strengths, capabilities and vulnerabilities of the adversary and neutrals, as well as, the
Blue Forces. Utilizing these attributes, possible courses of action (COAs) are developed with the goal of deter-
mining plausible "future states" to which a Commander can then select to shape and control the battlespace.

Developed Accelerated Insertion of Materials techniques to investigate the plastic deformation of metallic crystals
at a nanometer scale. This work is building towards the capability to accelerate production of new designer met-
als, which contain unique material properties (high strength, higher temperature, increased durability, etc.) for
critical Air Force needs.

Advanced Technology Development - Demonstrated a suspended two telescope relay mirror system by redi-
recting a beam from a ground-based laser illuminating the first telescope to a distant target by aiming the first tele-
scope at the ground based laser and the second at the target. This technology can significantly increase the range of
high energy lasers by reducing the path through the atmosphere, and also allows non-line-of-sight targeting.

Completed development of first ever immersive and distributed environment for joint terminal attack and control
training and rehearsal. The distributed environment is a benchmark for meeting Joint Operational Requirements
Document (JORD) requirements for mission area training across Services.

The Air Force Research Laboratory in cooperation with industry have successfully developed and demonstrated a
durable composite C-17 main landing gear (MLG) door. As a result of the Composites Affordability Initiative
(CAI) C-17 technology transition demonstration program, the MLG door features stitched preforms, vacuum
assisted resin transfer molding and an improved design.

The Air Force Research Laboratory is developing and testing low collateral damage munitions for engaging and
prosecuting targets in urban environments. Technologies developed in this activity will benefit Focused Lethality
Multiphase Blast Explosive MBX (JCTD).

The Air Force successfully completed demonstration of a lightweight, low profile, low-cost, X-band Active
Electronically Steered Array (AESA). The AESA integrates Synthetic Aperture Radar (SAR) and Ground Moving




                                                                                                                     81
      United States Air Force


Target Indicator (GMT) functions while providing night/all-weather situational awareness and highly accurate tar-
geting data to decrease the timeline in acquiring time critical targets.

The Air Force Research Laboratory demonstrated a new concept, called the Master Caution Panel (MCP). This
program continuously monitors status of critical Air and Space Operations Center (AOC) information systems,
correlates system failures against the battle rhythm of the AOC and user needs, and provides the "right info" to
the "right person" at the "right time" enabling rapid understanding of any impact to the AOC mission. These tests
were highly successful and MCP has been integrated into the AOCs Theater Battle Management Core Systems.

One revolutionary area of research ongoing in the Air Force Research Laboratory focuses on the X-51A, a hyper-
sonic test platform that strives to demonstrate the HyTech hydrocarbon-fueled scramjet in flight using waverider
airframe technologies from the Defense Advanced Research Projects Agency Affordable Rapid Response Missile
Demonstrator (ARRMD) program. The program will use an existing ATACMS booster to accelerate the air vehi-
cle from B-52 launch (40,000 ft. at Mach 0.8) to Mach 4.5 to Mach 5 at which time the flight vehicle will separate
from the booster and the scramjet engine will then start and accelerate the vehicle to between Mach 6.5 and
Mach 7. This game-changing technology looks to propel the Air Force to all new heights, potentially providing
new methods for space access and improving our rapid response capabilities. Test flights are scheduled to begin
in FY 2009.

As part of efforts to reduce the U.S. military's reliance on foreign energy sources, the Air Force conducted its
first-ever flight test of an alternative jet fuel on September 19, 2006, at Edwards AFB, California. During the mis-
sion, two of the eight engines of a B-52H Stratofortress bomber aircraft successfully ran on a fuel comprised of a
50-50 blend of conventional oil-based jet fuel and a Fischer-Tropsch fuel derived from natural gas. The aircraft's
six remaining engines burned traditional JP-8 jet fuel during the flight. This Fischer-Tropsch experiment is part of
the Pentagon's Assured Fuel Initiative that seeks to convert coal, of which the United States has in abundant
reserves, into liquid fuel (Defense Daily, June 8, 2006). The fuel derived from refining natural gas under the
Fischer-Tropsch process, which is named after its German inventors of the 1920s.

The Air Force developed improved turbine engine life-management tools that integrate state-of-the-art material
analysis, enhanced non-destructive evaluation, and data management as a comprehensive life management system.
Component cost avoidance is estimated to exceed $300 million for the F100/F110 engine series alone (extends
life for 8000 to 12000 TACs).

The Air Force's Advanced Technology Development program demonstrates, in a realistic operational environ-
ment, integrated sets of technology to prove military worth and utility. AFRL demonstrated a 330 Gigahertz
detector that operates at frequencies billions of times faster than the blink of an eye. This technology will be
used to produce compact solid-state circuits operating at Terahertz frequencies. Likely technology application
would be to enable a new generation of sensors to enhance homeland security. The Air Force also completed
the final transition of the very successful Laser Infrared Countermeasures Fly-out Experiment demonstration with
a final risk reduction live fire missile test at Tonopah National Test Range, Nevada. This test showed conclusively
that Closed Loop Infrared Countermeasures jamming techniques provide a robust capability against a wide variety
of infrared missiles, including proliferated Man Portable Air Defense Systems.

The Air Force also developed a custom-molded, noise-attenuating earplug that enables seamless voice communica-
tions to and from radios, while electronically passing all outside environmental sounds to the operator at safe levels.

The Joint Unmanned Combat air Systems (J-UCAS) program was terminated in December 2005. The two J-
UCAS X-45A aircraft flew a total of 64 flights and performed limited demonstrations of precision weapon drops,


82
                                                                   2006 Annual Financial Statement


multi-ship coordinated flight, and collaborative targeting technologies, illustrating the potential for future
unmanned combat air systems development programs. The Air force continued to advocate the AFRL
Automated Air Refueling (AAR) program. On August 16, 2006 the AFRL AAR program achieved a historic mile-
stone by demonstrating the ability of a Learjet (surrogate unmanned air system) to automatically maintain preci-
sion position keeping behind a KC-135 through all of the aerial refueling positions including the contact position.

The SPIRITT Advanced Technology Demonstration (ATD) will develop a day, high altitude, hyperspectral imaging
reconnaissance sensor testbed to address U-2/Global Hawk limitations in detecting and identifying camouflaged,
concealed, and other difficult targets. The SPIRITT ATD developed an HIS sensor integrated with a high resolu-
tion daytime imaging sensor and successfully flight tested the system on a NASA WB-57 aircraft against simulated
targets in CONUS as well as in an engineering demonstration capacity on a high-visibility OCONUS deployment.
The sensor system supported a real-time on-board processing capability for rapid precision targeting. It also sup-
ported full data recording for longer term Measurement and Signature Intelligence (MASINT) exploitation for
intelligence community target of interest.

The Air Force continues development of technologies to protect US Space assets from the continued worldwide
development, deployment, and employment of foreign space and counterspace systems.

Demonstration and Validation (Advanced Component Development and Prototypes) - The Air Force's
Advanced Component Development and Prototypes (ACD&EP) programs are comprised of system specific
advanced technology integration efforts accomplished in an operational environment to help expedite transition
from the effort: In FY 2004 the Air Force successfully demonstrated Fighter Aircraft Command and Control
Enhancement (FACE). FACE provides an improved, beyond-line-of-sight (BLOS) command and control link with
fighter aircraft by integrating Iridium telephone communications equipment with existing aircraft communications
equipment. BLOS capability has traditionally been provided by low-density, high-demand airborne platforms act-
ing as communications relays. FACE provides relief for these overworked assets, while allowing combatant com-
manders to maintain positive control of the battle space. FACE, which has been approved for deployment to
Afghanistan through the Air Force's Rapid Response Process, has the potential for extensive use in virtually any
Area of Responsibility, including Homeland Defense.

In FY 2005, two small responsive launch vehicles were matured to Critical Design Review (CDR) and beyond
capability, with the Space-X launch Vehicle conducting a series of demonstration flights to mature components
hardware and system integrity. An initial launch was conducted, unsuccessfully, in March 2006. A Return-to-
Flight demonstration is planned for November 2006. The launch of Tactical Satellite-1 (TACSAT-1) is also sched-
uled to occur on a Space-X Falcon-1 vehicle in April 2007. The hypersonic test vehicle effort continues to mature
constituent hypersonic technologies in the areas of aerodynamic, thermal protection, communications, and guid-
ance, navigation and accuracy, moving towards two flight demonstrations, which are scheduled in FY 2009. The
goal of this technology demonstration program is to demonstrate and validate key technologies leading to residual
capability and follow-on operational systems.

 In FY 2005, the Air Force restructured and refocused the Space Radar (SR) program (formerly Space Base Radar)
to address congressional concerns with technical risk, affordability, and DoD-Intelligence Community (IC) integra-
tion. In January 2005, the Secretary of Defense (SECDEF) and the Director of Central intelligence (DCI) signed a
joint memo designating the SR program as the single space radar capability for the nation. The Undersecretary of
the Air Force appointed a two-star general as SR System Program Director (SPD) and Program Executive Officer
(PEO), and moved the SR Integrated Program Office (IPO) from Los Angeles, CA to Chantilly, VA in order to fos-
ter greater synergy with the IC. The SR program implemented a demonstration framework approach to system


                                                                                                                  83
      United States Air Force


development. This approach will further technology maturity risk reduction and CONOPS experimentation
through a mix of space, air, and land-based demonstration activities that will maximize existing assets. The SR
program will provide day/night, all-weather global surface moving target indications (MTI), synthetic aperture
radar (SAR) and high-resolution terrain information (HRTI) capabilities from a space-based platform. Initial launch
capability is planned for FY 2015.

System Development and Demonstration - The Air Force's System Development & Demonstration (SDD)
efforts are development projects which have not received approval for full-production. In FY 2006, the F-22
Raptor program closed out Engineering and Manufacturing Development (EMD) and is now in Full Rate
Production. The Air Combat Command at Langley AFB, Virginia, achieved Initial Operational Capability (IOC) in
December 2005. In closing out EMD in June 2006, the F-22 program completed the full-scale airframe structural
fatigue testing and analysis, completed support and test of the flight test engines, and completed integration of the
Operational Flight Program (OFP) software in the Avionics Integration lab for future software development and
support efforts. The successful conclusion of EMD laid the foundation for future F-22 Raptor enhancements
under the current incremental modernization strategy.

The F-35 Joint Strike Fighter (JSF) program is developing a family of strike fighter aircraft for the Air Force, Navy,
Marine Corps and our allies, with maximum commonality among the variants to minimize life cycle costs. The Air
Force Conventional Takeoff and Landing (CTOL) variant will be a multi-role, primary air-to-ground aircraft to
replace the F-16 and A-10 and complement the F-22. While the F-22 will establish air dominance, the F-35---with
its combination of stealth, large internal payloads and multi-spectral avionics---will provide persistent stealth and
precision engagement to the future battlespace. The F-35 is in the 5th year of a 12-year System Development
and Demonstration (SDD) effort. Significant program accomplishments in FY 2006 include:
• Assembly, power on, and first engine run of the first CTOL aircraft

• Completed Critical Design Reviews (CDRs) for CTOL and Short Takeoff and Vertical landing (STOVL variants

• Awarded long lead contracts for Low Rate initial Production (LRIP) Lot 1 (f CTOL aircraft) in April 2006 to
  Lockheed Martin ($94M) and Pratt & Whitney ($23M)

• Began component assembly of 5 STOVLs and 2 additional CTOLs

The Multi-Platform - Radar Technology Insertion Program is being developed for the Global Hawk and E-10 pro-
grams as an interoperable platform-independent Ground Moving Target Indicator (GMTI), Synthetic Aperture
Radar (SAR) imaging, and Air Moving Target Indicator (AMTI) system-of-systems capable of providing dynamic
support to operations. MP-RTIP development is on cost and on schedule, while continuing to build upon previ-
ous years' achievements by completing a Design Readiness Review in preparation for System Demonstration. As
of September 2006, MP-RTIP has completed developmental fabrication of three Global Hawk radar developmen-
tal units and completed three of sixteen aperture components, with six other in various stages of build, on the
first E-10 developmental units. The Global Hawk MP-RTIP variant achieved successful first flight in September
2006 beginning developmental testing onboard a Proteus test vehicle and remains on track to begin Global Hawk
testing in 2008 with production deliveries projected for 2010. Additionally, the E-10 MP-RTIP promises will
enhance the mission areas of air and surface surveillance and tracking with faster revisit rates, increased resolu-
tion, simultaneous tracking and SAR imaging, as well as, cruise missile defense capability on the E-10A variant.
The program's continued schedule delivery for the Global Hawk program ensures next generation radar technol-
ogy on time to the Warfighter.




84
                                                                  2006 Annual Financial Statement


The Theater Battle Management Core System (TBMCS) develops force-level and wing-level command, control,
and intelligence systems to support the operational functions of the joint Forces Air Component Commander.
TBMCS has been designated the Joint System of Record for Air Tasking Order/Airspace Control Order genera-
tion within the Department of Defense. The system has shown its flexibility by successful employments in sup-
port of the Global War on Terror (OIF, OEF, ONE) as well as in support of humanitarian relief efforts (Tsunami
Relief, and hurricanes Katrina and Rita Relief). TBMCS generated over 65,000 sorties for OIF/OEF in FY 2006
alone and over 409,000 sorties total since the start of these operations. TBMCS Spiral 1.1.3 successfully passed
test and was released to the field, providing numerous system improvements such as greater and faster access to
air battle management information.

In FY 2006, in an effort to reduce overall program risk, the Department of Defense restructured the TSAT pro-
gram to block delivery approach. This strategy reduces the risk in the product development phase by imple-
menting a more incremental fielding approach that reduces the complexity/capacity of the two driving technolo-
gies (i.e., lasercom and next-generation processor router) on the first two satellites (Block A). Capacities for the
remaining three satellites (Block B) are higher, resulting in a constellation that meets all Key Performance
Parameter requirements. Additionally, the program is funded at a higher cost confidence level (CL) vice prior
50/50% cost CL. The TSAT program is conducting rigorous risk reduction and system definition activities during
the competitive development phase. The program completed two key risk reduction milestones during late 2005
and early 2006. These successful laser communication and advanced processor demonstrations involved multiple
agencies and contractor teams. The first milestone involved competing teams, one led by Lockheed
Martin/Northrop Grumman and the other Boeing/Ball Aerospace. The teams completed the second of three
planned laser Communication (or 'lasercom') tests using an independent Government testbed, referred to as the
Optical Standards Validation Suite (OSVS), located at MIT Lincoln Laboratory (MIT/LL). At the same time, com-
peting teams, one led by Lockheed martin/Northrop Grumman and the other by Boeing/Harris, completed the
first of three planned interoperability demonstrations between their TSAT next generation satellite
processor/router (NGPR) equipment and MIT/LL's TSAT reference ground terminal. The TSAT program is mak-
ing excellent progress and is on track to demonstrate key technology maturity and integration milestones. In
January 2006, the single TSAT Mission Operations System (ITMOS) contract was awarded. Awarding the TMOS
contract decreases TSAT program risk by providing an integrating construct for network architecture and design
and allows the contractor to begin work on formal network interface definitions and specifications. The ultimate
goal is a FY 2014 first launch of TSAT.

The Air Force has developed and deployed to CENTCOM a prototype designed to detect and report interfer-
ence on satellite communications channels. The prototype was successfully demonstrated during Joint
Expeditionary Force Experiment 2004 (JEFX 04). Operational lessons learned from this prototype are being
incorporated into a formal acquisition program called Rapid Attack Identification Detection Reporting System
(RAIDRS). This is a defensive counterspace program. The first spiral of RAIDRS will provide: Detection,
Characterization, Geolocation, and Reporting of SATCOM Electromagnetic Interference (EMI) for designated
channels in the C, X, and Ku frequency bands.

Research, Development, Test and Evaluation Management Support - The Air Force's Research,
Development, Test and Evaluation (RDT&E) Management Support efforts include projects directed toward sup-
port of installation or operations required for general research and development use. Included would be test
ranges, military construction, maintenance support of laboratories, operation and maintenance of test aircraft and
ships, and studies and analyses in support of the research and development program. Example of Air Force
RDT&E management support is: The Major Test and Evaluation Investment program, which funds the planning,



                                                                                                                 85
      United States Air Force


improvements and modernization for three national asset test centers having over $10 billion of unique test facili-
ties/capabilities operated and maintained by the Air Force for the Department of Defense (DoD) test and evalua-
tion missions, and available to others having a requirement for their unique capabilities. The test capabilities and
facilities are operated and maintained by the Air Force for the DoD test and evaluation missions, and are available
to others having a requirement for their unique capabilities. Many efforts are contained within the AF I&M pro-
gram, but two examples are the Scene Characterization & Reconstruction for Advanced Munitions (SCRAM), at
the AAC Eglin AFB, replaces and/or upgrades multi-spectral measurement system sensors and provides higher
spatial and spectral resolution in the UV, visual, IR, MMW, and RF bands. SCRAM also enables high-speed data
acquisition and recording needed to support these advanced capability sensor. SCRAM enhances the distributed
test connectivity between ground-test and open-air-ranges and assist in the development of realistic and dynamic
weapons systems simulation. In addition, the Modeling & Simulation Test & Evaluation Resources (MASTER) pro-
gram, at AFFTC Edwards AFB and AEDC Arnold AFB, provides a collaborative capability with respect to data-
base information storage and retrieval. These capabilities provide engineering data connectivity with respect to
modeling & simulation, ground-test and flight-test environment conditions.

Operational Systems Development - The Air Force's operational system efforts include projects in support of
development acquisition programs or upgrades in System Demonstration and Development (SDD). The F-22
Raptor program is in full rate production on the world's only 5th generation production line and it will maintain its
role as the key enabler of joint air dominance through an incremental modernization program funded through
Operational Systems Development activities. The development program will enhance the air vehicle, engine, and
training systems to improve F-22A weapons, communications, and Intelligence Surveillance Reconnaissance (ISR)
capabilities to further enhance Global Strike capabilities. Increment 2 represents the first upgrade over IOC capa-
bilities and FY 2006 activities included start of Increment 2 flight test of avionics improvements in displays and
chaff processing, expanded datalink testing between multiple flights of aircraft, and planning activities for flight test
of JDAM in an expanded envelope. Increment 3 activities included completion of a Preliminary Design Review
(RPDR) for Increment 3.1 which will focus on dramatically improving the F-22A Raptor's Air-To-Ground attack
capabilities with 4th generation synthetic aperture radar and a new weapon (the Small Diameter Bomb). Finally, a
system Design Review (SDR) for the Enhanced Stores management System (ESMS) was completed in FY 2006
which lays the foundation for integration of advanced weapons in future Increments.

The advanced Medium Range Air-to-Air Missile (AMRAAM) Phase 3 (AIM-120C-7 effort completed System
Demonstrations and Development (SDD) in May 2004 and has begun Operation Test (OT). Production units for
this variant began in the 4th Quarter FY 2004 and will complete in the 2nd Quarter FY 2009. The AIM-120C-7
provides a major upgrade over the AIM-120C-6 guidance section, particularly the use of circular processor cards
over previously used rectangular cards. These cards provide significant space savings within the missile for added
capability in addition to providing greater processing power.

AMRAAM Phase 4 (AIM-120D) builds on the AIM-120C-7 capability and is progressing. This new AIM-120D mis-
sile will add a GPS/INU and a 2-way Data Link to enhance accuracy and control, and thus, increasing weapon
effectiveness. In addition, the AIM-120D will have increased range and third party targeting which expands the
HOBS launch envelope. The SDD contract was awarded in December 2003 and initial systems integration testing
of the Proof of Design (POD) missile began in September 2005. Nine POD missiles have been produced to date.
These are active in laboratory, ground and flight testing.

The Joint Direct Attack Munition Program completed the SAASM/Anti-Jam 27 month effort that commenced in
FY 2003. SAASM/AJ capability decreases vulnerability to crypto compromise and spoofing as well as enhanced



86
                                                                    2006 Annual Financial Statement


anti-jam performance. All JDAMS delivered in Lot 9 (starting in FY 2006) and beyond will be SAASM capable.
The 9,000 JDAMs delivered in Lot 9 will also be AJ capable. Future AJ quantities will be determined by ACC and
AF/XOR.

The Small Diameter Bomb I (SDB I) program will increase the number of kills per platform or sortie (x4) while
achieving required effects by improving accuracy and reducing collateral damage over current inventory weapons.
SDB I is an incremental development weapon program that entered low rate initial production in FY 2005. The
first Increment of SDB I will attack fixed and stationary targets using anti-jam/SAASM Inertial Navigation System
(INS)/Global Positioning Satellite (GPS) aided by a very wide area differential GPS solution and standoff capability.
The program has successfully completed the IOT&E phase of twenty f Seamless Verification in July 2006. The
program met Required Assets Available (RAA) in time to not only meet RAA requirements, but also a real-world
operational deployment. The SDB will provide transformational capability to the Air Force by increasing loadout
per weapon station on multiple platforms, reducing sorties and minimizing collateral damage.

The Joint Surveillance Target Attack Radar system (Joint STARS) Interim Capability for Airborne Networking
(ICAN) program provides a low-cost interim Internet Protocol net-centric capability on joint STARS. A product
of Northrop Grumman and the Air Force Research Laboratory, ICAN uses COTS software to tie into existing
Joint STARS radios and antennas. ICAN enables SIPRNet connectivity to airborne and fixed/mobile users for col-
laboration via standard test chat as well as email and web-browser functionality. The fleet modifications were
first implemented on deployed aircraft and in-theater ground stations, with IOC declared on March 30, 2006.
Installs have continued on the rest of the fleet and are projected to be completed by March 2007.

ICAN on Joint STARS aircraft allows command and control of surveillance operations and time sensitive targeting
in support of ground forces engaging enemy units. By enabling participation in secured text chat sessions, ICAN
allows Joint STARS operators to rapidly collaborate with reconnaissance platform operators, strike aircraft pilots,
and ground force combatants. Joint STARS operators exploit ICAN's large footprint to track the movements of
enemy units in concert with other sensors. When the enemy stops moving, Joint STARS operators use ICAN to
rapidly direct shooters to locate and destroy their targets. ICAN has become an integral tool for synchronizing
the effects of airpower and ground forces to achieve warfighter objectives.

The Air Force Space program achieved four successful launches of military satellites, utilizing Titan, Atlas, and
Delta to launch NROL-23, NROL-16, GPS IIR-13, DSP-22 and GPS IIR-14.

The Air Force continues to develop the Family of Advanced Beyond Line of Sight Terminals (FAB-T) to provide
robust, secure, strategic and tactical global communications for nuclear and conventional forces. This family of ter-
minals will provide transformational communications via connectivity to Advanced EHF satellites (AEHF),
Wideband Gapfiller Satellites (WGS), and the future Transformational Satellite Communications System (TSAT).
Future increments of this terminal will provide laser communications in conjunction with optical capabilities on
TSAT to deliver data in excess of one GB per second, as well as a new multi-band antenna that will enable aircraft
to have simultaneous connectivity to multiple satellites via a phased array construct. This capability will allow the
Air Force to reduce the costs of integrating multiple antennas to communicate with different satellite constellations.

In FY 2004, the Air Force conducted a successful Preliminary Design Review for the Space Based Space
Surveillance (SBSS) pathfinder satellite. The SBSS pathfinder program will design, build, launch and operate this
single satellite with a visible sensor payload, as well as build and operate a ground segment to support initial satel-
lite operations. The SBSS Pathfinder will detect and track objects in Earth's orbit, contributing to timely space sit-
uation awareness, and is scheduled to launch in late 2009.



                                                                                                                    87
      United States Air Force


In FY 2006, the Air Force successfully completed the source selection and contract award for a Non-develop-
mental Item (NDI) Ground Multi-band Terminal (GMT). GMT provides the warfighter a wideband tactical termi-
nal to support full spectrum operations from humanitarian/disaster relief to Major Theater War (MTW) by deliv-
ering Air Tasking Order (ATO), unmanned aerial vehicle video, voice, intelligence, command and control and
other data products. Each GMT provides wideband SATCOM connectivity up to 104 Mbps via 4 bands (Ka, Ku,
X and C) over military Wideband Gapfiller Satellite (WGS) and commercial SATCOM systems. The Air Force
procured 2 terminals in FY 2006 to use for testing and will award a full rate production contract in FY 2007. The
Air Force will procure a total of 141 GMT terminals. These terminals will replace existing 20+ year old wide-
band SATCOM terminals and reduce the airlift footprint by 75%.

In FY 2005, the Air Force conducted a successful Preliminary Design Review for the Space Based Space Surveillance
(SBSS) Block 10 system. The SBSS Block 10 program will design, build, launch and operate a satellite system with a
visible sensor payload, as well as build and operate a ground segment to support initial satellite operations. The
SBSS Pathfinder will detect and track objects in Earth's orbit, contributing to timely space situation awareness, and is
scheduled to launch in late 2009. Technical progress continued in FY 2006 with testing and refinement of the
change-coupled devices, mirrors, ground system software, and other pathfinder system components.

The first Counter Communications System was delivered to the Air Force Space command (AFSPC) in
December 2003 and AFSPC declared initial capability on September 24, 2004, after two additional systems were
delivered. AFSPC continues development of strap on capability via Pods. Additional capability against future
technology developments will be delivered with block 20. The Counter Communications System is operated by
the 76th Space Control Squadron at Peterson AFB, Colorado, and is a transportable ground-based system that
denies adversary satellite communications through reversible, not-destructive methods.

We successfully completed initial operational test and evaluation on the Safety Enhanced Reentry Vehicle (SERV)
program. Also, the rest of the SERV flight test program (1 flight) was finished. The SERV program allows the
Minuteman III system to use the Mk21 reentry vehicle, originally developed for the recently retired Peacekeeper
missile. The Mk21 has the most modern safety features of any such weapon in the DoD inventory.




88
              2006 Annual Financial Statement




General Fund
Required Supplementary
Information




                                           89
        United States Air Force
Disaggregated Statement of Budgetary Resources—General Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                                    Research, Development,           Operation and
                                                                   Other               Test & Evaluation              Maintenance
 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES:
 1. Unobligated balance, brought forward, October 1           $        3,837    $                    2,741,912   $          1,099,819
 2. Recoveries of prior year unpaid obligations                            0                           221,255                684,917
 3. Budget authority
    3a. Appropriation                                                409,112                        22,407,229            46,808,346
    3b. Borrowing authority                                                0                                 0                     0
    3c. Contract authority                                                 0                                 0                     0
 4. Spending authority from offsetting collections
    4a. Earned
        1. Collected                                                  12,758                         3,164,551              5,383,335
        2. Change in receivables from Federal sources                    -21                          -101,806                 58,849
    4b. Change in unfilled customer orders
        1. Advance received                                                 0                          -84,490               -40,502
        2. Without Advance from Federal sources                             0                         -107,194                14,202
    4c. Anticipated for rest of year, without advances                      0                                0                     0
    4d. Previously unavailable                                              0                                0                     0
    4e. Expenditure transfers from trust funds                              0                                0                     0
    4f. Subtotal                                                      421,849                       25,278,290            52,224,230
 5. Non-expenditure transfers, net, anticipated and actual           -401,461                          244,066             1,174,277
 6. Temporarily not available pursuant to Public Law                        0                                0                     0
 7. Permanently not available                                          -5,000                         -501,171              -973,798
 8. Total Budgetary Resources                                 $        19,225   $                   27,984,352   $        54,209,445

 STATUS OF BUDGETARY RESOURCES:
 9. Obligations incurred:
    9a. Direct                                                $        2,608    $                   21,385,080   $        47,384,824
    9b. Reimbursable                                                  12,519                         2,940,679             5,520,594
    9c. Subtotal                                                      15,127                        24,325,759            52,905,418
 10. Unobligated balance:
    10a. Apportioned                                                     925                         3,314,921               306,495
    10b. Exempt from apportionment                                     3,174                                 0                     0
    10c. Subtotal                                                      4,099                         3,314,921               306,495
 11. Unobligated balance not available                                     0                           343,672               997,530
 12. Total Status of Budgetary Resources                      $       19,226    $                   27,984,352   $        54,209,443
 CHANGE IN OBLIGATED BALANCE:
 13. Obligated balance, Net
     13a. Unpaid obligations, brought forward, October 1               1,813                         7,883,106            17,592,744
     13b. Less: Uncollected customer payments                  $         -21    $                     -974,712   $        -1,585,971
          from Federal sources, brought forward, October 1
     13c. Total unpaid obligated balance                                1,792                        6,908,394             16,006,773
     13d. Obligations incurred net (+/-)                       $       15,127   $                   24,325,758   $         52,905,419
 14. Less: Gross outlays                                              -15,297                      -23,949,855            -50,787,686
 15. Obligated balance transferred, net
     15a. Actual transfers, unpaid obligations (+/-)                       0                                 0                       0
     15b. Actual transfers, uncollected customer                           0                                 0                       0
          payments from Federal sources (+/-)
 16. Total Unpaid obligated balance transferred, net                        0                                0                      0
 17. Less: Recoveries of prior year unpaid obligations, actual              0                         -221,255               -684,917
     Change in uncollected customer                                        21                          209,000                -73,050
     payments from Federal sources (+/-)
 18. Obligated balance, net, end of period
     18a. Unpaid obligations                                           1,643                         8,037,755            19,025,559
     18b. Less: Uncollected customer payments
          from Federal sources                                             0                          -765,712            -1,659,021
     18c. Total, unpaid obligated balance, net, end of period          1,643                         7,272,043            17,366,538
 NET OUTLAYS:
 19. Net Outlays:
     19a. Gross outlays                                                15,297                       23,949,855            50,787,686
     19b. Less: Offsetting collections                                -12,758                       -3,080,061            -5,342,833
     19c. Less: Distributed Offsetting receipts                      -185,423                                0                     0
 20. Net Outlays                                              $      -182,884   $                   20,869,794   $        45,444,853




The accompanying notes are an integral part of these financial statements.


90
                                                                                      2006 Annual Financial Statement


                           Military           Military Construction/               2006               2005
    Procurement           Personnel              Family Housing                  Combined           Combined



$        7,285,635    $       403,345     $                   1,471,659      $     13,006,208   $      9,043,364
           367,105            174,573                             3,056             1,450,906          1,300,191

        35,518,858          31,315,236                        3,308,829           139,767,610        128,890,968
                 0                   0                                0                     0                  0
                 0                   0                                0                     0                  0



           279,125            414,953                                  468          9,255,190          8,923,532
             5,971            -62,272                                    0            -99,279            142,948

            30,784                   0                             -468               -94,677            349,671
            -9,499                  -3                                0              -102,493            388,543
                 0                   0                                0                     0                  0
                 0                   0                                0                     0                  0
                 0                   0                                0                     0                  0
        35,825,239          31,667,914                        3,308,829           148,726,351        138,695,662
         1,088,747             474,174                           -3,113             2,576,690          2,598,439
                 0                   0                                0                     0                  0
          -943,251            -445,485                         -177,527            -3,046,233         -1,493,468
$       43,623,475    $     32,274,521    $                   4,602,904      $    162,713,922   $    150,144,188



$       33,475,546    $     31,500,600    $                   2,690,889      $    136,439,546   $    124,689,424
           334,790             352,867                                0             9,161,449         12,448,555
        33,810,336          31,853,467                        2,690,889           145,600,995        137,137,979

         9,378,822              99,975                        1,897,479            14,998,616         11,756,881
                 0                   0                                0                 3,174              3,218
         9,378,822              99,975                        1,897,479            15,001,790         11,760,099
           434,317             321,080                           14,537             2,111,137          1,246,110
$       43,623,475    $     32,274,522    $                   4,602,905      $    162,713,922   $    150,144,188



        23,239,976            807,544                         2,315,598            51,840,781         53,808,139
$         -235,478    $       -39,316     $                           0      $     -2,835,497   $     -2,304,006

         23,004,498            768,228                        2,315,598            49,005,284         51,504,133
$        33,810,336   $     31,853,467    $                   2,690,889      $    145,600,995   $    137,137,979
        -33,790,912        -31,657,215                       -1,800,804          -142,001,769       -137,805,147

                  0                   0                                 0                   0                  0
                  0                   0                                 0                   0                  0

                 0                   0                                 0                    0                  0
          -367,105            -174,573                            -3,056           -1,450,906         -1,300,191
             3,528              62,275                                 0              201,773           -531,490



        22,892,295            829,223                         3,202,626            53,989,101         51,840,781

          -231,950             22,959                                 0            -2,633,723         -2,835,497
        22,660,345            852,182                         3,202,626            51,355,378         49,005,284



        33,790,912          31,657,215                        1,800,804           142,001,769        137,805,147
          -309,908            -414,953                                0            -9,160,512         -9,273,203
                 0                   0                                0              -185,423           -123,202
$       33,481,004    $     31,242,262    $                   1,800,804      $    132,655,834   $    128,408,742




                                                                                                                   91
      United States Air Force


                                                               HERITAGE ASSETS
                                                              As of September 30, 2006

                                Measurement         As of                                              As of
                                                                     Additions           Deletions
                                 Quantities       10/1/2005                                          9/30/2006

 Museums                            Each                19                    0                 5          14
 Monuments & Memorials              Each               244                    0                 0         244
 Cemeteries                         Sites               39                    0                 0          39
 Archeological Sites                Sites            1,685                    0               171       1,514
 Buildings & Structures             Each             6,153                    0             1,605       4,548
 Major Collections                  Each                 4                    0                 0           4



Narrative Statement:
1. Museums
The National Museum of the United States Air Force (NMUSAF), located at Wright-Patterson Air Force Base,
Ohio, is the services' single, authorized national museum. This museum has a professionally-qualified staff and is
responsible to the Secretary of the Air Force for the management and stewardship of the historical collection.
The NMUSAF houses the main collection of historical artifacts that are registered as historical property of the
USAF Museum System. The other 12 reported museums are defined as Air Force Field Museums and are oper-
ated by their respective major commands (MAJCOMs). While they are responsible for Air Force Historical
Property on loan from the NMUSAF, they have been limited in both their scope and capabilities.

The MAJCOMs also operate at various base locations small heritage centers and historical exhibits, which are lim-
ited in capabilities and are neither manned nor resourced at professional museum levels. These five activities are
no longer defined as museums by the NMUSAF or by their respective MAJCOMs.

The Air National Guard continues to report one old munitions storage vault, dating back to the Horse Artillery
days as their only museum. This storage vault is the only building remaining of a number that use to be at this
location. All Air Force and Air National Guard museums are reported in acceptable condition.

2. Monuments and Memorials
The memorials and monuments reported above, except for 28, are all located at the Air Force Academy in the
Air Gardens and Honor Court. Most of these monuments and memorials honor specific individuals or cadet
wings for various accomplishments. The remaining 28 Air Force memorials, all with costs that exceed $100,000,
are located on various Air Force bases throughout the United States. All are reported in acceptable condition.

3. Cemeteries
The Air Force has administrative and curatorial responsibilities for 39 cemeteries on its Active Duty bases. The
cemeteries are maintained by the bases and are in good condition.

4. Archeological Sites
As of 30 September 2006, the Air Force has (as reported in the FY 2005 Annual Report to Congress on Federal
Archaeological Activity, submitted 30 March 2006) 1,514 archeological sites listed on or eligible for the National
Register. The Air Force has 10,015 recorded but unevaluated (AKA "potentially eligible") archeological sites, and
4,593 sites, considered not eligible for the Register. A total of 16,122 archeological sites have been reported so




92
                                                                    2006 Annual Financial Statement


far from Air Force lands. Eligible and listed sites (AKA "heritage assets") are maintained in an acceptable condition
on Air Force installations.

The table shows a total of 171 archaeological sites were removed from the heritage asset list between FY 2005
and FY 2006, even though the number of archaeological sites increased by 958 (15,164 in FY 2005 to 16,122 in
FY 2006). The reduction in eligible sites is a result of (a) more accurate reporting by installations after the FY
2005 audit; (b) corrections of site number data reported by a few installations in previous Annual reports; (c) the
destruction of several dozen sites after thorough Section 106 review by construction and other Air Force ground-
disturbing projects; (d) determination that some previously considered-eligible sites were no longer eligible; and
(e) the consolidation of previously separated, but adjacent sites into fewer larger sites (primarily at Tyndall and
Lackland AFBs) during reevaluation projects.

5. Buildings and Structures
As of 28 September 2006, the Air Force considers 4,548 buildings and structures as heritage assets (listed and eli-
gible buildings/structures). Most are considered Multi-use Heritage Assets, and as such, are reported as general
property, plant, and equipment on the Balance Sheet. These buildings and structures are maintained by each base
civil engineering group and are considered to be in good condition.

The decrease from last year's report total by 1,605 buildings is due to several factors, including: (a) more accurate
reporting in FY 2006 because of the FY 2005 audit; (b) refining the definition of heritage assets in regard to his-
toric buildings and structures ("heritage asset" is not commonly used for historic properties in the Air Force
Cultural Resources management community, and the definitions do not overlap completely). Unlike previous
additions of this report, only buildings/structures listed on or determined eligible for listing on the National
Register are considered as heritage assets. In past reports, installations included data on those buildings/struc-
tures considered "potentially eligible" (not yet evaluated) as heritage assets because they must be managed as eli-
gible until evaluated; (c) because the Air Force has developed much better data on historical housing than we've
had in the past, and solved several past problems, such as occasionally counting out-buildings (e.g. garages) as sep-
arate assets instead of part of the historic house itself (primarily because garages and carports often have separate
building numbers on installations), and differentiating between "units" and "buildings" where confusion arose for
multi-dwelling buildings (e.g. duplexes/multiplexes); (d) completing evaluations of many buildings in the National
Historic Preservation Act 50+ year old category that were considered likely eligible, but which evaluation
showed were not eligible; (e) many Capehart-Wherry Era housing units have been demolished or marked for
demolition under the Advisory Council for Historic Preservation Program Comment signed in August 2006 (some
buildings that were previously considered eligible); and (f) many installations have privatized their military housing,
resulting in some historic assets being removed from the Air Force inventory.

6. Major Collections
The Air Force has four significant or major collections consisting of: (a) the Air Force Art Collection, and (b) three
collections, at the Air Force Academy containing historical items and memorabilia, as well as, distinctive works of
art. The curators for all major collections reported the contents to be in good condition. They further added that
almost all of the materials are protected in an environment suitable for long-term storage. The overall condition
of the collections in the museums is good; items are displayed and protected in accordance with the standards of
Air Force Instruction 84-103, USAF Museum System.




                                                                                                                    93
      United States Air Force


                                                   STEWARDSHIP LAND
                                                   As of September 30, 2006
                                                     (Acres in Thousands)

               (a)                            (b)                 (c)                  (d)                (e)
            Land Use                   As of 10/1/2005          Additions           Deletions      As of 9/30/2006

 1. Mission                                7,709                    0                   4              7,705
 2. Parks & Historic Sites                   0                      0                   0                0
 Totals                                    7,709                    0                   0              7,705

The Air Force has approximately 7,705,000 acres of mission-essential Stewardship Land under their administra-
tion. The beginning balance was (FY 2005 Ending Balance) was adjusted by 19,000 acres due to an unsupported
previous year's balance that has remained on the above schedule since FY 2002. During this period of time, vari-
ous transactions have occurred that decreased the number of acres by approximately 19,000 acres. Lands pur-
chased by the Air Force with the intent to construct buildings or facilities are considered general plant, property,
and equipment (PP&E) and are reported on the balance sheet. All stewardship lands, as reported, are in accept-
able condition, based on designated use.

                          GENERAL PROPERTY, PLANT, AND EQUIPMENT
             REAL PROPERTY DEFERRED ANNUAL SUSTAINMENT AND RESTORATION TABLES
                              As of September 30, 2006 ($ in thousands)

                                                                     Annual Sustainment FY 2006
 Property Type                                  1. Required       2. Appropriated    3. Executed     4. Difference
 Buildings, Structures and Utilities            2,440,231            2,294,138        1,949,749        490,482


Notes:
1. FY 2006 O&M Sustainment Required is based on Facilities Sustainment Model (FSM 6.1) per business rule
   direction of OSD (AT&L).

2. FY 2006 O&M Sustainment Appropriated amount is the FY 2006 PB plus subsidies and MILPERS contribution
   (49% of MILPAY), does not include Supplemental funding for Contingencies and Storms, and include post-PB
   Congressional Marks.

3. FY 2006 O&M Sustainment Actuals are from the CRIS database, DBT perspective, 30 September 2006. The
   numbers are not certified DFAS numbers and are subject to change. Certified numbers for FY 2006 obliga-
   tions are not expected until late October/early November 2006.

4. FY 2006 O&M Sustainment Difference is the sustainment required, minus the Actual, which equals our
   deferred facility maintenance submission.

5. Military Family Housing (MFH) annual sustainment requirements are based upon data reflected in the 2002
   Family Housing Master Plan. These requirements are further refined based upon a combination of historical
   expenditures for day-to-day maintenance and condition assessment surveys for MFH real property mainte-
   nance by contract, and take into account programmatic changes such as housing privatization initiatives.




94
                                                                      2006 Annual Financial Statement


6. RDT&E Sustainment appropriated and actual obligated includes Congressional Marks and does not include
   Emergency Hurricane supplemental funding.

                                                              Annual Deferred Sustainment Trend
 Property Type                                 FY 2003            FY 2004          FY 2005        FY 2006
 Buildings, Structures and Utilities           417,112             550,966         590,579        490,482


Notes:
1. RDT&E Sustainment funding obligations and expenditures are not available prior to FY 2004;
   appropriation/program element structure did not facilitate an accurate determination of this number.

                                             MILITARY EQUIPMENT
                                       DEFERRED MAINTENANCE AMOUNTS
                                          Deferred Maintenance Amounts

                                       As of September 30, 2006 ($ in thousands)
 (a)                                                                                                          (b)
 Major Type
 1. Aircraft                                                                                              $30,894
 2. Engines                                                                                                25,769
 3. Missiles
 4. Software                                                                                               97,011
 5. Other Major End Items                                                                                   4,241
 6. Non-MSD Exchangeables                                                                                     980
 7. Area Base Maintenance
 8. Storage
 Total                                                                                                $158,895

The figures presented are actual deferred maintenance amounts for FY 2006.

The figures include Active Air Force, Air National Guard and the Air Force Reserve.




                                                                                                                    95
        United States Air Force


Required Supplemental Information - Part A
AT57 - Air Force General Fund                                              Fund Balance       Accounts         Loans
                                                         Treasury Index:                                                  Investments    Other
Schedule, Part A DoD Intragovernmental Asset Balances.                     with Treasury      Receivable     Receivable
($ in Thousands)
Executive Office of the President                             11                                       $77
Department of Agriculture                                     12                                      $807
Department of Commerce                                        13                                      $295                                $10,447
Department of the Interior                                    14                                    $4,326                               $117,384
Department of Justice                                         15                                    $4,575                                 $6,224
Department of Labor                                           16                                       $43
Navy General Fund                                             17                                   $44,066
United States Postal Service                                  18                                      $260
Department of State                                           19                                   $25,992
Department of the Treasury                                    20                $68,848,167           $834                        $722
Army General Fund                                             21                                   $20,239                                  $660
Office of Personnel Management                                24                                      $111                                $57,778
Social Security Administration                                28                                        $1
Library of Congress                                            3                                        $7
Nuclear Regulatory Commission                                 31                                      $111
Department of Veterans Affairs                                36                                     $511                                    $273
Government Printing Office                                     4                                        $0
General Service Administration                                47                                      $425                                 $2,954
National Science Foundation                                   49                                      $636                                 $5,411
General Accounting Office                                      5                                        $4
Central Intelligence Agency                                   56                                      $289
Environmental Protection Agency                               68                                       $37                                 $9,880
Department of Transportation                                  69                                     $286                                  $1,296
Homeland Security                                             70                                   $41,997                                $15,552
Agency for International Development                          72                                    $5,606
Small Business Administration                                 73                                                                             $162
Department of Health and Human Services                       75                                       $40
National Aeronautics and Space Administration                  80                                  $11,295                                $15,327
National Archives and Records Administration                  88                                       $25
Department of Energy                                          89                                    $9,876                                 $4,412
Department of Education                                       91                                       $40
US Army Corps of Engineers                                    96                                       $32
Other Defense Organizations General Funds                     97                                  $103,344                                     $0
Other Defense Organizations Working Capital Funds           97-4930                               $320,047                                $46,720
Army Working Capital Fund                                 97-4930.001                                   $6
Navy Working Capital Fund                                 97-4930.002                               $1,219                                     $3
Air Force Working Capital Fund                            97-4930.003                              $68,208                               $160,484




96
                                                                           2006 Annual Financial Statement


Required Supplemental Information - Part B
AT57 - Air Force General Fund                                 Treasury       Accounts        Debts/Borrowings
                                                                                                                   Other
Schedule, Part B DoD Intragovernmental entity liabilities.     Index:         Payable       From Other Agencies
($ in Thousands)
Department of Agriculture                                        12                  $330
Department of Commerce                                           13                $2,031                               $19
Department of the Interior                                       14                $4,560
Department of Justice                                            15                $2,598                            $8,639
Department of Labor                                              16                                                $318,407
Navy General Fund                                                17               $13,973                          $184,167
United States Postal Service                                      18               $8,717                                $1
Department of State                                              19                $1,641
Department of the Treasury                                       20                $3,027                             $209
Army General Fund                                                21               $34,964                           $56,502
Office of Personnel Management                                   24                                                 $52,959
Federal Communications Commission                                27                  $143
Social Security Administration                                    28                   $2
Nuclear Regulatory Commission                                     31                  $60
Department of Veterans Affairs                                   36                $8,621
General Service Administration                                    47             $176,672                               $24
National Science Foundation                                      49                $1,902
Tennessee Valley Authority                                       64                $3,065
Environmental Protection Agency                                  68                $2,022
Department of Transportation                                     69                $6,771                                  $0
Homeland Security                                                70               $15,670
Agency for International Development                             72                   $76
Small Business Administration                                     73                 $216
Department of Health and Human Services                          75                  $430
National Aeronautics and Space Administration                     80              $36,346                               $14
Department of Energy                                             89               $26,889                            $2,460
Department of Education                                          91                   $83
US Army Corps of Engineers                                       96                  $941
Other Defense Organizations General Funds                        97               $11,606                          $363,639
Other Defense Organizations Working Capital Funds              97-4930           $707,244                            $5,361
Army Working Capital Fund                                    97-4930.001           $5,039
Navy Working Capital Fund                                    97-4930.002          $22,079
Air Force Working Capital Fund                               97-4930.003         $328,052                              $451
The General Fund of the Treasury                                 99                                               $1,265,409




                                                                                                                                97
      United States Air Force


     Required Supplemental Information - Part C
     AT57 - Air Force General Fund
     Schedule, Part C DoD Intragovernmental revenue and related costs.            Treasury Index:     Earned Revenue
     ($ in Thousands)
     Department of Agriculture                                                         12                        $2,559
     Department of Commerce                                                            13                          $899
     Department of the Interior                                                        14                        $3,888
     Department of Justice                                                             15                       $34,192
     Department of Labor                                                               16                          $105
     Navy General Fund                                                                 17                     $152,921
     United States Postal Service                                                       18                       $5,554
     Department of State                                                               19                       $44,015
     Department of the Treasury                                                        20                       $31,866
     Army General Fund                                                                 21                     $147,417
     Office of Personnel Management                                                     24                         $189
     Library of Congress                                                                3                           $47
     Nuclear Regulatory Commission                                                     31                          $187
     Department of Veterans Affairs                                                    36                          $971
     Government Printing Office                                                         4                            $2
     General Service Administration                                                    47                        $1,526
     National Science Foundation                                                       49                       $57,639
     General Accounting Office                                                          5                           $31
     Central Intelligence Agency                                                       56                         $848
     Environmental Protection Agency                                                   68                          $197
     Department of Transportation                                                      69                        $3,284
     Homeland Security                                                                 70                     $108,489
     Agency for International Development                                              72                       $16,334
     Department of Health and Human Services                                           75                           $25
     National Aeronautics and Space Administration                                     80                       $71,223
     National Archives and Records Administration                                      88                          $500
     Department of Energy                                                              89                       $39,629
     Department of Education                                                           91                          $201
     US Army Corps of Engineers                                                        96                        $1,702
     Other Defense Organizations General Funds                                         97                    $1,661,075
     Other Defense Organizations Working Capital Funds                               97-4930                 $1,475,013
     Army Working Capital Fund                                                     97-4930.001                       $0
     Navy Working Capital Fund                                                     97-4930.002                  $17,396
     Air Force Working Capital Fund                                                97-4930.003                $355,614
     Military Retirement Fund                                                        97-8097                         $0
     DoD Medicare-Eligible Retiree Health Care Fund                                                           $201,012


     Required Supplemental Information - Part E
     AT57 - Air Force General Fund                                       Treasury Index:   Transfers In   Transfers Out
     ($ in Thousands)
     Navy General Fund                                                        17                                  $123
     Army General Fund                                                        21                                $26,738
     US Army Corps of Engineers                                               96                                     $0
     Other Defense Organizations General Funds                                97               $72,335               $0
     Other Defense Organizations Working Capital Funds                      97-4930               $766
     Air Force Working Capital Fund                                       97-4930.003         $106,784




98
                2006 Annual Financial Statement




General Fund
Audit Opinion




                                             99
      United States Air Force




100
2006 Annual Financial Statement




                            101
      United States Air Force




102
2006 Annual Financial Statement




                            103
      United States Air Force




104
2006 Annual Financial Statement




                            105
      United States Air Force




106
            2006 Annual Financial Statement




Working Capital Fund
Principal Statements




                                        107
      United States Air Force
Consolidated Balance Sheet—Working Capital Fund
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                           2006                  2005
                                                                        Consolidated          Consolidated
1. ASSETS (Note 2)
   A. Intragovernmental:
      1. Fund Balance with Treasury (Note 3)
         a. Entity                                                  $         1,357,976   $        1,164,223
         b. Nonentity Seized Iraqi Cash                                               0                    0
         c. Nonentity-Other                                                           0                    0
      2. Investments (Note 4)                                                         0                    0
      3. Accounts Receivable (Note 5)                                           420,073              510,560
      4. Other Assets (Note 6)                                                    5,218               48,515
      5. Total Intragovernmental Assets                             $         1,783,267   $        1,723,298
   B. Cash and Other Monetary Assets (Note 7)                       $                 0   $                0
   C. Accounts Receivable, Net (Note 5)                                         232,314              219,929
   D. Loans Receivable (Note 8)                                                       0                    0
   E. Inventory and Related Property, Net (Note 9)                           34,530,876           32,701,689
   F. General Property, Plant and Equipment, Net (Note 10)                    1,169,165            1,205,556
   G. Investments (Note 4)                                                            0                    0
   H. Other Assets (Note 6)                                                     541,143              440,337
2. TOTAL ASSETS                                                     $        38,256,765   $       36,290,809
3. LIABILITIES (Note 11)
   A. Intragovernmental:
      1. Accounts Payable (Note 12)                                 $          171,623    $          199,650
      2. Debt (Note 13)                                                              0                     0
      3. Other Liabilities (Note 15 & 16)                                      174,216               146,538
      4. Total Intragovernmental Liabilities                        $          345,839    $          346,188
   B. Accounts Payable (Note 12)                                    $          494,347    $          546,739
   C. Military Retirement and Other Federal                                    227,035               233,713
      Employment Benefits (Note 17)
   D. Environmental and Disposal Liabilities (Note 14)                                0                    0
   E. Loan Guarantee Liability (Note 8)                                               0                    0
   F. Other Liabilities (Note 15 and Note 16)                                 1,197,430            1,389,331
4. TOTAL LIABILITIES                                                $         2,264,651   $        2,515,971
5. NET POSITION
   A. Unexpended Appropriations - Earmarked Funds (Note 23)                           0                    0
   B. Unexpended Appropriations - Other Funds                                         0                    0
   C. Cumulative Results of Operations - Earmarked Funds                              0                    0
   D. Cumulative Results of Operations - Other Funds                         35,992,114           33,774,838
6. TOTAL NET POSITION                                               $        35,992,114   $       33,774,838
7. TOTAL LIABILITIES AND NET POSITION                               $        38,256,765   $       36,290,809




The accompanying notes are an integral part of these financial statements.


108
                                                                   2006 Annual Financial Statement
Consolidated Statement of Net Cost—Working Capital Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                      2006                  2005
                                                                   Consolidated          Consolidated
 1. Program Costs
    A. Gross Costs                                             $         8,671,960   $        10,514,194
    B. (Less: Earned Revenue)                                          -10,783,023           -11,414,946
    C. Net Program Costs                                       $        -2,111,063   $          -900,752
 2. Cost Not Assigned to Programs                                                0                     0
 3. (Less: Earned Revenue Not Attributable to Programs)                          0                     0
 4. Net Cost of Operations                                     $        -2,111,063   $          -900,752




The accompanying notes are an integral part of these financial statements.


                                                                                                           109
       United States Air Force
Consolidated Statement of Changes in Net Position—Working Capital Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                    Earmarked           All Other                                     2006                   2005
                                                                      Funds              Funds              Eliminations           Consolidated           Consolidated
CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                           $               0   $   33,774,838      $                  0   $      33,774,838      $      21,890,390
2. Prior Period Adjustments:
   2a. Changes in accounting principles (+/-)                                   0                0                         0                   0              3,632,598
   2b. Corrections of errors (+/-)                                              0                0                         0                   0              7,256,576
3. Beginning balances, as adjusted                                              0       33,774,838                         0          33,774,838             32,779,564
4. Budgetary Financing Sources:                                                 0                0                         0                   0                      0
   4a. Appropriations received                                                  0                0                         0                   0                      0
   4b. Appropriations transferred-in/out (+/-)                                  0                0                         0                   0                      0
   4c. Other adjustments (rescissions, etc.) (+/-)                              0                0                         0                   0                      0
   4d. Appropriations used                                                      0           48,389                         0              48,389                      0
   4e. Nonexchange revenue                                                      0                0                         0                   0                      0
   4f. Donations and forfeitures of cash and cash equivalents                   0                0                         0                   0                      0
   4g. Transfers-in/out without reimbursement (+/-)                             0         -106,784                         0            -106,784                -73,911
   4h. Other budgetary financing sources (+/-)                                  0                0                         0                   0                      0
5. Other Financing Sources:
   5a. Donations and forfeitures of property                                    0                0                         0                   0                      0
   5b. Transfers-in/out without reimbursement (+/-)                             0                0                         0                   0                      0
   5c. Imputed financing from costs absorbed by others                          0          164,609                         0             164,609                168,434
   5d. Other (+/-)                                                              0                0                         0                   0                      0
6. Total Financing Sources                                                      0          106,214                         0             106,214                 94,523
7. Net Cost of Operations (+/-)                                                 0       -2,111,062                         0          -2,111,062               -900,751
8. Net Change                                                                   0        2,217,276                         0           2,217,276                995,274
9. Ending Balances                                              $               0   $   35,992,114      $                  0   $      35,992,114      $      33,774,838

UNEXPENDED APPROPRIATIONS
1. Beginning Balances                                           $               0   $               0   $                  0   $                  0   $                  0
2. Prior Period Adjustments:
   2a. Changes in accounting principles (+/-)                                   0                   0                      0                      0                      0
   2b. Corrections of errors (+/-)                                              0                   0                      0                      0                      0
3. Beginning balances, as adjusted                                              0                   0                      0                      0                      0
4. Budgetary Financing Sources:
   4a. Appropriations received                                                  0           48,577                         0              48,577                         0
   4b. Appropriations transferred-in/out (+/-)                                  0                0                         0                   0                         0
   4c. Other adjustments (rescissions, etc) (+/-)                               0             -188                         0                -188                         0
   4d. Appropriations used                                                      0          -48,389                         0             -48,389                         0
   4e. Nonexchange revenue                                                      0                0                         0                   0                         0
   4f. Donations and forfeitures of cash and cash equivalents                   0                0                         0                   0                         0
   4g. Transfers-in/out without reimbursement (+/-)                             0                0                         0                   0                         0
   4h. Other budgetary financing sources (+/-)                                  0                0                         0                   0                         0
5. Other Financing Sources:
   5a. Donations and forfeitures of property                                    0                   0                      0                      0                      0
   5b. Transfers-in/out without reimbursement (+/-)                             0                   0                      0                      0                      0
   5c. Imputed financing from costs absorbed by others                          0                   0                      0                      0                      0
   5d. Other (+/-)                                                              0                   0                      0                      0                      0
6. Total Financing Sources                                                      0                   0                      0                      0                      0
7. Net Cost of Operations (+/-)                                                 0                   0                      0                      0                      0
8. Net Change                                                                   0                   0                      0                      0                      0
9. Ending Balances                                              $               0   $               0   $                  0   $                  0   $                  0




The accompanying notes are an integral part of these financial statements.


110
                                                                         2006 Annual Financial Statement
Combined Statement of Budgetary Resources—Working Capital Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                       2006               2005
                                                                     Combined           Combined
 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES:
 1. Unobligated balance, brought forward, October 1              $       292,678    $       134,440
 2. Recoveries of prior year unpaid obligations                           79,238                  4
 3. Budget authority
    3a. Appropriation                                                      48,577                  0
    3b. Borrowing authority                                                     0                  0
    3c. Contract authority                                              9,857,832          9,744,293
 4. Spending authority from offsetting collections
    4a. Earned
        1. Collected                                                   15,953,188         16,559,412
        2. Change in receivables from Federal sources                     -43,158             50,393
    4b. Change in unfilled customer orders
        1. Advance received                                                10,419           -121,421
        2. Without advance from Federal sources                          -936,323            692,744
    4c. Anticipated for rest of year, without advances                          0                  0
    4d. Previously unavailable                                                  0                  0
    4e. Expenditure transfers from trust funds                                  0                  0
    4f. Subtotal                                                       24,890,535         26,925,421
 5. Non-expenditure transfers, net, anticipated and actual               -106,784            -73,911
 6. Temporarily not available pursuant to Public Law                            0                  0
 7. Permanently not available                                          -8,457,316        -10,801,211
 8. Total Budgetary Resources                                    $     16,698,351   $     16,184,743
 Status of Budgetary Resources:
 9. Obligations incurred:
    9a. Direct                                                   $              0   $              0
    9b. Reimbursable                                                   15,773,214         15,892,064
    9c. Subtotal                                                       15,773,214         15,892,064
 10. Unobligated balance:
    10a. Apportioned                                                      925,137            292,678
    10b. Exempt from apportionment                                              0                  0
    10c. Subtotal                                                         925,137            292,678
 11. Unobligated balance not available                                          0                  1
 12. Total Status of Budgetary Resources                         $     16,698,351   $     16,184,743
 CHANGE IN OBLIGATED BALANCE:
 13. Obligated balance, Net
     13a. Unpaid obligations, brought forward, October 1                8,621,328          8,980,235
     13b. Less: Uncollected customer payments                    $     -4,967,392   $     -4,224,253
          from Federal sources, brought forward, October 1
     13c. Total unpaid obligated balance                                3,653,936          4,755,982
     13d. Obligations incurred net (+/-)                         $     15,773,214   $     15,892,064
 14. Less: Gross outlays                                              -15,711,459        -16,250,968
 15. Obligated balance transferred, net
     15a. Actual transfers, unpaid obligations (+/-)                            0                  0
     15b. Actual transfers, uncollected customer                                0                  0
          payments from Federal sources (+/-)
 16. Total Unpaid obligated balance transferred, net                           0                   0
 17. Less: Recoveries of prior year unpaid obligations, actual           -79,238                  -4
     Change in uncollected customer                                      979,482            -743,137
     payments from Federal sources (+/-)
 18. Obligated balance, net, end of period
     18a. Unpaid obligations                                            8,603,843          8,621,328
     18b. Less: Uncollected customer payments
          from Federal sources                                         -3,987,910         -4,967,392
     18c. Total, unpaid obligated balance, net, end of period           4,615,933          3,653,936
 NET OUTLAYS:
 19. Net Outlays:
     19a. Gross outlays                                                15,711,459         16,250,968
     19b. Less: Offsetting collections                                -15,963,606        -16,437,991
     19c. Less: Distributed Offsetting receipts                                 0                  0
 20. Net Outlays                                                 $       -252,147   $       -187,023




The accompanying notes are an integral part of these financial statements.


                                                                                                       111
       United States Air Force
Consolidated Statement of Financing—Working Capital Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                                                      2006                 2005
                                                                                                   Consolidated         Consolidated
 Resources Used to Finance Activities:
 Budgetary Resources Obligated
 1. Obligations incurred                                                                       $       15,773,214   $      15,892,064
 2. Less: Spending authority from offsetting collections and recoveries                               -15,063,364         -17,181,132
 3. Obligations net of offsetting collections and recoveries                                              709,850          -1,289,068
 4. Less: Offsetting receipts                                                                                   0                   0
 5. Net obligations                                                                                       709,850          -1,289,068
 Other Resources
 6. Donations and forfeitures of property                                                                      0                     0
 7. Transfers in/out without reimbursement (+/-)                                                               0                     0
 8. Imputed financing from costs absorbed by others                                                      164,609               168,434
 9. Other (+/-)                                                                                                0                     0
 10. Net other resources used to finance activities                                                      164,609               168,434
 11. Total resources used to finance activities                                                $         874,459    $       -1,120,634
     Resources Used to Finance Items not Part of the Net Cost of Operations
 12. Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided
     12a. Undelivered Orders (-)                                                                         -214,214              180,293
     12b. Unfilled Customer Orders                                                                       -925,904              571,323
 13. Resources that fund expenses recognized in prior periods                                              -7,923               -5,775
 14. Budgetary offsetting collections and receipts that do not affect net cost of operations                    0                    0
 15. Resources that finance the acquisition of assets                                                  -4,988,458           -5,376,780
 16. Other resources or adjustments to net obligated resources that do not
     affect net cost of operations
     16a. Less: Trust or Special Fund Receipts Related to exchange in the Entity's Budget                       0                    0
     16b. Other (+/-)                                                                                           0                    0
 17. Total resources used to finance items not part of the net cost of operations              $       -6,136,499   $       -4,630,939
 18. Total resources used to finance the net cost of operations                                $       -5,262,040   $       -5,751,573

 Components of the Net Cost of Operations that will not Require
 or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                                                        0                    0
 20. Increase in environmental and disposal liability                                                          0                    0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                                               0                    0
 22. Increase in exchange revenue receivable from the public (-)                                               6                    0
 23. Other (+/-)                                                                                           1,244                5,961
 24. Total components of Net Cost of Operations that will require or generate
     resources in future periods                                                                           1,250                5,961

 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                                                       166,193              190,703
 26. Revaluation of assets or liabilities (+/-)                                                          849,401                3,193
 27. Other (+/-)
     27a. Trust Fund Exchange Revenue                                                                           0                   0
     27b. Cost of Goods Sold                                                                            5,130,847           5,026,640
     27c. Operating Material & Supplies Used                                                                    0             416,094
     27d. Other                                                                                        -2,996,714            -791,770
 28. Total components of Net Cost of Operations that will not require or generate resources             3,149,727           4,844,860
 29. Total components of net cost of operations that
     will not require or generate resources in the current period                              $        3,150,977   $       4,850,821
 30. Net Cost of Operations                                                                    $       -2,111,063   $        -900,752




The accompanying notes are an integral part of these financial statements.


112
            2006 Annual Financial Statement




Working Capital Fund
Footnotes to the
Principal Statements




                                        113
      United States Air Force


Note 1. Significant Accounting Policies

1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and operating results of the United
States Air Force Working Capital Fund (AFWCF), as required by the "Chief Financial Officers (CFO) Act of 1990,"
expanded by the "Government Management Reform Act (GMRA) of 1994," and other appropriate legislation.
The financial statements have been prepared from the books and records of AFWCF in accordance with the
"Department of Defense Financial Management Regulation (DoDFMR)," the Office of Management and Budget
(OMB) Circular A-136, Financial Reporting Requirements, and to the extent possible generally accepted account-
ing principles (GAAP). The accompanying financial statements account for all resources for which AFWCF is
responsible. The AFWCF's financial statements are in addition to the monthly financial reports that are prepared
by the United States Air Force pursuant to OMB directives to monitor and control the Air Force's use of budget-
ary resources.

The AFWCF is unable to fully implement all elements of GAAP and OMB Circular A-136, due to limitations of
using non-financial feeder systems and processes that feed into the financial statements. The AFWCF derives its
reported values and information for major asset and liability categories largely from non-financial feeder systems,
such as inventory systems and logistic systems. These systems were designed to support reporting requirements
for maintaining accountability over assets and reporting the status of federal appropriations, rather than preparing
financial statements in accordance with GAAP. The AFWCF currently has several material departures from GAAP.
The five primary auditor-identified financial statement material weaknesses are: (1) financial and non-financial
feeder systems do not contain an adequate audit trail for the proprietary and budgetary accounts; (2) the Defense
Finance and Accounting Service (DFAS) cannot accurately identify all intergovernmental transactions by customer,
which is required for eliminations when preparing consolidated financial statements; (3) operating materials and
supplies are not reflected at historical cost; (4) the problem disbursement and in-transit disbursements that have
been reported by a disbursing station to the Department of Treasury have not been precisely matched against
specific source obligations; this condition adversely affects the Balance Sheet line item for fund balance with treas-
ury, and (5) adjustments for undistributed disbursements and collections are not supported at the detail level,
which precludes expressing an opinion on accounts payable and accounts receivable.

The AFWCF continues to implement process and system improvements addressing these limitations, many of
which are detailed below.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The
National Security Act Amendments of 1949 established the Department of Defense (DoD) and made the Air
Force a department within DoD. The overall mission of DoD is to organize, train, and equip armed forces to
deter aggression and, if necessary, defeat aggressors of the United States and its allies. The overall mission of the
Air Force is to deliver sovereign options for the defense of the United States of America and its global interest to
fly and fight in air, space, and cyberspace. Our priorities are: 1) win the Global War on Terror; 2) develop and
care for our airmen, and 3) modernize and recapitalize our aircraft and equipment.

The stock and industrial revolving fund accounts were created by the National Security Act of 1947, as amended
in 1949 and codified in United States Code 10 USC 2208. The revolving funds were established as a means to




114
                                                                    2006 Annual Financial Statement


more effectively control the cost of work performed by DoD. The DoD began operating under the revolving
fund concept as early as July 1, 1951.

1.C. Appropriations and Funds
The Air Force receives its appropriations and funds as general, working capital (revolving funds), trust, special and
deposit funds. The Air Force uses these appropriations and funds to execute mission requirements and report on
resource usage.

Working Capital Funds (WCF) receive their initial funding through an appropriation or a transfer of resources
from existing appropriations or funds and uses those capital resources to finance the initial startup. The WCF
activities provide goods and services to customers on a reimbursable basis. Reimbursable receipts fund ongoing
operations and generally are available in their entirety for use without further congressional action.

Air Force systems are not transaction driven for budgetary accounts. Therefore, in some cases proprietary and
statistical accounts are used to develop the Report on Budget Execution (SF133) and Statement of Budgetary
Resources for reporting budgetary data.

The FY 2006 AFWCF operations consist of two major activity groups: Supply Management and Depot
Maintenance. Prior to FY 2006, there was a third activity group called Information Services Activity Group
(ISAG). ISAG was removed from the Air Force Working Capital Fund at the end of FY 2005. In FY 2006, the
remaining unfilled customer orders and balance sheet accounts are being liquidated in preparation for account
closure in FY 2007.

Supply Management
The Air Force Stock Funds were established within the DoD under 10 U.S.C. 2208, as described in DoD 7000.14-R,
Financial Management Regulation, to finance supply inventories. The majority of Air Force supply requirements are
financed and managed within the stock fund. Exceptions include an item financed with a procurement appropriation
or when financing by other means has been deemed to be more economical and efficient. A stock fund operates as
a revolving fund replenishing inventories with funds received from sales to customers.

There are four active business activities in the Supply Management Activity Group (SMAG): 1) Materiel Support
Division (MSD); 2) General Support Division (GSD); 3) Medical-Dental Division, and 4) Air Force Academy
Division. The Fuels Division and Troop Support Division were closed prior to FY 2001. The residual accounts for
these two divisions are in the process of being closed by end of FY 2007.

A brief description is provided below for the four active business activities.

Wholesale Supply
• MSD manages over 130 thousand depot-level repairables and consumable items, for which the Air Force is the
  Inventory Control Point, which are used to maintain weapon systems.

Retail Supply

• GSD manages over 1.5 million different supply items, which support field and depot maintenance of aircraft,
  ground and airborne communication and electronic systems.
• Medical-Dental manages over seven thousand different items, which are used to support medical and dental
  supply requirements

• Air Force Academy finances the purchase of uniforms and uniform accessories for sale to cadets.


                                                                                                                 115
      United States Air Force


Depot Maintenance
The Air Force Depot Maintenance Activity Group (DMAG) repairs systems and spare parts that ensure readiness
in peacetime and provide sustainment to combat forces in wartime. In peacetime, the Air Force enhances readi-
ness by efficiently and economically repairing, overhauling, and modifying aircraft, engines, missiles, depot-level
reparables, and software to meet customer demands. Depots have unique skills and equipment required to sup-
port and overhaul both new, complex components as well as aging weapon systems. An extremely important
facet of the depots is that during wartime or contingencies, the Air Force can surge repair operations and realign
capacity to support the war-fighters' immediate needs. This is achieved by employing the unique strengths of
organic (in-house) and contracted (contract) repair resources.

Air Force Working Capital Fund Component
The purpose of the Air Force Component Activity is to provide an activity within AFWCF to record transactions
that cannot be identified to a specific business area. The January 21, 1997 memorandum "Policy and Procedures
for Cash Management Working Capital Funds (DWCF)" established the "Component-Level Adjustment" column.
The Component account's primary activities involve fund balance transactions and are minimal in both number of
transaction and dollar values.

Additional Defense Finance and Accounting Service (DFAS)-Arlington memorandums provided specific and
detailed instructions and procedures to maintain accountability for fund balance with treasury.

Business Operations
Operations of the activities within the AFWCF are based on policies and procedures that include funds manage-
ment. The AFWCF receives two fund types: operating authority and capital authority. These two fund types are
received on a funding document.

(1) Operating Authority:
Funding is used for the daily recurring business operating expenses incurred to produce the service or supply
items being demanded.

(2) Capital Program Authority:
Funding is used to procure investment items. These items are classified into four categories: 1) Equipment; 2)
Software; 3) Hardware, and 4) Minor Construction. Procured items must be greater than $100,000 and provide
more than one year of service. These items are currently depreciated over the expected life of the asset.

All AFWCF groups establish rates and prices for full cost recovery. If an operating loss or gain is incurred, the
activity will make the appropriate adjustment in following year prices to recoup the loss or return the gain to
their customers.

1.D. Basis of Accounting
For FY 2006, AFWCF's financial management systems are unable to meet all of the requirements for full accrual
accounting. Many of AFWCF's financial and non-financial feeder systems and processes were designed and imple-
mented prior to the issuance of GAAP for federal agencies. These systems were not designed to collect and
record financial information on the full accrual accounting basis as required by GAAP. Most of AFWCF's legacy
systems were designed to record information on a proprietary basis.




116
                                                                 2006 Annual Financial Statement


The AFWCF has undertaken efforts to determine the actions required to bring its financial and non-financial feed-
er systems and processes into compliance with GAAP. One such action is the current revision of its accounting
systems to record transactions based on the United States Standard General Ledger (USSGL). Until all of
AFWCF's financial and non-financial feeder systems and processes are updated to collect and report financial
information as required by GAAP, the AFWCF's financial data will be based on budgetary transactions (obligations,
disbursements, and collections), transactions from non-financial feeder systems, and adjustments for known
accruals of major items such as payroll expenses, accounts payable, and environmental liabilities.

In addition, AFWCF identifies program costs based upon the major appropriation groups provided by Congress.
Current processes and systems do not capture and report accumulated costs for major programs based upon the
performance measures as required by the Government Performance and Results Act (GPRA). The AFWCF is in
the process of reviewing available data and attempting to develop a cost reporting methodology that balances the
need for cost information required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
"Managerial Cost Accounting Concepts and Standards for the Federal Government," with the need to keep the
financial statements from being overly voluminous.

1.E. Revenues and Other Financing Sources
Each working capital activity group recognizes revenue in the following manner:

Supply Management
Supply Management activities recognize revenue from the sale of inventory items and receipt of direct reimburse-
ment for the purchase of customer requested initial and readiness spares. Revenue from the sale of inventory is
recognized at the time of sale. Revenue from the receipt of direct reimbursements is recognized upon receipt
from the General Fund.

Depot Maintenance
Depot Maintenance (Organic) activities recognize revenue according to the percentage of completion method.
Depot Maintenance (Contract) activities recognize revenue based on the number of units produced times the
Unit Sales Price (USP) which is recognized upon completion of the repair. Due to the anticipated closure of con-
tract activity in FY 2010, it is not cost-effective to implement system modifications to support the percentage of
completion method.

The AFWCF does not include non-monetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost and the Statement of Financing. The U.S. has cost
sharing agreements with other countries. Examples include countries where there is a mutual or reciprocal
defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses
For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
incurred. However, because the Air Force's financial and non-financial feeder systems were not designed to
collect and record financial information on the full accrual accounting basis, accrual adjustments are made for
major items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue. The Air
Force expenditures for capital and other long-term assets are recognized as operating expenses based on
depreciation. In the case of Operating Materials and Supplies (OM&S), operating expenses are generally recog-




                                                                                                              117
      United States Air Force


nized when the items are purchased. Efforts are underway to migrate towards the consumption method for
recognizing OM&S expenses.

Under the accrual method revenues are recognized when earned and expenses are recognized when incurred,
without regard to receipt or payment of cash. Budgetary accounting is accomplished through unique general
ledger accounts to facilitate compliance with legal and internal control requirements associated with the use of
federal funds. In addition to the accrual basis of accounting, Depot Maintenance also uses the full absorption
accounting principal. During FY 1996, the Defense Finance and Accounting Service-Denver Center (DFAS-DE);
Secretary of the Air Force, Deputy Assistant Secretary Budget (SAF/FMB); and the Office of the Secretary of
Defense, Financial Management (OSD/FM) jointly agreed on the use of this principal by Depot Maintenance. This
principal requires that overhead costs, such as depreciation and bad debt expenses, are included in the cost of
services sold.

1.G. Accounting for Intragovernmental Activities
The Air Force, as an agency of the federal government, interacts with and is dependent upon the financial activi-
ties of the federal government as a whole. Therefore, these financial statements do not reflect the results of all
financial decisions applicable to the Air Force as though the agency was a stand-alone entity.

The Air Force's civilian employees participate in the Civil Service Retirement System (CSRS) and Federal
Employees Retirement System (FERS), while military personnel are covered by the Military Retirement System
(MRS). Additionally, civilian employees covered by FERS and military personnel covered by MRS receive varying
coverage under Social Security. The AFWCF funds a portion of the civilian and military pensions. Reporting civil-
ian pension information under the CSRS and FERS retirement systems is the responsibility of the Office of
Personnel Management (OPM). The AFWCF recognizes an imputed expense for the portion of civilian employee
pensions and other retirement benefits funded by OPM in the Statement of Net Cost, and recognizes correspon-
ding imputed revenue in the Statement of Changes in Net Position.

Preparation of reliable financial statements requires the elimination of transactions occurring among entities within
DoD or between two or more federal agencies. However, AFWCF cannot accurately identify most of its
intragovernmental transactions by customer because the Air Force's systems do not track buyer and seller data
needed to match related transactions. Seller entities within DoD provided summary seller-side balances for rev-
enue, accounts receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most
cases, the buyer-side records are adjusted to agree with DoD seller-side balances, intra-DoD balances are then
eliminated. The AFWCF properly eliminates the revenue results from intra-DoD sales of capitalized assets. The
DoD is developing long-term system improvements that will include sufficient process checks and controls to
eliminate the need for after-the-fact reconciliations. The volume of intragovernmental transactions is so large that
after-the-fact reconciliation cannot be accomplished effectively with existing or foreseeable resources.

The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating transactions
between DoD and other federal agencies. The Treasury Financial Manual, Part 2 - Chapter 4700, "Agency
Reporting Requirements for the Financial Report of the United States Government" and the Treasury's "Federal
Intragovernmental Transactions Accounting Policy Guide," provide guidance for reporting and reconciling intragov-
ernmental balances. While AFWCF is unable to fully reconcile intragovernmental transactions with all federal
partners, AFWCF is able to reconcile balances pertaining to investments in federal securities, borrowings from
the U.S. Treasury and the Federal Financing Bank, Federal Employees' Compensation Act transactions with the
Department of Labor (DOL), and benefit program transactions with the Office of Personnel Management (OPM).



118
                                                                    2006 Annual Financial Statement


The DoD's proportionate share of public debt and related expenses of the federal government are not included.
The federal government does not apportion debt and its related costs to federal agencies. The DoD's financial
statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements
report the source of public financing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized
since the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

1.H. Transactions with Foreign Governments and International Organizations
Each year, AFWCF sells spare parts and maintenance services to foreign governments and international organiza-
tions under the provisions of the "Arms Export Control Act of 1976." Under the provisions of the Act, the DoD
has authority to sell defense articles and services to foreign countries and international organizations, generally at
no profit or loss to the U.S. Government. Payment is required in advance.

1.I. Funds with the U.S. Treasury
The AFWCF's monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of
DFAS, the Military Services, the U.S. Army Corps of Engineers (USACE), and the Department of State's financial
service centers process the majority of the AFWCF's cash collections, disbursements, and adjustments world-
wide. Each disbursing station prepares monthly reports that provide information to the U.S. Treasury on check
issues, electronic fund transfers, interagency transfers, and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury records this information to the applicable fund balance with treasury (FBWT) account. Differences
between AFWCF's recorded balance in the FBWT accounts and Treasury's FBWT accounts sometimes result and
are subsequently reconciled.

1.J. Foreign Currency
Not applicable.

1.K. Accounts Receivable
As presented on the Balance Sheet, accounts receivable includes accounts receivable, claims receivable, and
refunds receivable from other federal entities or from the public. Allowances for uncollectible accounts due from
the public are based upon analysis of collection experience by fund type. The DoD does not recognize an
allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies
are to be resolved between the agencies (per Code of Federal Regulations 4 CFR 101).

The AFWCF maintains an aging schedule of receivables. Aging allows for the management of collection action.
The receivables are considered delinquent if not received within 30 days from date of invoice or notice of pay-
ment due, unless different terms are specified by contract or other agreements. Interest, penalty and administra-
tive charges are calculated on delinquent accounts from the public in accordance with 31 USC 3717. Allowances
for uncollectible accounts due from the public are based upon analysis of collection experience by fund type.




                                                                                                                   119
      United States Air Force


1.L. Direct Loans and Loan Guarantees
Not applicable.

1.M. Inventories and Related Property
Inventory for AFWCF is all held in SMAG except for work-in-process inventory, which is in the Depot
Management Activity Group. Prior to FY 2004, SMAG inventory was reported at approximate historical cost
based on Latest Acquisition Cost (LAC), adjusted for holding gains and losses. During FY 2004 and 2005, 99% of
SMAG inventory changed from the LAC method to the Moving Average Cost (MAC) method of valuation. This
allowed SMAG to comply with the SFFAS No. 3, "Accounting for Inventory and Related Property," for that per-
centage of the inventory. The conversion to MAC included programming changes for the SMAG accounting sys-
tem to convert from the Air Force General Ledger (AFGL) to the USSGL for supply accounting.

Under the LAC method of inventory valuation, gains and losses resulting from valuation changes for inventory
items were recognized and reported in the Statement of Net Cost and included in the calculation of cost of
goods sold. To calculate the allowances for gain or loss on inventories, DFAS-DE prepared an inventory work-
sheet monthly for each fund code within SMAG. SFFAS No. 3, "Accounting for Inventory and Related Property,"
directs that using a historical cost valuation method does not require an allowance for holding gains and losses.
Additionally, SFFAS No. 3 provides for either the direct or allowance method to be used in valuing inventory held
for repair. Therefore, the change to a historical costing method also included the elimination of the allowance for
holding gains and losses, revaluation of all inventories to a historical basis, and the creation of an allowance for
repairs. The implementation of MAC for SMAG inventories in FY 2004 and 2005 eliminated the need for the
gains and losses allowance account for that portion of the inventory and has been credited against a prior period.
Inventory held for repair is now valued at MAC, with an allowance for repair equal to the latest repair cost, to
account for spares requiring repair.

The AFWCF manages only military or government specific materiel under normal conditions. Items commonly
used that are available from the commercial sector are not managed in AFWCF materiel management activities.
Operational cycles are irregular, and the military risks associated with stock-out positions have no commercial
parallel. The AFWCF holds materiel based on military need and support for contingencies. Therefore, DoD
does not attempt to account separately for "inventory held for sale" and "inventory held in reserve for future sale"
based on SFFAS No. 3 definitions.

Related property includes operating materials and supplies (OM&S). The OM&S are valued at standard purchase
price. The DoD uses both the consumption method and the purchase method of accounting for OM&S. Items
that are centrally managed and stored, such as ammunition and engines, are generally recorded using the con-
sumption method and are reported on the Balance Sheet as OM&S. When current systems cannot fully support
the consumption method, AFWCF uses the purchase method. Under this method, materials and supplies are
expensed when purchased. The AFWCF expenses significant amounts using the purchase method because the
systems could not support the consumption method or management deemed that the item was in the hands of
the end user.

The AFWCF determined that the recurring high dollar value of OM&S in need of repair is material to the financial
statements and requires a separate reporting category. Many high-dollar items, such as aircraft engines, are cate-
gorized as OM&S rather than military equipment.




120
                                                                   2006 Annual Financial Statement


The AFWCF recognizes condemned material as "Excess, Obsolete, and Unserviceable." The cost of disposal is
greater than the potential scrap value; therefore, the net value of condemned material is zero. Potentially redis-
tributed material, presented in previous years as "Excess, Obsolete, and Unserviceable," is included in the "Held
for Use" or "Held for Repair" categories according to its condition.

Past audits identified uncertainties about completeness and existence of reported values of inventory. Inventory
available and purchased for resale includes consumable spare and reparable items owned and managed by
AFWCF. This inventory is retained to support military or national contingencies. Inventory held for repair is
damaged inventory that requires repair to make suitable for sale. It is more economical to repair than to procure
these inventory items. Because AFWCF often relies on weapon systems and machinery that are no longer in pro-
duction, AFWCF supports a process that encourages the repair and rebuilding of certain items. This repair cycle
is essential in maintaining a ready, mobile, and armed military force. Work in process balances include costs relat-
ed to the production or servicing of items, including direct material, direct labor, applied overhead, and other
direct costs. Work in process also includes the value of finished products or completed services pending the sub-
mission of bills to the customer. The work in process designation may also be used to accumulate the amount
paid to a contractor under cost reimbursable contracts, including the amount withheld from payment to ensure
performance, and the amount paid to other government plants for accrued costs of end items of material
ordered but not delivered. Depot maintenance work in process includes labor, applied overhead, and supplies
used in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities
Not applicable.

1.O. General Property, Plant and Equipment
The Department is moving away from a standard capitalization threshold for all categories (e.g. real property, mil-
itary equipment, etc.) of General Property, Plant and Equipment (PP&E) to one that is specific for each individual
category. The Under Secretary of Defense Comptroller issued a memorandum dated March 13, 2006 regarding a
"Capitalization Threshold Policy for Real Property". This memorandum revised the Department's capitalization
threshold from $100,000 to $20,000 in order to meet the Department's audit readiness objective to capitalize
99% of all real property expenses. All entities are required to update records and fully implement the new policy
no later than March 31, 2008. The AFWCF is in the process of implementing this revised policy. The PP&E
assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful life of
two or more years and the acquisition cost equals or exceeds DoD capitalization threshold of $100,000. DoD
also requires capitalization of improvements over DoD capitalization threshold of $100,000 for PP&E. The DoD
depreciates all PP&E, other than land, on a straight-line basis. Minor construction projects that cost $100,000 or
more, but less than $300,000, are funded through a separate section of the capital budget, and depreciated over a
20-year period.

Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15,000, $25,000, and $50,000
for FY 1993, 1994, and 1995, respectively, and an estimated useful life of two or more years. General PP&E
previously capitalized at amounts below $100,000 were written off General Fund financial statements in FY
1998. No adjustment was made for WCF assets. These assets remain capitalized and reported on WCF finan-
cial statements.




                                                                                                                 121
      United States Air Force


When it is in the best interest of the government, the Air Force provides government property to contractors to
complete contract work. The Air Force either owns or leases such property, or it is purchased directly by the
contractor for the government based on contract terms. When the value of contractor-procured General PP&E
exceeds the DoD capitalization threshold, it must be reported on the Air Force's Balance Sheet.

The DoD is developing new policies and a contractor reporting process that will provide appropriate General
PP&E information for future financial statement reporting purposes. Accordingly, the Air Force reports only gov-
ernment property in the possession of contractors that is maintained in the Air Force's property systems. The
DoD has issued new property accountability and reporting requirements that require Air Force components to
maintain, in their property systems, information on all property furnished to contractors. This action and other
DoD-proposed actions are structured to capture and report the information necessary for compliance with
Federal accounting standards.

1.P. Advances and Prepayments
The AFWCF records payments in advance of the receipt of goods and services as advances or prepayments and
reports them as assets on the Balance Sheet. The AFWCF recognizes advances and prepayments as expenses
when it receives the related goods and services.

1.Q. Leases
Not applicable.

1.R. Other Assets
Other assets includes those assets, such as military and civil service employee pay advances, travel advances, and
contract financing payments, that are not reported elsewhere on the Department's Balance Sheet.

Contract financing payments are defined in the Federal Acquisition Regulations (FAR), Part 32, as authorized dis-
bursements of monies to a contractor prior to acceptance of supplies or services by the Government. These
payments are designed to alleviate the potential financial burden on contractors performing on certain long-term
contracts and facilitate competition for defense contracts. Contract financing payments clauses are incorporated
in the contract terms and conditions and may include advance payments, performance-based payments, commer-
cial advance and interim payments, progress payments based on cost, and interim payments under certain cost-
reimbursement contracts. Contract financing payments do not include invoice payments, payments for partial
deliveries, lease and rental payments, or progress payments based on a percentage or stage of completion, which
the Defense Federal Acquisitions Regulations Supplement (DFARS) authorizes only for construction of real prop-
erty, shipbuilding, and ship conversion, alteration, or repair. Progress payments for real property and ships are
reported as Construction in Progress in Note 10.

The Federal Acquisition Regulation allows the AFWCF to make financing payments under fixed price contracts.
The AFWCF reports these financing payments as "Other Assets" because AFWCF becomes liable only after the
contractor delivers the goods in conformance with the contract terms. If the contractor does not deliver a satis-
factory product, AFWCF is not obligated to reimburse the contractor for its costs and the contractor is liable to
repay AFWCF for the full amount of the advance.




122
                                                                    2006 Annual Financial Statement


1.S. Contingencies and Other Liabilities
The SFFAS No. 5, "Accounting for Liabilities of the Federal Government," as amended by SFFAS No. 12,
"Recognition of Contingent Liabilities Arising from Litigation," defines a contingency as an existing condition, situa-
tion, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be
resolved when one or more future events occur or fail to occur. The AFWCF recognizes contingent liabilities
when past events or exchange transactions occur, a future loss is probable, and the loss amount can be reasonably
estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
there is at least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies
include the collectibility of receivables, pending or threatened litigation, and possible claims and assessments. The
AFWCF's loss contingencies arise as a result of pending or threatened litigation or claims and assessments that
occur due to events such as aircraft, ship, and vehicle accidents; medical malpractice; property or environmental
damages; and contract disputes.

1.T. Accrued Leave
The AFWCF reports as liabilities civilian annual leave and military leave that has been accrued and not used as of
the Balance Sheet date. The liability reported at the end of the accounting period reflects the current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent amounts of authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments
have not been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses
and losses and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, the
cumulative results also include donations and transfer in and out of assets without reimbursement.

1.V. Treaties for Use of Foreign Bases
The AFWCF has the use of the land, building, and other overseas facilities that are obtained through various inter-
national treaties and agreements negotiated by the Department of State. The AFWCF purchases capital assets
overseas with appropriated funds; however, the host country retains title to land and improvements. Generally,
treaty terms allow AFWCF continued use of these properties until the treaties expire. In the event treaties or
other agreements are terminated, whereby use of the foreign bases is prohibited, losses are recorded for the
value of any non-retrievable capital assets. This takes place after negotiations between the U.S. and the host
country have determined the amount to be paid the U.S. for such capital investments.

1.W. Comparative Data
Financial statement fluctuations greater than 2% of total assets on the Balance Sheet or 10% from the previous
period presented are explained within the notes to the financial statements.




                                                                                                                  123
      United States Air Force


1.X. Unexpended Obligations
The AFWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The financial
statements do not reflect this liability for payment for goods and services not yet delivered.

1.Y. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts
reported on the departmental accounting reports. In-transit payments are those payments that have been made
to other agencies or entities that have not been recorded in their accounting records. These payments are
applied to the entities' outstanding accounts payable balance. In-transit collections are those collections from
other agencies or entities that have not been recorded in the accounting records. These collections are also
applied to the entities' accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and non-
federal categories based on the percentage of federal and nonfederal accounts payable and accounts receivable.
Unsupported undistributed disbursements are recorded in accounts payable. Unsupported undistributed collec-
tions are recorded in other liabilities. The AFWCF follows this procedure.

Note 2. Nonentity Assets

 As of September 30                                                 2006                         2005
 ($ in thousands)
 1. Intragovernmental Assets
    A. Fund Balance with Treasury                              $                   0        $                    0
    B. Accounts Receivable                                                         0                             0
    C. Total Intragovernmental Assets                          $                   0        $                    0
 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                          $                    0       $                    0
    B. Accounts Receivable                                                          0                            0
    C. Other Assets                                                                 0                            0
    D. Total Nonfederal Assets                                 $                    0       $                    0
 3. Total Nonentity Assets                                     $                    0       $                    0
 4. Total Entity Assets                                        $           38,256,765       $           36,290,809
 5. Total Assets                                               $           38,256,765       $           36,290,809

Asset accounts are categorized as either entity or nonentity. Entity accounts consist of resources that are avail-
able for use in the operations of the entity. The Air Force is authorized to decide how to use resources in entity
accounts. The Air Force may be legally obligated to use these resources to meet entity obligations. Nonentity
accounts, on the other hand, consist of assets that are held by an entity that are not available for use in the opera-
tions of the entity.

The Air Force Working Capital Fund has no Nonentity Assets.




124
                                                                2006 Annual Financial Statement


Note 3. Fund Balance with Treasury

 As of September 30                                                     2006                   2005
 ($ in thousands)
 1. Fund Balances
    A. Appropriated Funds                                         $                 0    $                    0
    B. Revolving Funds                                                      1,357,976                 1,164,223
    C. Trust Funds                                                                  0                         0
    D. Special Funds                                                                0                         0
    E. Other Fund Types                                                             0                         0
    F. Total Fund Balances                                        $         1,357,976    $            1,164,223
 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                  $         1,380,931    $            1,038,596
    B. Fund Balance per AFWCF                                               1,357,976                 1,164,223
 3. Reconciling Amount                                            $            22,955    $             -125,627


The reconciling amount on line 3 above represents $23.0 million for the United States Transportation Command
(USTC), which is reported at the Department of the Treasury as part of the Air Force Working Capital Fund
(AFWCF). However, for the purposes of Audited Financial Statements (AFS), USTC is included with the Other
Defense Organizations (ODO) reporting, which is separate from the AFWCF. Therefore, USTC cash is not
included on the AFWCF AFS statements.

Fluctuations
The $193.8 million (17%) increase in the Fund Balance with Treasury (FBWT) is primarily due to a $181.0 million
increase in the Organic Depot Maintenance Activity Group (DMAG). All three of the Air Logistic Centers (ALC)
contributed to this increase and the details are as follows:

Organic DMAG at Warner Robins Air Logistic Center had a $84.7 million increase in FBWT due to a 4% increase
in customer orders during FY 2006.

Organic DMAG at Oklahoma City Air Logistic Center had a $56.5 million increase in FBWT due to decreased
material consumption during FY 2006. Material costs were substantially below forecast due to decreased materi-
al being used in engine repair activities.

Organic DMAG at Ogden Air Logistic Center had a $39.8 million increase in FBWT due to changes in workload
during FY 2006. This change in workload caused a decrease in the material required for missile repair.

Status of Fund Balance with Treasury

 As of September 30                                                     2006                   2005
 ($ in thousands)
 1. Unobligated Balance
    A. Available                                                  $           925,139    $               292,680
    B. Unavailable                                                                  0                          0
 2. Obligated Balance not yet Disbursed                           $         8,603,843    $             8,621,327
 3. Non-budgetary FBWT                                            $                 0    $                     0
 4. Non-FBWT Budgetary Accounts                                   $        -8,171,006    $            -7,749,784
 5. Total                                                         $         1,357,976    $             1,164,223




                                                                                                              125
         United States Air Force


Fluctuations
The $632.5 million (316%) increase in the Available Unobligated Balance is a result of DMAG operations which
generated resources in excess of the liabilities. The cash increase was described above. In addition, Contract
DMAG had a concerted effort to clean up accrued liabilities, further improving the available resource balance.

The $193.8 million (17%) increase in the total Status of Fund Balance with Treasury is the result of an increase in
resources in DMAG. This increase can be attributed to the increase in cash discussed above.

Status of Fund Balance with Treasury consists of unobligated and obligated balances. These balances reflect the
budgetary authority remaining for disbursements against current or future obligations. In addition, the status
includes various accounts that affect either budgetary reporting or Fund Balance with Treasury, but not both.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to
cover outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated with
appropriations expiring at fiscal year end that remain available only for obligation adjustments until the account is
closed. There are no restrictions on the Unobligated Balance.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been
received or services that have not been performed.

Non-Budgetary Fund Balance with Treasury (FBWT) includes entity and nonentity Fund Balance with Treasury
accounts which do not have budgetary authority, such as unavailable receipt accounts or clearing accounts.

Non-FBWT Budgetary Accounts include budgetary accounts that do not affect Fund Balance with Treasury, such
as contract authority, borrowing authority and investment accounts. This category reduces the Status of Fund
Balance with Treasury.

Disclosures Related to Suspense/Budget Clearing Accounts

 As of September 30                                                                                                                 (Decrease)/
                                                                                  2004               2005               2006       Increase from
                                                                                                                                   FY 2005 - 2006
 ($ in thousands)
 Account
 F3845 – Personal Property Proceeds                                           $           0      $          0       $          0   $                0
 F3875 – Disbursing Officer Suspense                                                      0                 0                  0                    0
 F3880 – Lost or Cancelled Treasury Checks                                                0                 0                  0                    0
 F3882 – Uniformed Services Thrift Savings Plan Suspense                                  0                 0                  0                    0
 F3885 – Interfund/IPAC Suspense                                                          0                 0                  0                    0
 F3886 – Thrift Savings Plan Suspense                                                     0                 0                  0                    0

 Total                                                                        $           0      $          0       $          0   $                0



Disclosures Related to Problem Disbursements and In-Transit Disbursements

 As of September 30                                                                                                                      (Decrease)/
                                                               2004                      2005                       2006                Increase from
                                                                                                                                       FY 2005 to 2006
 ($ in thousands)
 1. Total Problem Disbursements, Absolute Value
    A. Unmatched Disbursements (UMDs)                      $          4,713        $           60,443           $          8,377         $      -52,066
    B. Negative Unliquidated Obligations (NULO)                       4,255                     2,405                        717                 -1,688
 2. Total In-transit Disbursements, Net                    $     415,522           $          346,640           $        189,863         $     -156,777




126
                                                                  2006 Annual Financial Statement


A UMD occurs when a payment is not matched to a corresponding obligation in the accounting system. Absolute
value is the sum of the positive values of debit and credit transactions without regard to the sign (plus or minus).

A NULO occurs when a payment is made against a valid obligation, but the payment is greater than the amount
of the obligation recorded in the official accounting system. These payments have been made using available
funds and are based on valid receiving reports for goods and services delivered under valid contracts.

The In-transit Disbursements, Net represent the net value of disbursements and collections made by a DOD dis-
bursing activity on behalf of an accountable activity and have not been posted to the accounting system.

Fluctuations
The AFWCF had a $53.8 million decrease in problem disbursements and a $156.8 million decrease in in-transits.
The decrease in in-transits of $156.8 million can be attributed to an accounting station merger which reduced
intraservice (Air Force to Air Force) disbursement activity.

The decrease of $52.1 million in UMDs and the $1.7 million in NULOs can be attributed to a 25% increase in the
rate of automated posting of disbursements since May 2005 when various system enhancements (e.g. DFAS
Transaction Interface Module) were implemented. During implementation phase in FY 2005, a backlog developed
compared to FY 2004.

The AFWCF has no problem disbursements related to Foreign Military Sales. In addition, there are no discrepan-
cies between the amounts reported and the problem disbursement metric.

Note 4. Investments and Related Interest
Not Applicable.

Note 5. Accounts Receivable

 As of September 30                                                   2006                                  2005
                                               Gross Amount     Allowance For        Accounts          Accounts
                                                                  Estimated
                                                   Due                             Receivable, Net   Receivable, Net
                                                                Uncollectibles
 ($ in thousands)

 1. Intragovernmental Receivables                $    420,073                N/A      $    420,073      $      510,560
 2. Nonfederal Receivables (From the Public)     $    232,314     $            0      $    232,314      $      219,929
 3. Total Accounts Receivable                    $    652,387     $            0      $    652,387      $      730,489


Fluctuations
The Air Force Working Capital Fund (AFWCF) had a $90.5 million (18%) decrease in Intragovernmental
Receivables. Of the decrease, $65.4 million is due to Information Services Activity Group discontinuing opera-
tions in September 2005. During FY 2006, remaining unfilled customer orders and balance sheet accounts are
being liquidated in preparation for account closure in FY 2007.




                                                                                                                       127
      United States Air Force


Information Related to Accounts Receivables
Allocation of Undistributed Collections

The Department of Defense (DoD) policy is to allocate supported undistributed collections between federal and
nonfederal categories based on the percentage of federal and nonfederal accounts receivable. Unsupported
undistributed collections are recorded in United States Standard General Ledger (USSGL) account 2400, Liability
For Deposit Funds, Clearing Accounts, and Undeposited Collections. The AFWCF followed this allocation proce-
dure, applying $467.3 thousand in undistributed collections to accounts receivable and recording $805.7 thousand
of unsupported undistributed to USSGL account 2400.

Elimination Adjustments

Accounts receivable within the AFWCF have been eliminated for statement presentation purposes. The total
value of the receivables that were eliminated on these financial statements is $312.6 million.

Aged Accounts Receivable

 As of September 30                                         2006                                  2005
                                                Intra-                                Intra-
                                                                   Nonfederal                            Nonfederal
                                             governmental                          governmental
 ($ in thousands)

 CATEGORY
 Nondelinquent
  Current                                      $   727,179          $    220,312     $   838,289          $    205,913
  Noncurrent                                             0                     0             138                     0
 Delinquent
  1 to 30 days                                 $       624          $        436     $      -797          $        372
  31 to 60 days                                      2,353                   264             343                   366
  61 to 90 days                                      2,323                   936            -304                   181
  91 to 180 days                                      -521                   718             741                   556
  181 days to 1 year                                   129                 3,656             -44                 9,116
  Greater than 1 year and less
  than or equal to 2 years                           1,023                 5,274           4,556                 2,224
  Greater than 2 years and less
  than or equal to 6 years                              13                  651                   6               799
  Greater than 6 years and less
  than or equal to 10 years                               0                  125                0                  131
  Greater than 10 years                                   0                    3                0                    3
 Subtotal                                      $    733,123         $    232,375     $    842,928         $    219,661
  Less Supported Undistributed Collections             -467                    0              332                  277
  Less Eliminations                                -312,643                    0         -332,709                    0
  Less Other                                             60                  -61                9                   -9
 Total                                         $    420,073         $    232,314     $    510,560         $    219,929



The AFWCF currently has no nondelinquent receivables over 30 days. The FY 2005 noncurrent amount was
reported in error and should have been included with delinquent receivables.

Delinquent accounts receivables are referred to either Columbus Contract Debt Collection Office or the Defense
Debt Management System at the Defense Finance and Accounting Service - Denver for collection action.




128
                                                                  2006 Annual Financial Statement


All abnormal amounts in the above schedule are due to accounting posting errors in accounts receivable sub-
sidiary ledgers. All prior year errors have been corrected and the $520.5 thousand in the 91-180 day category
was corrected in October 2006.

The "Other" Line represents intragovernmental receivables that were incorrectly reported on the monthly report
on receivables as public.

Note 6. Other Assets

 As of September 30                                                            2006                2005
 ($ in thousands)
 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                           $           5,218   $           48,515
    B. Other Assets                                                                       0                    0
    C. Total Intragovernmental Other Assets                               $           5,218   $           48,515
 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                            $        177,481    $              0
    B. Other Assets (With the Public)                                              363,662             440,337
    C. Total Nonfederal Other Assets                                      $        541,143    $        440,337
 3. Total Other Assets                                                    $        546,361    $        488,852

Fluctuations and Abnormalities
Intragovernmental other assets
The $43.3 million (89%) decrease to Intragovernmental Other Assets is primarily due to an advance that was
recorded in error in September 2005. The Air Force General Fund recorded an advance from Depot
Maintenance Activity Group (DMAG) for $47.9 million. The correction was processed and the advance was
reversed in the Air Force Working Capital Fund (AFWCF) in October 2005.

Nonfederal other assets
Nonfederal Other Assets increased $100.8 million (23%). Outstanding Contract Financing Payments increased
$177.5 million which was offset by a decrease in Other Assets (With the Public) of $76.6 million.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the
Department that protect the contract work from state or local taxation, liens or attachment by the contractor's
creditors, transfer of property, or disposition in bankruptcy; however, these rights should not be misconstrued to
mean that ownership of the contractor's work has transferred to the Government. The government does not
have the right to take the work, except as provided in contract clauses related to termination or acceptance, and
the Department is not obligated to make payment to the contractor until delivery and acceptance of a satisfactory
product.

Outstanding Contract Financing Payments increased $177.5 million. The contract financing payment balance of
$177.5 million is comprised of $139.8 million in contract financing payments and an additional $37.7 million in
estimated future funded payments that will be paid to the contractor upon future delivery and Government
acceptance of a satisfactory product (See additional discussion in Note 15, Other Liabilities).

The increase of $139.8 million is due to a reclassification of other assets that occurred for the first time in the
2nd Quarter, FY 2006. A portion of the AFWCF advances were determined to be financing payments on long



                                                                                                                   129
      United States Air Force


term contracts. For reporting periods prior to 2nd Quarter, 2006 they were reflected as Other Assets (With
the Public). The $37.7 million increase in estimated future funded payments is due to guidance issued in the
4th Quarter 2006, by the Office of the Under Secretary of Defense, Comptroller to recognize a contingent lia-
bility for the estimated future contract financing payments that will be paid to the contractor upon delivery
and Government acceptance of a satisfactory product. Based on the new requirement, there was no accrual
for FY 2005.

Other Assets (With the Public) had a decrease of $76.6 million, which is the result of three events. The composi-
tion of Other Assets (With the Public) is reflected in the schedule below.

Line 2.B. Nonfederal Other Assets - Other Assets (With the Public)

 Types of Asset
 As of September 30                                                                     2006              2005
 ($ in thousands)
 Advances -
   SMAG - Advances and Prepayments to Contractors                                        $214,798          $149,759
   SMAG – Contract Financing Payments                                                           0           167,896

  Total Advances                                                                          214,798           317,655

 Other Assets -
   SMAG - Other assets returns to vendors pending credit                                  147,218           122,167
   DMAG – Unallocated labor and materials                                                   1,646               515

 Total Other Assets                                                                       148,864           122,682

 Total Nonfederal Other Assets                                                           $363,662          $440,337

The first event is an increase of $65.0 million in the Supply Management Activity Group (SMAG) advances to con-
tractors for intransit inventory. This increase is the result of a systematic issue within the Financial Inventory
Accounting and Billing System (FIABS). When FIABS was converted to Standard General Ledger Programming in
October of 2003, intransit inventory was split so that the portion of inventory that had already been billed but not
received was recorded as an advance to contractors. The advances values have been slowly increasing since
October 2004, and it is believed that the system is not computing and updating the billed not received values cor-
rectly. To properly identify the valid amounts, hard copy source documents are being reconciled with an expect-
ed completion date of 1st Quarter, FY 2007.

The second event is the reclassification of contract financing payments as discussed in the table on page 1, Line
2A under Non Federal Other Assets. This reclassification resulted in a decrease of $167.9 million, which was the
4th Quarter, FY 2005 outstanding advances amounts.

The third event is an increase of $25.1 million in SMAG returns awaiting the vendor to process a credit. The main
contributor to this increase was shipments not credited for the Material Support Division in the amount of $27.7 mil-
lion. Prior to FY 2006 these could not be validated due to the limited availability of transaction level detail. In 1st
Quarter, FY 2006 a reconciliation/validation tool was implemented resulting in accurate balances in FY 2006.

Note 7. Cash and Other Monetary Assets
Not Applicable.



130
                                                                                                   2006 Annual Financial Statement


Note 8. Direct Loan and/or Loan Guarantee Programs
Direct Loan and/or Loan Guarantee Programs - The entity operates the following direct loan and/or
Loan guarantee program(s):
        Military Housing Privatization Initiative
        Armament Retooling & Manufacturing Support Initiative


Note 9. Inventory and Related Property

 As of September 30                                                                                                2006                            2005
 ($ in thousands)

 1. Inventory, Net                                                                                         $          34,170,548         $           32,319,057
 2. Operating Materials & Supplies, Net                                                                                  360,328                        382,632
 3. Stockpile Materials, Net                                                                                                   0                              0
 4. Total                                                                                                  $          34,530,876         $           32,701,689


Inventory, Net

 As of September 30                                                                     2006                                          2005
                                                               Inventory,            Revaluation               Inventory,          Inventory,        Valuation
                                                              Gross Value            Allowance                    Net                  Net            Method
 ($ in thousands)

 1. Inventory Categories
    A. Available and Purchased for Resale                 $       23,973,248     $           -9,942    $       23,963,306      $      22,702,208     LAC, MAC
    B. Held for Repair                                            14,131,014             -4,222,717             9,908,297              9,372,433     LAC, MAC
    C. Excess, Obsolete, and Unserviceable                           826,866               -826,866                     0                      0       NRV
    D. Raw Materials                                                       0                      0                     0                      0    MAC, SP, LAC
    E. Work in Process                                               298,945                      0               298,945                244,416        AC
 F. Total                                                 $       39,230,073     $       -5,059,525    $       34,170,548      $      32,319,057
     Legend for Valuation Methods:
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                        NRV = Net Realizable Value
 SP = Standard Price                                                                                  O = Other
 AC = Actual Cost                                                                                     MAC = Moving Average Cost



Fluctuations
Net Inventory increased $1.9 billion (6%) primarily due to a $1.0 billion increase in the Material Support Division
(MSD) and a $673.6 million increase in the General Support Division (GSD) within the Supply Management
Activity Group.

Available and purchase for resale increased $1.3 billion primarily due to MSD physical inventory counts and GSD
reconciling inventory transfers between storage facilities. During 2006, physical inventory counts and inspections
identified $410 million of MSD inventory not recorded in accounting records. Due to a significant decrease in
GSD's inventory value when compared to FY 2004, a reconciliation of inventory transfers between storage facili-
ties was conducted in FY 2006. The analysis determined inventory transfers were being adjusted incorrectly
resulting in $660 million of inventory not being recorded. In August 2006, the reconciliation was completed and a
journal voucher was processed to correct the value of GSD inventory.




                                                                                                                                                                 131
      United States Air Force


Held for repair increased $535.9 million due to MSD physical inventory counts and spare parts being pulled from
retired aircraft in FY 2006. The physical inventory counts and inspections identified $295 million of inventory not
recorded in accounting records. Parts reclamation was conducted on retired C-5 aircraft, effectively returning
$236 million of parts to inventory.

The Depot Maintenance Activity Group (DMAG) increased $54.5 million in Work in Progress (WIP). In FY 2006,
Contract DMAG had a $44 million increase in WIP due to ongoing reconciliation efforts to accurately reflect
account balances in preparation for Contract DMAG closure in FY 2010.

There are no restrictions on the use, sale, or disposition of inventory except in the following situations:
1) Distributions without reimbursement are made when authorized by Department of Defense (DoD) directives.

2) War Reserve Material includes fuels and subsistence items that are considered restricted.

3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private par-
   ties, and contractors in accordance with current policies and guidance or at the direction of the President.

Definitions
Inventory available and purchased for resale includes consumable spare and repair parts as well as repairable
items owned and managed by the Department. Material available and purchased for resale includes material held
due to a managerial determination that it should be retained to support military or national contingencies.

Inventory held for repair is damaged inventory that requires repair to make it suitable for sale. Many of the inventory
items are more economical to repair than to procure. In addition, because the Department often relies on weapon
systems and machinery no longer in production, the Department supports a process that encourages the repair and
rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and armed military force.

Excess, obsolete, and unserviceable inventory consists of scrap materials or items that cannot be economically
repaired and are awaiting disposal. Potentially reusable material, presented in previous years as excess, obsolete,
and unserviceable, is included in the held for use or held for repair categories, according to its condition.

Work in process balances include costs related to the production or servicing of items, including direct material,
direct labor, applied overhead, and other direct costs. Work in process also includes the value of finished prod-
ucts or completed services pending the submission of bills to the customer. The work in process designation may
also be used to accumulate the amount paid to a contractor under cost-reimbursable contracts, including the
amount withheld from payment to ensure performance and the amount paid to other government plants for
accrued costs of end-items of material ordered but not delivered.

General Composition of Inventory
Inventory includes spare and repair parts, clothing and textiles, fuels, and ammunition. Inventory is tangible per-
sonal property that is (1) held for sale or held for repair for eventual sale, (2) in the process of production for
sale, or (3) to be consumed in the production of goods for sale or in the provision of services for a fee.

The category inventory held for repair consists of damaged material that requires repair to make it usable.
Excess inventory is condemned material that must be retained for management purposes. The category held for
sale includes all issuable material. The category held for repair includes all economically reparable material. Work
in process includes depot maintenance work with its associated labor, applied overhead, and supplies used in the
delivery of maintenance services. The U.S. Standard General Ledger does not include a separate work in process



132
                                                                                        2006 Annual Financial Statement


account unrelated to sales. Inventory is assigned to categories based on guidance in the DoD Financial
Management Regulation, Volume 11B.

Operating Materials and Supplies, Net

 As of September 30                                                                 2006                                    2005
                                                                 OM&S            Revaluation                                           Valuation
                                                                                                  OM&S, Net          OM&S, Net
                                                               Gross Value       Allowance                                              Method
 ($ in thousands)
 1. OM&S Categories
    A. Held for Use                                            $       360,328   $         0     $         360,328   $       382,632   SP, LAC
    B. Held for Repair                                                       0             0                     0                 0   SP, LAC
    C. Excess, Obsolete, and Unserviceable                                   0             0                     0                 0    NRV
    D. Total                                                   $       360,328   $         0     $         360,328   $       382,632

 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                 NRV = Net Realizable Value
 SP = Standard Price                                                                           O = Other
 AC = Actual Cost



General Composition of Operating Materials and Supplies
OM&S include spare and repair parts. The OM&S data reported on the financial statements are derived from
logistics systems designed for material management purposes, i.e. accountability and visibility. The reported bal-
ances from these systems are not recorded at historical cost, in conformance with the valuation requirements in
the Statement of Federal Financial Accounting Standard (SFFAS) No. 3, "Accounting for Inventory and Related
Property." Instead, the Air Force uses standard price to value OM&S without computing unrealized holding gains
or losses. Furthermore, past audit results have led to uncertainties pertaining to the completeness and existence
of the OM&S quantities used to derive the balances reported in the financial statements.

For the most part, DMAG uses the consumption method of accounting for OM&S, since OM&S is defined in the
SFFAS No. 3 as material which has not yet been issued to the end user. Once issued, the material is expensed.
As stated above, current financial and logistics systems cannot fully support the consumption method. According
to federal accounting standards, the consumption method of accounting should be used to account for OM&S
unless (1) the amount of OM&S is not significant, (2) OM&S are in the hands of the end user for use in normal
operations, or (3) it is cost-beneficial to expense OM&S when purchased (purchase method). The DoD, in con-
sultation with its auditors, is (1) developing specific criteria for determining when OM&S amounts are not signifi-
cant for the purpose of using the consumption method, (2) developing functional requirements for feeder systems
to support the consumption method, (3) identifying feeder systems that are used to manage OM&S items, and (4)
developing plans to revise those systems to support the consumption method. The department reported signifi-
cant amounts using the purchase method either because the systems could not support the consumption method
or because management deems that the item is in the hands of the end user.

There are no restrictions on the use of OM&S.




                                                                                                                                                   133
          United States Air Force



Stockpile Materials, Net

 As of September 30                                                                               2006                                            2005
                                                                       Stockpile                Allowance             Stockpile              Stockpile            Valuation
                                                                    Materials Amount        for Gains (Losses)       Materials, Net         Materials, Net         Method
 ($ in thousands)                   (m(
 1. Stockpile Materials Categories
    A. Held for Sale                                                 $                  0    $                   0     $           0          $               0   AC, LCM
    B. Held in Reserve for Future Sale                                                  0                        0                 0                          0   AC, LCM
    C. Total                                                         $                  0    $                   0     $           0          $               0
 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                                   NRV = Net Realizable Value
 SP = Standard Price                                             LCM = Lower of Cost or Market
 AC = Actual Cost                                                O = Other

The Air Force Working Capital Fund has no Stockpile Materials.

Note 10. General PP&E, Net

   As of September 30                                                                                2006                                                         2005
                                                          Depreciation/                                          (Accumulated
                                                                              Service            Acquisition                               Net Book           Prior FY Net
                                                          Amortization                                           Depreciation/
                                                                               Life                Value                                    Value             Book Value
                                                            Method                                               Amortization)
 ($ in thousands)
 1. Major Asset Classes
    A. Land                                                   N/A               N/A          $               0               N/A   $                  0   $                0
    B. Buildings, Structures, and Facilities                  S/L            20 or 40                  896,080   $      -577,350                318,730              313,956
    C. Leasehold Improvements                                 S/L           lease term                       0                 0                      0                    0
    D. Software                                               S/L            2-5 or 10               1,045,037          -739,755                305,282              342,075
    E. General Equipment                                      S/L             5 or 10                2,081,890        -1,579,536                502,354              511,315
    F. Military Equipment                                     S/L             Various                        0                 0                      0                    0
    G. Assets Under Capital Lease                             S/L           lease term                       0                 0                      0                    0
    H. Construction-in-Progress                               N/A               N/A                     42,799               N/A                 42,799               38,210
    I. Other                                                                                                 0                 0                      0                    0
 2. Total General PP&E                                                                       $       4,065,806   $    -2,896,641       $      1,169,165   $        1,205,556

   Note 15 for additional information on Capital Leases
 [1]

 Legend for Valuation Methods:
 S/L = Straight Line     N/A = Not Applicable



Information Related to General PP&E, Net
Real property reported by the Automated Civil Engineering System (ACES), equipment reported by the Air
Force Equipment Management System (AFEMS) and Information Processing Management System (IPMS) have
not been validated and reconciled. The Depot Maintenance Air Logistic Centers (ALC) and Aerospace
Maintenance and Regeneration Center (AMARC) use ACES to capture the costs of real property based on pre-
ponderance of use for each building. The ALC's and AMARC use the straight-line method for recording depre-
ciation maintained on spreadsheets in place of the ACES schedule. The accounting entries are recorded directly
into the field-level trial balances.

The value of Air Force General PP&E in the possession of contractors is included in the value reported above for
the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value of General PP&E (Major Asset
Classes of Software and Equipment) does not include all of the General PP&E in the possession of contractors
that is above the Department of Defense (DoD) capitalization threshold. The net book amount of such property
is immaterial in relation to the total General PP&E net book value. In accordance with a strategy approved by the
Office of Management and Budget, the Government Accountability Office, and the DoD Inspector General, DoD




134
                                                                        2006 Annual Financial Statement


is developing new policies and a contractor-reporting process to capture General PP&E information for future
reporting purposes in compliance with generally accepted accounting practices.

Past audit results have identified uncertainties as to whether all General PP&E assets in the possession or control
(existence) of the Department are properly and accurately recorded in the system (completeness).

There are no restrictions on the use or convertibility of General PP&E.

Note 11. Liabilities Not Covered by Budgetary Resources

 As of September 30                                                                         2006                   2005
 ($ in thousands)
 1. Intragovernmental Liabilities
    A. Accounts Payable                                                           $                    0   $                0
    B. Debt                                                                                            0                    0
    C. Other                                                                                           0                    0
    D. Total Intragovernmental Liabilities                                        $                    0   $                0
 2. Nonfederal Liabilities
    A. Accounts Payable                                                           $                    0   $                0
    B. Military Retirement and Other Federal Employment Benefits                                 227,035              233,713
    C. Environmental Liabilities                                                                       0                    0
    D. Other Liabilities                                                                               0                    0
    E. Total Nonfederal Liabilities                                               $              227,035   $          233,713
 3. Total Liabilities Not Covered by Budgetary Resources                          $            227,035     $          233,713
 4. Total Liabilities Covered by Budgetary Resources                              $          2,037,616     $        2,282,258
 5. Total Liabilities                                                             $          2,264,651     $        2,515,971

Information Related to Liabilities Not Covered by Budgetary Resources
Line 2.B. represents the Actuarial Federal Employee Compensation future liabilities as provided annually by the
Department of Labor.

Note 12. Accounts Payable

 As of September 30                                                      2006                                       2005

                                                    Accounts       Interest, Penalties,
                                                                   and Administrative              Total            Total
                                                     Payable
                                                                          Fees
 ($ in thousands)

 1. Intragovernmental Payables                  $       171,623     $                 N/A    $       171,623   $      199,650
 2. Nonfederal Payables (to the Public)                 494,347                         0            494,347          546,739
 3. Total                                       $       665,970     $                   0    $       665,970   $      746,389



Fluctuations and Abnormalities
Intragovernmental payables decreased by $28.0 million (14%). This decrease is primarily due to a $27.1 million
decrease in Contract Depot Maintenance Activity Group (CDMAG) at Ogden Air Logistic Center (OO-ALC).
This decrease is due to an adjustment processed in July of 2006 to correct an erroneous account balance. During
FY 2006, OO-ALC began an effort to reconcile the accounts payable subsidiary ledger to the trial balance. The
analysis specifically identified $34.0 million in month end disbursement reconciliation adjustments that were



                                                                                                                            135
      United States Air Force


processed in FY 2005 that erroneously reduced an other liability account in lieu of accounts payable. An adjust-
ment was processed in July of 2006 to correct the error, resulting in an overall decrease in Ogden's
Intragovernmental Accounts Payable.

Public payables decreased $52.4 million (10%), which was primarily due to three events.

The first event was a $153.6 million decrease in the Information Services Activity Group (ISAG). At the end of FY
2005, ISAG discontinued activity operations. During FY 2006, remaining unfilled customer orders and balance
sheet accounts are being liquidated in preparation for account closure in FY 2007.

The second event was a $125.4 million increase due to the write-off of unsupported undistributed disburse-
ments in September 2006 based upon the Office of Secretary of Defense Comptroller guidance directing stabi-
lized unsupported amounts should be written off. Undistributed disbursements are treated as an offset to
accounts payable.

The third event was a $21.2 million decrease in public payables in the General Support Division (GSD) which was
caused by an adjustment processed in July of 2006. In a review of the nonfederal payables, it was determined
that transactions for the Defense Logistic Centers had erroneously updated the nonfederal accounts payable in
lieu of the intragovernmental accounts payable. These erroneous transactions were properly recorded in
intragovernmental payables in July of 2006, resulting in the decrease in nonfederal payables.

Undistributed Disbursements
Undistributed disbursements consist of the difference between (1) disbursements/collections recorded at the
transaction level to a specific obligation, payable, or receivable in the activity field records, and (2) those disburse-
ments/collections reported by the U.S. Treasury. In-transit payments are payments that have been made for
other agencies or entities that have not been recorded in their accounting records. These payments are applied
to each entity's outstanding accounts payable balance at year-end. Accounts payable were adjusted downward in
the amount of $166.9 million for these payments.

Allocation of Undistributed Disbursements
The Department of Defense (DoD) policy is to allocate supported undistributed disbursements between
intragovernmental and nonfederal categories based on the percentage of intragovernmental and nonfederal
accounts payable. Unsupported undistributed disbursements should be recorded in U.S. Standard General
Ledger account (USSGLA) 2120, Disbursements in Transit. The AFWCF followed this allocation policy reporting
$14.5 million in USSGLA 2120.

Note 13. Debt
Not Applicable.

Note 14. Environmental Liabilities and Disposal Liabilities
Not Applicable.




136
                                                                                 2006 Annual Financial Statement


Note 15. Other Liabilities
 As of September 30                                                                 2006                                2005
                                                            Current              Noncurrent
                                                                                                      Total             Total
                                                            Liability             Liability
 ($ in thousands)
 1. Intragovernmental
    A. Advances from Others                             $          163,617   $                0   $       163,617   $           136,241
    B. Deposit Funds and Suspense Account Liabilities                    0                    0                 0                     0
    C. Disbursing Officer Cash                                           0                    0                 0                     0
    D. Judgment Fund Liabilities                                         0                    0                 0                     0
    E. FECA Reimbursement to the Department of Labor                     0                    0                 0                     0
    F. Other Liabilities                                            10,599                    0            10,599                10,297
    G. Total Intragovernmental Other Liabilities        $          174,216   $                0   $       174,216   $           146,538
 2. Nonfederal
    A. Accrued Funded Payroll and Benefits              $          147,711   $                0   $       147,711   $           129,479
    B. Advances from Others                                          5,215                    0             5,215                 8,570
    C. Deferred Credits                                                  0                    0                 0                     0
    D. Deposit Funds and Suspense Accounts                             806                    0               806                54,771
    E. Temporary Early Retirement Authority                              0                    0                 0                     0
    F. Non-environmental Disposal Liabilities
       (1) Military Equipment (Nonnuclear)                               0                    0                 0                  0
       (2) Excess/Obsolete Structures                                    0                    0                 0                  0
       (3) Conventional Munitions Disposal                               0                    0                 0                  0
    G. Accrued Unfunded Annual Leave                                     0                    0                 0                  0
    H. Capital Lease Liability                                           0                    0                 0                  0
    I. Other Liabilities                                         1,006,017               37,681         1,043,698          1,196,511
    J. Total Nonfederal Other Liabilities               $        1,159,749   $           37,681   $     1,197,430   $      1,389,331
 3. Total Other Liabilities                             $        1,333,965   $           37,681   $     1,371,646   $      1,535,869



Fluctuations and Abnormalities
Intragovernmental Other Liabilities increased $27.7 million (19%) due to the following events:

The Intragovernmental Advances from Others increased $27.4 million (20%) which is caused by a $28.0 million
increase in the Depot Maintenance Activity Group (DMAG). In FY 2006 progress billings increased $15.1 million
at Oklahoma City and $14.5 million at the Ogden Air Logistic Centers as a result of increased customer orders
within their respective Contract DMAG programs.

Nonfederal Other Liabilities decreased $191.9 million (14%) due to the following events:

Accrued Funded Payroll and Benefits increased $18.2 million (14%) due to increases in DMAG benefits in
FY 2006. Benefits are increasing due to increased contributions to Federal Employee Retirement System (FERS)
and Thrift Saving Plan. This trend is expected to continue as Civil Service Retirement System workers retire and
are replaced with employees enrolled in FERS.

Advances from Others decreased $3.4 million (39%) due to the continued reduction in the backlog of DMAG
advances. The backlog occurred in FY 2004 with the implementation of the Defense Industrial Fund Financial
Management System (DIFMS). DIFMS was not designed to bill private party billings at a fixed price, thus resulting
in an increase in the advances account throughout all of FY 2004. A systems release was installed to correct the
report during the first quarter of FY 2005 so current private party bills could be processed. However, the release
did not provide functionality to process the older contracts and a backlog continued to exist in the account
throughout FY 2005. This backlog has been steadily worked off and the account is now at a normal balance.




                                                                                                                                      137
      United States Air Force


Deposits Funds and Suspense Accounts decreased $54.0 million (99%) was due to write-off of unsupported
undistributed collections in September 2006 based upon the Office of the Secretary of Defense Comptroller guid-
ance directing stabilized unsupported amounts should be written off.

Other Liabilities decreased $152.8 million (13%) as follows:

Information Related to Other Liabilities
 As of September 30
 ($ in thousands)                                                          FY 2006                FY 2005

 Misc. Liabilities                                                   $                239    $                500

 DMAG – WIP Accrued Expenses                                                     967,461               1,161,308

 SMAG – Future Purchase - Foreign Military Sales                                  28,376                    28,377

 SMAG – Other Accrued Liabilities                                                    9,941                   6,326

 MOCAS/Contract Financing Payments                                                37,681                        0

 Total                                                               $         1,043,698     $         1,196,511


The DMAG accrued expenses decreased $193.8 million. In FY 2006 Contract DMAG had a net change of $202.6
million in accrued expenses due to the reconciliation of production complete contracts. This reconciliation effort
will continue to decrease accrued liabilities in preparation for Contract DMAG closure in FY 2010.

The Supply Management Activity Group (SMAG) future purchase - foreign military sales consist of money that
various countries have deposited with the SMAG as a buy-in on future purchases they plan to make under the
foreign military sales program. These funds are considered a liability as the funds are returned if the countries do
not make future purchases. Revenue is not recognized on these transactions until the purchase takes place.

The Mechanization of Contract Administration Services (MOCAS)/Contract Financing Payments include $37.7
million in estimated future contract financing payments that will be paid to the contractor upon delivery and
Government acceptance of a satisfactory product. In accordance with contract terms, specific rights to the con-
tractor's work vests with the Government when a specific type of contract financing payments is made, thereby
protecting taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as
the rights of ownership. The Department is under no obligation to pay the contractor for amounts greater than
the amounts authorized in the contract until delivery and Government acceptance of a satisfactory product.
Since it is probable that the contractor will complete its efforts and deliver a satisfactory product to the
Department and the amount of potential future payment are estimable; the Department has recognized a con-
tingent liability for estimated future payments, which are conditional pending delivery and Government accept-
ance of a satisfactory product.

Note 16. Commitments and Contingencies
Not Applicable.




138
                                                                              2006 Annual Financial Statement


Note 17. Military Retirement and Other Federal Employment Benefits

 As of September 30                                                                   2006                                         2005
                                                                        Assumed         (Less: Assets
                                                     Present Value of                                         Unfunded         Present Value
                                                                      Interest Rate    Available to Pay
                                                         Benefits                                              Liability        of Benefits
                                                                           (%)            Benefits)
 ($ in thousands)
 1. Pension and Health Actuarial Benefits
    A. Military Retirement Pensions                   $             0                   $                 0   $            0   $           0
    B. Military Retirement Health Benefits                          0                                     0                0               0
    C. Military Medicare-Eligible Retiree Benefits                  0                                     0                0               0
    D. Total Pension and Health Actuarial Benefits    $             0                  $                  0   $            0   $           0
 2. Other Actuarial Benefits
    A. FECA                                           $       227,035                   $                 0   $   227,035      $     233,713
    B. Voluntary Separation Incentive Programs                      0                                     0             0                  0
    C. DoD Education Benefits Fund                                  0                                     0             0                  0
    D. Total Other Actuarial Benefits                 $       227,035                  $                  0   $   227,035      $     233,713
 3. Other Federal Employment Benefits                 $             0                  $                  0   $            0   $           0
 4. Total Military Retirement and Other Federal
    Employment Benefits:                              $       227,035                  $                  0   $   227,035      $     233,713


Military Retirement Pensions
The Air Force Working Capital has no Military Retirement Pensions.

Military Retirement Health Benefits
The Air Force Working Capital Fund has no Military Retirement Health Benefits

Federal Employees Compensation Act (FECA)
The Air Force Working Capital Fund's (AFWCF) actuarial liability for workers' compensation benefits is devel-
oped by the Department of Labor and provided to the AFWCF at the end of each fiscal year. The FECA is not
related to and should not be misinterpreted to represent the Federal Unemployment Compensation Act. The
liability includes the expected liability for death, disability, medical, and miscellaneous costs for approved com-
pensation cases, plus a component for incurred but not reported claims. The liability is determined using a
method that utilizes historical benefit payment patterns related to a specific incurred period to predict the ulti-
mate payments. The projected annual benefit payments have been discounted to present value using the
Office of Management and Budget's (OMB's) economic assumptions for 10-year Treasury notes and bonds.
Cost-of-living adjustments and medical inflation factors are also applied to the calculation of projected future
benefits.

The liability for future workers' compensation (FWC) benefits includes the expected liability for death, disabili-
ty, medical, and miscellaneous costs for approved compensation cases, plus a component for incurred but not
reported claims. The liability is determined using a method that utilizes historical benefit payment patterns
related to a specific incurred period to predict the ultimate payments related to that period. Consistent with
past practice, these projected annual benefits payments have been discounted to present value using the




                                                                                                                                           139
      United States Air Force


OMB's economic assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized for dis-
counting were as follows:

                                                 2006
                                           5.170% in Year 1
                                           5.313% in Year 2
                                             And thereafter

To provide more specifically for the effects of inflation on the liability for future workers' compensation benefits,
wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index
medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors
for the charge back year (CBY) 2006 were also used to adjust the methodology's historical payments to current
year constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as
follows:

                                   CBY               COLA             CPIM
                                   2006              3.50%            4.00%
                                   2007              3.13%            4.01%
                                   2008              2.40%            4.01%
                                   2009              2.40%            4.013%
                                   2010+             2.43%            4.09%

The model's resulting projections were analyzed to insure that the estimates were reliable. The analysis was
based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the per-
centage change in the liability amount by agency to the percentage change in the actual incremental payments, (3)
a comparison of the incremental paid loses per case (a measure of case-severity) in CBY 2006 to the average pat-
tern observed during the most current three charge back years, and (4) a comparison of the estimated liability
per case in the 2006 projection to the average pattern for the projections of the most recent three years.

Note 18. General Disclosures Related to the Statement of Net Cost
Intragovernmental Costs and Exchange Revenue

 As of September 30                                                           2006                  2005
 ($ in thousands)
 1. Intragovernmental Costs                                             $        4,748,892    $         5,312,717
 2. Public Costs                                                                 3,923,068              5,201,477
 3. Total Costs                                                         $        8,671,960    $        10,514,194
 4. Intragovernmental Earned Revenue                                    $      -10,105,650    $       -10,643,243
 5. Public Earned Revenue                                                         -677,373               -771,703
 6. Total Earned Revenue                                                $      -10,783,023    $       -11,414,946
 7. Net Cost of Operations                                              $       -2,111,063    $          -900,752




140
                                                                 2006 Annual Financial Statement


Fluctuations and Abnormalities
Gross Costs
Gross Costs had a decrease of $1.8 billion (18%).

Intragovernmental Costs decreased by $563.8 million due to the following events.

$141.3 million decrease is attributed to an error in the revenues reported by the Army Working Capital Fund in
FY 2005. During the last two quarters of FY 2005, Tobyhanna Army Depot implemented a new accounting sys-
tem and they believe the numbers provided were overstated due to system implementation problems. The FY
2006 amounts provided were verified by the Tobyhanna Army Depot as correct.

$39.1 million decrease in the Information Services Activity Group (ISAG) was due to the removal of ISAG from
the Air Force Working Capital Fund (AFWCF) at the end of FY 2005. In FY 2006, no new customer orders were
started. Remaining unfilled customer orders and balance sheet accounts are being liquidated in preparation for
account closure in FY 2007.

The remaining decrease of $383.4 million is primarily due to a reduction in revenues reported by the Defense
Logistics Agency (DLA). AFWCF purchases, both inventory and services such as transportation, storage and ware-
house issues/receipts from DLA. Due to trading partner eliminations, AFWCF is required to balance with DLA's
revenue. In comparison to FY 2005, The Air Force has purchased the same level of services and inventory for
resale in FY 2006. After a review of the FY 2006 business events, AFWCF does not agree with DLA's reported
revenue reduction and a reconciliation will be performed in the 1st quarter of FY 2007.

Public Costs had a $1.3 billion decrease primarily due to a $636.5 million decrease in the General Support
Division (GSD) and $522.4 million decrease in the ISAG.

The GSD decrease is due to a $660 million reported net gain under Public Costs. In FY 2006, an accounting
adjustment was processed to correct erroneous inventory transfers processed in FY 2005. Due to significant
inventory decreases in comparison to the FY 2004 inventory value, GSD conducted a reconciliation of inventory
transfers between storage facilities in FY 2006. The analysis determined inventory transfers were being adjusted
incorrectly resulting in $660 million of inventory not being recorded. In August 2006, the reconciliation was com-
pleted and a journal voucher was processed to correct the value of GSD inventory. Gains are processed as an
offset within the loss account within the Supply Management Activity Group, thus are included in Gross Costs.

The ISAG decrease was due to the removal of ISAG from the AFWCF as discussed above.

Information Related to the Statement of Net Cost (SoNC)
The Consolidated SoNC in the Federal Government is unique because its principles are based on understanding
the net cost and/or organizations that the Federal Government supports through appropriations or other means.
This statement provides gross and net cost information that can be related to the amount of output or outcome
for a given program and/or organization administered by a responsible reporting entity.




                                                                                                              141
        United States Air Force


While the AFWCF generally records transactions on an accrual basis as is required by generally accepted account-
ing principles, the systems do not always capture actual costs. Information presented on the SoNC is primarily
based on budgetary obligations, disbursements, or collection transactions, as well as information from non-finan-
cial feeder systems.

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the
Federal Government. Public costs and revenues are exchange transactions made between the reporting entity
and a nonfederal entity.

Note 19. Disclosures Related to the Statement of Changes in Net Position

 As of September 30                                                                   2006                                       2005
                                                                     Cumulative Results     Unexpended          Cumulative Results     Unexpended
                                                                       of Operations       Appropriations         of Operations       Appropriations
 ($ in thousands)

 1. Prior Period Adjustments Increases (Decreases) to Net Position
    Beginning Balance
    A. Changes in Accounting Standards                                 $              0    $                0     $      3,632,598    $                0
    B. Errors and Omissions in Prior Year Accounting Reports                          0                     0            7,256,576                     0
    C. Total Prior Period Adjustments                                  $              0    $                0     $     10,889,174    $                0
 2. Imputed Financing
    A. Civilian CSRS/FERS Retirement                                   $         55,234    $                0     $         62,192    $                0
    B. Civilian Health                                                          109,111                     0              105,973                     0
    C. Civilian Life Insurance                                                      264                     0                  269                     0
    D. Judgment Fund                                                                  0                     0                    0                     0
    E. Intraentity                                                                    0                     0                    0                     0
    F. Total Imputed Financing                                         $        164,609    $                0     $        168,434    $                0



Information Related to the Statement of Changes in Net Position
Prior Period Adjustments

The prior period adjustment during FY 2005 was due to the change in the Material Support Division inventory
valuation methodology. The Latest Acquisition Cost in the Standard Base Supply System was converted to
Moving Average Cost historical cost basis valuation which does not require an allowance for gains and losses.
The conversion created a prior period adjustment of approximately $10.8 billion for the elimination of the
allowance for gains and losses, the establishment of an allowance for repairs and the revaluation of the inventory.

Imputed Financing

The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil
Service Retirement System, Federal Employee Retirement System, Federal Employees Health Benefits program,
and the Federal Employee Group Life Insurance program do not fully cover the Government's cost to provide
these benefits. An imputed cost is recognized as the difference between the Government's cost of providing
these benefits to the employees and contributions made by and for them. OPM provides the cost factors to the
Defense Finance and Accounting Service (DFAS) for computation of imputed financing cost. DFAS provides the
costs to OUSD (Personnel and Readiness) for validation. Approved imputed costs are provided to the reporting
components for inclusion in their financial statements.




142
                                                                          2006 Annual Financial Statement


Note 20. Disclosures Related to the Statement of Budgetary Resources

 As of September 30                                                                2006             2005
 ($ in thousands)

 1. Net Amount of Budgetary Resources Obligated for Undelivered Orders
                                                                               $    7,151,764   $     6,937,550
    at the End of the Period
 2. Available Borrowing and Contract Authority at the End of the Period             4,183,095         2,782,392


Information Related to the Statement of Budgetary Resources
Intra-entity Transactions
The Statement of Budgetary Resources (SBR) does not eliminate intra-entity transactions because the statements
are presented as combined and combining.

Apportionment Categories
Office of Management and Budget Circular A-136, specifically requires disclosure of the amount of direct and
reimbursable obligations incurred against amounts apportioned under categories A, B, and exempt from appor-
tionment. This disclosure should agree with the aggregate of the related information as included in each report-
ing entity's SF 133 and in the SBR, lines 8A and 8B. There are no Category A direct or reimbursable obligations.
Category B reimbursable obligations total $15.8 billion. There are no category B direct or exempt obligations.

Undelivered Orders
Undelivered orders presented in the SBR includes undelivered orders-unpaid for both direct and reimbursable
funds.

Spending Authority from Offsetting Collections
Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently
not available (included in the "Adjustments" line on the SBR), are not included in the "Spending Authority from
Offsetting Collections and Adjustments" line on the SBR or the "Spending Authority for Offsetting Collections and
Adjustments" line on the Statement of Financing.

Appropriations Received
The Medical Dental Division of Supply Management received a Congressional appropriation of $43.3 million in
February 2006 to maintain War Readiness Materials. Of this amount, $43.3 million has been obligated as of
September 30, 2006.

Note 21. Disclosures Related to the Statement of Financing
The objective of the Statement of Financing is to reconcile the difference between budgetary obligations and the
net cost of operations reported. Due to the Department of the Air Force's financial system limitations, budgetary
data is not in agreement with proprietary expenses and assets capitalized. Differences between budgetary and
proprietary data constitutes a previously identified deficiency.




                                                                                                              143
      United States Air Force


Other Information Related to the Statement of Financing
Budgetary data is not in agreement with Proprietary Expenses and Assets Capitalized. This causes a difference in
net cost between the Statement of Net Cost (SoNC) and the Statement of Financing. "Resources that finance the
acquisition of assets" is adjusted in order to align the amount of net cost on the Statement of Financing with the
amount reported on the (SoNC). This adjustment was $148.3 million, absolute value.

The following Statement of Financing lines are presented as combined instead of consolidated due to interagency
budgetary transactions not being eliminated:
• Obligations Incurred
• Less: Spending Authority from Offsetting Collections and Recoveries
• Obligations Net of Offsetting Collections and Recoveries
• Less: Offsetting Receipts
• Net Obligations
• Undelivered Orders
• Unfilled Customer Orders

Other "Resources Used to Finance Items not Part of the Net Cost of Operations" includes asset transfers out
from the Air Force Working Capital Fund (AFWCF). At the end of FY 2005, ISAG discontinued activity opera-
tions. During FY 2006, remaining unfilled customer orders and balance sheet accounts are being liquidated in
preparation for account closure in FY 2007. In FY 2006, the Information Services Activity Group transferred gen-
eral equipment to the Air Force General Funds. "Other" resources that do not affect net cost consists of applied
overhead and adjustments to inventory held for repair valuation accounts.

Amounts reported for "Exchange revenue receivable from public" represent a change in public receivables, which
does not have a relationship to liabilities not covered by budgetary resources.

The value for "Other" reported under "Components Requiring or Generating Resources in Future Period" is the
amount for Federal Employees Compensation Act.

The value for "Other" reported under "Components Not Requiring or Generating Resources in Future Period" are
applied overhead, bad debt expense and expenses not requiring budgetary resources.

Note 22. Disclosures Related to the Statement of Custodial Activity
Not Applicable.

Note 23. Earmarked Funds
Not Applicable.

Note 24. Other Disclosures
Not Applicable.




144
            2006 Annual Financial Statement




Working Capital Fund
Consolidating and
Combining Statements




                                        145
      United States Air Force
Consolidating Balance Sheet—Working Capital Fund
As of September 30, 2006 and 2005 ($ in Thousands)

                                                                       Depot               Supply            Information
                                                                    Maintenance          Management            Services
 1. ASSETS (Note 2)
     A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)
           a. Entity                                            $          795,976   $         562,841   $          -15,781
           b. Nonentity Seized Iraqi Cash                                        0                   0                    0
           c. Nonentity-Other                                                    0                   0                    0
        2. Investments (Note 4)                                                  0                   0                    0
        3. Accounts Receivable (Note 5)                                    326,882             400,078               -7,367
        4. Other Assets (Note 6)                                             5,186              81,352                   25
        5. Total Intragovernmental Assets                       $        1,128,044   $       1,044,271   $          -23,123
     B. Cash and Other Monetary Assets (Note 7)                 $                0   $               0   $                0
     C. Accounts Receivable, Net (Note 5)                                   12,042             220,264                    8
     D. Loans Receivable (Note 8)                                                0                   0                    0
     E. Inventory and Related Property, Net (Note 9)                       659,272          33,871,604                    0
     F. General Property, Plant and Equipment, Net (Note 10)             1,035,725             112,945               20,495
     G. Investments (Note 4)                                                     0                   0                    0
     H. Other Assets (Note 6)                                               27,273             513,870                    0
 2. TOTAL ASSETS                                                $        2,862,356   $      35,762,954   $           -2,620
 3. LIABILITIES (Note 11)
     A. Intragovernmental:
        1. Accounts Payable (Note 12)                           $         247,946    $         223,092   $              104
        2. Debt (Note 13)                                                       0                    0                    0
        3. Other Liabilities (Note 15 & 16)                               254,462                1,099                    0
        4. Total Intragovernmental Liabilities                  $         502,408    $         224,191   $              104
     B. Accounts Payable (Note 12)                              $          48,203    $         428,942   $            3,122
     C. Military Retirement and Other Federal                             203,425               23,601                    9
         Employment Benefits (Note 17)
     D. Environmental and Disposal Liabilities (Note 14)                         0                   0                    0
     E. Loan Guarantee Liability (Note 8)                                        0                   0                    0
     F. Other Liabilities (Note 15 and Note 16)                          1,113,355              82,955                  261
 4. TOTAL LIABILITIES                                           $        1,867,391   $         759,689   $            3,496
 5. NET POSITION
     A. Unexpended Appropriations - Earmarked Funds (Note 23)   $                0   $               0   $                0
     B. Unexpended Appropriations - Other Funds                                  0                   0                    0
     C. Cumulative Results of Operations - Earmarked Funds                       0                   0                    0
     D. Cumulative Results of Operations - Other Funds                     994,965          35,003,265               -6,116
 6. TOTAL NET POSITION                                          $          994,965   $      35,003,265   $           -6,116
 7. TOTAL LIABILITIES AND NET POSITION                          $        2,862,356   $      35,762,954   $           -2,620




The accompanying notes are an integral part of these financial statements.


146
                                                                   2006 Annual Financial Statement


    Component           Combined                                   2006                 2005
      Level               Total            Eliminations         Consolidated         Consolidated




$          14,940   $      1,357,976   $                0   $        1,357,976   $        1,164,223
                0                  0                    0                    0                    0
                0                  0                    0                    0                    0
                0                  0                    0                    0                    0
               -1            719,592              299,519              420,073              510,560
                0             86,563               81,345                5,218               48,515
$          14,939   $      2,164,131   $          380,864   $        1,783,267   $        1,723,298
$               0   $              0   $                0   $                0   $                0
                0            232,314                    0              232,314              219,929
                0                  0                    0                    0                    0
                0         34,530,876                    0           34,530,876           32,701,689
                0          1,169,165                    0            1,169,165            1,205,556
                0                  0                    0                    0                    0
                0            541,143                    0              541,143              440,337
$          14,939   $     38,637,629   $          380,864   $       38,256,765   $       36,290,809



$               0   $        471,142   $          299,519   $          171,623   $          199,650
                0                  0                    0                    0                    0
                0            255,561               81,345              174,216              146,538
$               0   $        726,703   $          380,864   $          345,839   $          346,188
$          14,080   $        494,347   $                0   $          494,347   $          546,739
                0            227,035                    0              227,035              233,713

                0                  0                    0                    0                    0
                0                  0                    0                    0                    0
              859          1,197,430                    0            1,197,430            1,389,331
$          14,939   $      2,645,515   $          380,864   $        2,264,651   $        2,515,971

$               0   $              0   $                0   $                0   $                0
                0                  0                    0                    0                    0
                0                  0                    0                    0                    0
                0         35,992,114                    0           35,992,114           33,774,838
$               0   $     35,992,114   $                0   $       35,992,114   $       33,774,838
$          14,939   $     38,637,629   $          380,864   $       38,256,765   $       36,290,809




                                                                                                      147
      United States Air Force
Consolidating Statement of Net Cost—Working Capital Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                             Combined                                 2006                2005
                                                               Total           Eliminations        Consolidated        Consolidated
1. Program Costs
   A. Component Level
      1. Gross Costs                                     $            0    $              0    $              0    $         -10,166
      2. (Less: Earned Revenue)                                  90,914                   0              90,914                    0
      3. Net Program Costs                               $       90,914    $              0    $         90,914    $         -10,166
   B. Depot Maintenance
      1. Gross Costs                                     $     6,090,124   $       2,384,852   $       3,705,272   $       4,046,962
      2. (Less: Earned Revenue)                               -6,292,446          -2,643,203          -3,649,243          -3,832,693
      3. Net Program Costs                               $      -202,322   $        -258,351   $          56,029   $         214,269
   C. Information Services
      1. Gross Costs                                     $      164,747    $              2    $         164,745   $         726,191
      2. (Less: Earned Revenue)                                -177,882             -38,979             -138,903            -608,187
      3. Net Program Costs                               $      -13,135    $        -38,977    $          25,842   $         118,004
   D. Supply Management
      1. Gross Costs                                     $     7,482,364   $       2,680,471   $       4,801,893   $       5,751,130
      2. (Less: Earned Revenue)                               -9,467,887          -2,383,143          -7,084,744          -6,974,066
      3. Net Program Costs                               $    -1,985,523   $         297,328   $      -2,282,851   $      -1,222,936
   E. Transportation
      1. Gross Costs                                     $            50   $              0    $              50   $             77
      2. (Less: Earned Revenue)                                   -1,047                  0               -1,047                  0
      3. Net Program Costs                               $          -997   $              0    $            -997   $             77
   F. Total Program Costs
      1. Gross Costs                                     $    13,737,285   $       5,065,325   $       8,671,960   $      10,514,194
      2. (Less: Earned Revenue)                              -15,848,348          -5,065,325         -10,783,023         -11,414,946
      3. Net Program Costs                               $    -2,111,063   $               0   $      -2,111,063   $        -900,752
2. Cost Not Assigned to Programs                                       0                   0                   0                   0
3. (Less: Earned Revenue Not Attributable to Programs)                 0                   0                   0                   0
4. Net Cost of Operations                                $    -2,111,063   $               0   $      -2,111,063   $        -900,752




The accompanying notes are an integral part of these financial statements.


148
                          2006 Annual Financial Statement




This page intentionally left blank.




                                                      149
        United States Air Force
Combining Statement of Budgetary Resources—Working Capital Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                        Depot                 Supply              Information
                                                                     Maintenance            Management              Services
 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES:
 1. Unobligated balance, brought forward, October 1              $           312,798    $          -61,554    $           -58,548
 2. Recoveries of prior year unpaid obligations                                    0                 2,397                 75,221
 3. Budget authority
    3a. Appropriation                                                          1,000                47,577                      0
    3b. Borrowing authority                                                        0                     0                      0
    3c. Contract authority                                                   226,498             9,631,334                      0
 4. Spending authority from offsetting collections
    4a. Earned
        1. Collected                                                       6,252,321             9,438,497                262,384
        2. Change in receivables from Federal sources                        -26,793                34,018                -84,502
    4b. Change in unfilled customer orders
        1. Advance received                                                   10,419                     0                      0
        2. Without advance from Federal sources                               83,995              -790,879               -229,439
    4c. Anticipated for rest of year, without advances                             0                     0                      0
    4d. Previously unavailable                                                     0                     0                      0
    4e. Expenditure transfers from trust funds                                     0                     0                      0
    4f. Subtotal                                                           6,547,440            18,360,547                -51,557
 5. Nonexpenditure transfers, net, anticipated and actual                    -60,000               -49,054                 12,342
 6. Temporarily not available pursuant to Public Law                               0                     0                      0
 7. Permanently not available                                                205,170            -8,672,778                 10,292
 8. Total Budgetary Resources                                    $         7,005,408    $        9,579,558    $           -12,250
 STATUS OF BUDGETARY RESOURCES:
 9. Obligations incurred:
    9a. Direct                                                   $                 0    $                0    $                 0
    9b. Reimbursable                                                       6,077,689             9,569,890                      0
    9c. Subtotal                                                           6,077,689             9,569,890                      0
 10. Unobligated balance:
    10a. Apportioned                                                         927,719                 9,668                -12,250
    10b. Exempt from apportionment                                                 0                     0                      0
    10c. Subtotal                                                            927,719                 9,668                -12,250
 11. Unobligated balance not available                                             0                     0                      0
 12. Total Status of Budgetary Resources                         $         7,005,408    $        9,579,558    $           -12,250
 CHANGE IN OBLIGATED BALANCE:
 13. Obligated balance, Net
     13a. Unpaid obligations, brought forward, October 1                    2,470,811             5,847,564               412,592
     13b. Less: Uncollected customer payments                    $         -2,369,490   $        -2,306,740   $          -326,140
          from Federal sources, brought forward, October 1
     13c. Total unpaid obligated balance                                      101,321             3,540,824                86,452
     13d. Obligations incurred net (+/-)                         $          6,077,689   $         9,569,890   $                 0
 14. Less: Gross outlays                                                   -6,031,588            -9,350,873              -328,704
 15. Obligated balance transferred, net
     15a. Actual transfers, unpaid obligations (+/-)                               0                     0                      0
     15b. Actual transfers, uncollected customer                                   0                     0                      0
          payments from Federal sources (+/-)
 16. Total Unpaid obligated balance transferred, net                               0                     0                      0
 17. Less: Recoveries of prior year unpaid obligations, actual                     0                -2,397                -75,221
     Change in uncollected customer                                          -57,202               756,861                313,942
     payments from Federal sources (+/-)                                                                                  313,942
 18. Obligated balance, net, end of period
     18a. Unpaid obligations                                               2,516,913             6,064,183                  8,667
     18b. Less: Uncollected customer payments
          from Federal sources                                             -2,426,693            -1,549,878               -12,198
     18c. Total, unpaid obligated balance, net, end of period                  90,220             4,514,305                -3,531
 NET OUTLAYS:
 19. Net Outlays:
     19a. Gross outlays                                                     6,031,588             9,350,873               328,704
     19b. Less: Offsetting collections                                     -6,262,739            -9,438,497              -262,385
     19c. Less: Distributed Offsetting receipts                                     0                     0                     0
 20. Net Outlays                                                 $           -231,151   $           -87,624   $            66,319




The accompanying notes are an integral part of these financial statements.


150
                                                                                2006 Annual Financial Statement


                              Component             2006               2005
    Transportation              Level             Combined           Combined


$              9,068      $        90,914     $       292,678    $       134,440
               1,620                    0              79,238                  4

                     0                    0             48,577                  0
                     0                    0                  0                  0
                     0                    0          9,857,832          9,744,293


                   1                  -15           15,953,188         16,559,412
                -617               34,736              -43,158             50,393

                   0                    0               10,419           -121,421
                   0                    0             -936,323            692,744
                   0                    0                    0                  0
                   0                    0                    0                  0
                   0                    0                    0                  0
                -616               34,721           24,890,535         26,925,421
             -10,072                    0             -106,784            -73,911
                   0                    0                    0                  0
                   0                    0           -8,457,316        -10,801,211
$                  0      $       125,635     $     16,698,351   $     16,184,743



$                    0    $             0     $              0   $              0
                     0            125,635           15,773,214         15,892,064
                     0            125,635           15,773,214         15,892,064

                     0                  0              925,137            292,678
                     0                  0                    0                  0
                     0                  0              925,137            292,678
                     0                  0                    0                  1
$                    0    $       125,635     $     16,698,351   $     16,184,743



               1,685              -111,324           8,621,328          8,980,235
$               -617      $         35,595    $     -4,967,392   $     -4,224,253

               1,068              -75,729            3,653,936          4,755,982
$                  0      $       125,635     $     15,773,214   $     15,892,064
                 -64                 -230          -15,711,459        -16,250,968

                     0                    0                  0                  0
                     0                    0                  0                  0

                   0                     0                  0                   0
              -1,620                     0            -79,238                  -4
                 617               -34,736            979,482            -743,137


                     0             14,080            8,603,843          8,621,328

                     0                859           -3,987,910         -4,967,392
                     0             14,939            4,615,933          3,653,936



                     64               230           15,711,459         16,250,968
                      0                15          -15,963,606        -16,437,991
                      0                 0                    0                  0
$                    64   $           245     $       -252,147   $       -187,023




                                                                                                            151
        United States Air Force
Consolidating Statement of Financing—Working Capital Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                                                    Depot               Supply            Information
                                                                                                 Maintenance          Management            Services            Transportation
Resources Used to Finance Activities:
Budgetary Resources Obligated
1. Obligations incurred                                                                      $        6,077,689   $       9,569,890   $               0     $                 0
2. Less: Spending authority from offsetting collections and recoveries                               -6,319,942          -8,684,033             -23,664                  -1,004
3. Obligations net of offsetting collections and recoveries                                            -242,253             885,857             -23,664                  -1,004
4. Less: Offsetting receipts (-)                                                                              0                   0                   0                       0
5. Net obligations                                                                                     -242,253             885,857             -23,664                  -1,004
Other Resources
6. Donations and forfeitures of property                                                                     0                   0                    0                       0
7. Transfers in/out without reimbursement (+/-)                                                              0                   0                    0                       0
8. Imputed financing from costs absorbed by others                                                     145,114              19,482                   13                       0
9. Other (+/-)                                                                                               0                   0                    0                       0
10. Net other resources used to finance activities                                                     145,114              19,482                   13                       0
11. Total resources used to finance activities                                               $         -97,139    $        905,339    $         -23,651     $            -1,004

Resources Used to Finance Items not Part
of the Net Cost of Operations
12. Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided
    12a. Undelivered Orders (-)                                                                       -193,259            -259,993              239,038                          0
    12b. Unfilled Customer Orders                                                                       94,414            -790,879             -229,439                          0
13. Resources that fund expenses recognized in prior periods                                                 0                   0               -7,923                          0
14. Budgetary offsetting collections and receipts that
   do not affect net cost of operations                                                                      0                    0                   0                          0
15. Resources that finance the acquisition of assets                                                  -139,491           -4,854,112               5,145                          0
16. Other resources or adjustments to net obligated resources
    that do not affect net cost of operations
    16a. Less: Trust or Special Fund Receipts Related to exchange in the Entity's Budget                     0                    0                   0                       0
    16b. Other (+/-)                                                                                         0                    0                   0                       0
17. Total resources used to finance items not part of the net cost of operations             $        -238,336    $      -5,904,984   $           6,821     $                 0
18. Total resources used to finance the net cost of operations                               $        -335,475    $      -4,999,645   $         -16,830     $            -1,004

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
19. Increase in annual leave liability                                                                       0                   0                      0                        0
20. Increase in environmental and disposal liability                                                         0                   0                      0                        0
21. Upward/Downward reestimates of credit subsidy expense (+/-)                                              0                   0                      0                        0
22. Increase in exchange revenue receivable from the public (-)                                              6                   0                      0                        0
23. Other (+/-)                                                                                            859                 385                      0                        0
24. Total components of Net Cost of Operations that
     will require or generate resources in future periods                                    $             865    $            385    $                 0   $                    0

Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                                      123,024              43,169                    0                          0
26. Revaluation of assets or liabilities (+/-)                                                          21,367             824,330                3,697                          7
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                                          0                  0                    0                          0
    27b. Cost of Goods Sold                                                                           5,130,847                  0                    0                          0
    27c. Operating Material & Supplies Used                                                                   0                  0                    0                          0
    27d. Other                                                                                       -5,142,950          2,146,238                    0                          0
28. Total components of Net Cost of Operations that will not require or generate resources              132,288          3,013,737                3,697                          7
29. Total components of net cost of operations that
    will not require or generate resources in the current period                             $         133,153    $       3,014,122   $           3,697     $                 7
30. Net Cost of Operations                                                                   $        -202,322    $      -1,985,523   $         -13,133     $              -997




The accompanying notes are an integral part of these financial statements.


152
                                                                                 2006 Annual Financial Statement


    Component            Combined              2006                2005
      Level                Total            Consolidated        Consolidated



$       125,635      $     15,773,214   $      15,773,214   $       15,892,064
        -34,721           -15,063,364         -15,063,364          -17,181,132
         90,914               709,850             709,850           -1,289,068
              0                     0                   0                    0
         90,914               709,850             709,850           -1,289,068

              0                    0                    0                    0
              0                    0                    0                    0
              0              164,609              164,609              168,434
              0                    0                    0                    0
              0              164,609              164,609              168,434
$        90,914      $       874,459    $         874,459   $       -1,120,634




                0           -214,214             -214,214             180,293
                0           -925,904             -925,904             571,323
                0             -7,923               -7,923              -5,775

                0                   0                   0                    0
                0          -4,988,458          -4,988,458           -5,376,780



              0                     0                   0                    0
              0                     0                   0                    0
$             0      $     -6,136,499   $      -6,136,499   $       -4,630,939
$        90,914      $     -5,262,040   $      -5,262,040   $       -5,751,573




                0                  0                    0                   0
                0                  0                    0                   0
                0                  0                    0                   0
                0                  6                    6                   0
                0              1,244                1,244               5,961

$               0    $         1,250    $           1,250   $           5,961


                0            166,193              166,193             190,703
                0            849,401              849,401               3,193

                 0                  0                   0                   0
                 0          5,130,847           5,130,847           5,026,640
                 0                  0                   0             416,094
                -2         -2,996,714          -2,996,714            -791,770
                -2          3,149,727           3,149,727           4,844,860

$            -2      $      3,150,977   $       3,150,977   $       4,850,821
$        90,912      $     -2,111,063   $      -2,111,063   $        -900,752




                                                                                                             153
      United States Air Force




                                This page intentionally left blank.




154
             2006 Annual Financial Statement




Working Capital Fund
Required Supplementary
Information




                                         155
       United States Air Force
Disaggregated Statement of Budgetary Resources—Working Capital Fund
For the periods ended September 30, 2006 and 2005 ($ in Thousands)

                                                                     Working Capital             2006               2005
                                                                         Funds                 Combined           Combined
 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES:
 1. Unobligated balance, brought forward, October 1              $              292,679    $       292,678    $       134,440
 2. Recoveries of prior year unpaid obligations                                  79,239             79,238                  4
 3. Budget authority
    3a. Appropriation                                                            48,577              48,577                  0
    3b. Borrowing authority                                                           0                   0                  0
    3c. Contract authority                                                    9,857,832           9,857,832          9,744,293
 4. Spending authority from offsetting collections
    4a. Earned
        1. Collected                                                         15,953,188          15,953,188         16,559,412
        2. Change in receivables from Federal sources                           -43,158             -43,158             50,393
    4b. Change in unfilled customer orders
        1. Advance received                                                      10,419              10,419           -121,421
        2. Without Advance from Federal sources                                -936,323            -936,323            692,744
    4c. Anticipated for rest of year, without advances                                0                   0                  0
    4d. Previously unavailable                                                        0                   0                  0
    4e. Expenditure transfers from trust funds                                        0                   0                  0
    4f. Subtotal                                                             24,890,535          24,890,535         26,925,421
 5. Nonexpenditure transfers, net, anticipated and actual                      -106,784            -106,784            -73,911
 6. Temporarily not available pursuant to Public Law                                  0                   0                  0
 7. Permanently not available                                                -8,457,316          -8,457,316        -10,801,211
 8. Total Budgetary Resources                                    $           16,698,353    $     16,698,351   $     16,184,743
 STATUS OF BUDGETARY RESOURCES:
 9. Obligations incurred:
    9a. Direct                                                   $                    0    $              0   $              0
    9b. Reimbursable                                                         15,773,214          15,773,214         15,892,064
    9c. Subtotal                                                             15,773,214          15,773,214         15,892,064
 10. Unobligated balance:
    10a. Apportioned                                                            925,138             925,137            292,678
    10b. Exempt from apportionment                                                    0                   0                  0
    10c. Subtotal                                                               925,138             925,137            292,678
 11. Unobligated balance not available                                                0                   0                  1
 12. Total Status of Budgetary Resources                         $           16,698,352    $     16,698,351   $     16,184,743
 CHANGE IN OBLIGATED BALANCE:
 13. Obligated balance, Net
     13a. Unpaid obligations, brought forward, October 1                      8,621,327           8,621,328          8,980,235
     13b. Less: Uncollected customer payments                    $           -4,967,391    $     -4,967,392   $     -4,224,253
          from Federal sources, brought forward, October 1
     13c. Total unpaid obligated balance                                      3,653,936           3,653,936          4,755,982
     13d. Obligations incurred net (+/-)                         $           15,773,214    $     15,773,214   $     15,892,064
 14. Less: Gross outlays                                                    -15,711,459         -15,711,459        -16,250,968
 15. Obligated balance transferred, net
     15a. Actual transfers, unpaid obligations (+/-)                                   0                  0                  0
     15b. Actual transfers, uncollected customer                                       0                  0                  0
          payments from Federal sources (+/-)
 16. Total Unpaid obligated balance transferred, net                                  0                  0                   0
 17. Less: Recoveries of prior year unpaid obligations, actual                  -79,239            -79,238                  -4
     Change in uncollected customer                                             979,481            979,482            -743,137
     payments from Federal sources (+/-)
 18. Obligated balance, net, end of period
     18a. Unpaid obligations                                                  8,603,843           8,603,843          8,621,328
     18b. Less: Uncollected customer payments (-)
          from Federal sources (-)                                           -3,987,910          -3,987,910         -4,967,392
     18c. Total, unpaid obligated balance, net, end of period                 4,615,933           4,615,933          3,653,936
 NET OUTLAYS:
 19. Net Outlays:
     19a. Gross outlays                                                      15,711,459          15,711,459         16,250,968
     19b. Less: Offsetting collections                                      -15,963,607         -15,963,606        -16,437,991
     19c. Less: Distributed Offsetting receipts                                       0                   0                  0
 20. Net Outlays                                                 $             -252,148    $       -252,147   $       -187,023


The accompanying notes are an integral part of these financial statements.


156
                                                                                   2006 Annual Financial Statement



Required Supplemental Information - Part A
AT97 - Air Force Working Capital Fund                        Treasury      Fund Balance      Accounts         Loans
                                                                                                                         Investments     Other
Schedule, Part A DoD Intragovernmental Asset Balances.        Index:       with Treasury     Receivable     Receivable
($ in Thousands)
Department of Agriculture                                        12                                  $89
Department of Justice                                            15                                $861
Navy General Fund                                                17                               $5,802
Department of State                                              19                                   $8
Department of the Treasury                                       20            $1,357,975             $0
Army General Fund                                                21                               $1,387
General Service Administration                                   47                               $2,437
General Accounting Office                                         5                                   $6
Air Force General Fund                                           57                             $328,052                                   $451
Homeland Security                                                70                               $1,258
National Aeronautics and Space Administration                    80                                 $292
Other Defense Organizations General Funds                        97                              $45,652
Other Defense Organizations Working Capital Funds              97-4930                           $27,882                                 $4,768
Army Working Capital Fund                                    97-4930.001                          $3,081
Navy Working Capital Fund                                    97-4930.002                          $3,269


Required Supplemental Information - Part B
AT97 - Air Force Working Capital Fund                                   Treasury           Accounts         Debts/Borrowings
                                                                                                                                       Other
Schedule, Part B DoD Intragovernmental entity liabilities.               Index:             Payable        From Other Agencies
($ in Thousands)
Navy General Fund                                                        17                      $502
Army General Fund                                                        21                      $564                                     $202
Office of Personnel Management                                            24                                                            $10,599
Air Force General Fund                                                   57                   $68,208                                  $160,484
Homeland Security                                                        70                                                               $966
Other Defense Organizations General Funds                                97                        $1
Other Defense Organizations Working Capital Funds                      97-4930                $99,794                                    $1,965
Army Working Capital Fund                                            97-4930.001                $419
Navy Working Capital Fund                                            97-4930.002               $2,135




                                                                                                                                                 157
      United States Air Force


       Required Supplemental Information - Part C
       AT97 - Air Force Working Capital Fund                                           Treasury       Earned
       Schedule, Part C DoD Intragovernmental revenue and related costs.                Index:       Revenue
       ($ in Thousands)
       Department of Agriculture                                                           12               $495
       Department of the Interior                                                         14                   $1
       Department of Justice                                                               15              $4,313
       Navy General Fund                                                                   17             $70,262
       Department of State                                                                 19               $102
       Department of the Treasury                                                          20                  $0
       Army General Fund                                                                   21             $25,342
       General Service Administration                                                      47                 $83
       National Science Foundation                                                         49                 $13
       General Accounting Office                                                           5                   $8
       Air Force General Fund                                                              57          $8,236,112
       Homeland Security                                                                   70              $8,859
       National Aeronautics and Space Administration                                       80                $719
       Other Defense Organizations General Funds                                          97           $1,267,624
       Other Defense Organizations Working Capital Funds                                97-4930         $381,644
       Army Working Capital Fund                                                      97-4930.001              $0
       Navy Working Capital Fund                                                      97-4930.002         $84,767


       Required Supplemental Information - Part E
                                                                           Treasury      Transfers   Transfers
       AT97 - Air Force Working Capital Fund
                                                                            Index:          In          Out
       ($ in Thousands)
       Air Force General Fund                                                57                       $106,784




158
            2006 Annual Financial Statement




Working Capital Fund
Audit Opinion




                                        159
      United States Air Force




                                This page intentionally left blank.




160
2006 Annual Financial Statement




                            161
      United States Air Force




162
2006 Annual Financial Statement




                            163
      United States Air Force




164
2006 Annual Financial Statement




                            165
      United States Air Force




166
